<html>
<title> - INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2017</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                    INTERIOR, ENVIRONMENT, AND RELATED
                     AGENCIES APPROPRIATIONS FOR 2017

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              SECOND SESSION

                       ___________________________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES

                    KEN CALVERT, California, Chairman

  MICHAEL K. SIMPSON, Idaho                  BETTY McCOLLUM, Minnesota
  TOM COLE, Oklahoma                         CHELLIE PINGREE, Maine
  DAVID P. JOYCE, Ohio                       DEREK KILMER, Washington
  CHRIS STEWART, Utah                        STEVE ISRAEL, New York
  MARK E. AMODEI, Nevada
  EVAN H. JENKINS, West Virginia

   

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

               Dave LesStrang, Darren Benjamin, Jason Gray,
             Betsy Bina, Jaclyn Kilroy, and Kristin Richmond,
                             Staff Assistants

                         ________________________

                                  PART 7

                                                                   Page
  U.S. Fish and Wildlife Service Budget 
Oversight Hearing.................................................   1
                                                                      
  National Park Service Budget Oversight 
Hearing..........................................................   95
                                                                     
  Bureau of Indian Affairs/Bureau of 
Indian Education Budget Oversight 
Hearing..........................................................  173
                                                                    
  Environmental Protection Agency Budget 
Oversight Hearing................................................  247
                                                                    
  Smithsonian Institution Budget 
Oversight Hearing................................................  341
                                                                    
                       _________________

          Printed for the use of the Committee on Appropriations

                        ________________
                        

                    U.S. GOVERNMENT PUBLISHING OFFICE

  20-144                  WASHINGTON : 2016

                            



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey                    NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                            MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                                     PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                              JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                            ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida                                DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas                                  LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California                                SAM FARR, California
  TOM COLE, Oklahoma                                     CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida                             SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania                          BARBARA LEE, California
  TOM GRAVES, Georgia                                    MICHAEL M. HONDA, California
  KEVIN YODER, Kansas                                    BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas                                 STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska                             TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida                              C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee                      DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington                      HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio                                   CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California                           MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland                                  DEREK KILMER, Washington
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

  

                William E. Smith, Clerk and Staff Director

                                   (ii)
                                   


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2017

                             ----------                              

                                           Tuesday, March 15, 2016.

    UNITED STATES FISH AND WILDLIFE SERVICE BUDGET OVERSIGHT HEARING

                               WITNESSES

DAN ASHE, DIRECTOR, UNITED STATES FISH AND WILDLIFE SERVICE
CHRIS NOLIN, BUDGET OFFICER, UNITED STATES FISH AND WILDLIFE SERVICE
GARY FRAZER, ASSISTANT DIRECTOR FOR ECOLOGICAL SERVICES, UNITED STATES 
    FISH AND WILDLIFE SERVICE

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. Good morning, and welcome to the 
subcommittee's oversight hearing on the President's fiscal year 
2017 budget for the U.S. Fish and Wildlife Service. I am 
pleased to welcome back Dan Ashe, Director of the Fish and 
Wildlife Service, and Chris Nolin, the Service budget officer.
    The President is proposing a $59 million, 4 percent 
increase for the Fish and Wildlife Service, an increase which 
relies on gimmicks to skirt the cap on nondefense discretionary 
spending agreed to less than a year ago.
    So while the Service's proposed budget is insightful 
insofar as the service priorities, it is not realistic. The 
subcommittee's challenge will continue to be to work within our 
allocation to ensure that the Fish and Wildlife Service has the 
budget necessary to carry out, first and foremost, those 
actions required by law, as opposed to those actions simply 
authorized by law.
    The greatest concern continues to be the Endangered Species 
Act budget. Despite the law's many mandates, actions continue 
to be driven by lawsuits. Other mandates such as recovery 
plans, 5-year reviews, and status changes are put on a back 
burner.
    That is why listed species tend to stay listed, and why 
people are so frustrated by the Endangered Species Act. If the 
government is not prepared to carry out its full 
responsibilities under the law, then it should not be listing 
species in the first place.
    Granted, the Fish and Wildlife Service deserves credit for 
delisting 15 species over the past 8 years. But there is still 
a backlog of 49 waiting to be down-listed or delisted, 318 
awaiting 5-year status reviews, and 1,159 awaiting recovery 
plans. We will ensure that the agency has the budget needed in 
fiscal year 2017 to continue to whittle away at these backlogs.
    We also ensure that the agency continues to whittle away at 
the maintenance backlogs at national wildlife refuges and 
national fish hatcheries. The National Wildlife Refuge System 
backlog, for example, has declined annually since 2012, but 
still exceeds $1.1 billion. The fiscal year 2017 budget is not 
enough to keep driving that number down, so the subcommittee 
will appropriate an amount that will.
    It is irresponsible for the Federal Government to add to 
its estate if it cannot even maintain what it already owns.
    Last but not least, we will continue to arm the service 
with the resources it needs to combat international wildlife 
trafficking. The escalation of trafficking in recent years has 
put many iconic species in grave danger and has fueled the 
activities of those who are a threat to our national security.
    Closer to home, the extended drought in California 
continues to threaten the Nation's food security. California 
produces nearly half the Nation's fruits, nuts, and vegetables. 
It is the Nation's largest dairy State. I am sorry to point 
that out to Minnesota.
    The drought has cost us $1.8 billion in economic losses and 
10,000 jobs. People are desperate. Unemployment and suicide 
rates are now among the highest in the Nation.
    Now some people believe that California should return to 
the desert it used to be, but the fact is that the Nation 
cannot afford to feed its people without California, and long-
term reliance on food imports makes our Nation vulnerable. We 
must save California's agriculture.
    Witnesses in previous hearings before the subcommittee have 
testified that the problem is simply not enough water. If that 
was really the case, then we should have been able to pump and 
store a good portion of this winter's El Nino rains. Instead, 
we pumped less than last year--less.
    If the Fish and Wildlife Service had simply allowed the 
Bureau of Reclamation to pump the maximum allowable under the 
biological opinion, we could have pumped enough water to serve 
2 million people for an entire year, the population of San 
Diego and San Francisco combined. Instead, that water went out 
to sea, and it is not coming back.
    El Nino has proven that the problem is not the quantity of 
water but the regulation of water. So much of the regulation is 
dictated by the Fish and Wildlife Service under the mandates of 
the Endangered Species Act, with wide latitude afforded 
scientific uncertainty and save-at-any-cost policy that borders 
on dogma.
    Enough is enough. For the sake of the people of California 
who fuel the Nation's largest economic engine, who grow the 
Nation's largest fresh food supply, and who push the Nation to 
the cutting edge of technology, we must reconsider what the 
Federal Government is doing with our water. We must reconsider 
calling on the Endangered Species Committee.
    I get that the Fish and Wildlife Service feels its hands 
are tied, which is why this is yet another policy matter 
banging on the front door of a statute long overdue for the 
reauthorization process. This is not about the Fish and 
Wildlife Service. It is not meant to be criticism of any of the 
thousands of outstanding scientists and other employees of the 
service who are faithfully executing the laws of the United 
States on behalf of the people and natural resources we highly 
value.
    Along those lines, in closing, let me take a moment to 
recognize some of these employees in another part of the 
country that was recently featured so prominently in the news. 
I want to give a short shout-out directly to the men and women 
of the Fish and Wildlife Service who are working at or in 
support of the Malheur National Wildlife Refuge in Oregon.
    No doubt it was and continues to be a difficult ordeal for 
you and your families. I hope you will take some comfort in 
knowing that while the Nation was glued to the press, your 
refuge neighbors, ranchers, came to your defense and made 
Congress aware that cooperative conservation can work when 
landscape neighbors truly work together.
    For your collective efforts, we commend you.
    I am now pleased to yield to our distinguished ranking 
member, Betty McCollum, for her opening remarks.
    Ms. McCollum. Thank you, Mr. Chairman.

                    Opening Remarks of Ms. McCollum

    I also would like to welcome Director Ashe to the 
subcommittee this morning. Thank you for being here.
    And I would like to extend my congratulations to National 
Wildlife Refuge System, which yesterday celebrated 113 years of 
wildlife conservation. Happy birthday. Happy anniversary. 
Congratulations.
    This year, Fish and Wildlife Service has some great 
accomplishments to celebrate. The Yellowstone grizzly bear has 
been successfully recovered and proposed for delisting. The 
Monarch butterfly population grew 255 percent, showing signs of 
effective conservation efforts with our partners.
    You engaged everyone in the United States for Monarch 
protection, and it is working.
    Sadly, however, the Service also faced challenges. This 
January, as the chair pointed out, armed occupiers took over 
the Malheur National Wildlife Refuge, keeping dedicated 
employees from carrying out their mission. There should be no 
tolerance for threats of violence and intimidation against 
public servants who are the conservators of America's nature, 
or denial of the opportunity for any citizen to safely enjoy 
America's public lands and waters.
    As was pointed out by the chair, you are much appreciated 
and respected in that part of Oregon. You did have your 
neighbors stand up and say enough is enough.
    The fiscal year 2017 Fish and Wildlife Service budget 
requests a modest increase to expand opportunities to 
experience nature and rebuild urban areas, and to rebuild 
capacity and make targeted increases to address some of the 
Service's most pressing challenges.
    The budget increased support for the National Wildlife 
Refuge System by $25 million, of which $2 million will be going 
toward refuge law enforcement, adding much-needed Federal 
wildlife officers to protect visitors, staff, and our natural 
resources. Another 
$5 million will increase support for refuge maintenance.
    The Fish and Wildlife Service has been working for several 
years to bring down its maintenance backlog, and this increase 
will continue momentum to relieve some of the strains on their 
facilities.
    I am particularly interested in the $6 million increase for 
the Urban Wildlife Conservation Program. Urban refuges are the 
most important part of youth engagement, serving as an outdoor 
classroom for thousands of children. Over 80 percent of 
Americans live in cities, so it is essential that our youth 
engagement initiatives, such as the Urban Wildlife Refuge 
Partners, connect those children with wildlife and nature so 
that they become the next generation of good stewards of this 
land.
    There is also a growing body of scientific research that 
finds a connection between nature experiences and public 
health, such as reduced stress and improved physical and mental 
wellness. Americans of every age can benefit from this proposed 
investment in healthy ecosystems.
    Additionally, the budget combats invasive species, builds 
on science programs, works to build more collaborative efforts 
with partners, and provides appropriate resources to make 
timely listing determinations, process permits, and expedite 
project reviews to avoid delays, which could negatively impact 
economic growth and job creation.
    I am also pleased that the service is proposing increases 
for the State and Tribal Wildlife Grants program. States are 
important partners, and these funds support their conservation 
and management of wildlife and habitat.
    This budget request is reasonable, and it will move the 
Fish and Wildlife Service toward meeting its commitment to 
preserve and protect our living natural resources.
    Director Ashe, thank you for the work you do. Thank you to 
all the employees of the Fish and Wildlife Service for all that 
you do for all of us here.
    So thank you for your testimony. I look forward to hearing 
it.
    Mr. Chairman, I yield back.
    Mr. Calvert. I thank the gentlelady.
    The full committee chairman is not with us today, so, Dan, 
you are recognized for your opening statement.

                    Opening Remarks of Director Ashe

    Mr. Ashe. Thank you, Mr. Chairman and Ms. McCollum, 
subcommittee members. Thank you very much for the opportunity 
to be here with you today.
    I will try to provide a little bit of context for where the 
U.S. Fish and Wildlife Service is today. When you think about 
the Fish and Wildlife Service, you should think about an 
organization where the heart and soul of the organization is in 
something that we collectively call the field. We are a 
decentralized organization. The core of the organization is in 
what we call our field structure, our field offices, national 
wildlife refuges, national fish hatcheries, ecological field 
services, field stations, and fish and wildlife conservation 
offices. These are the people, the women and men, of the Fish 
and Wildlife Service who make our success possible.
    Mr. Calvert, Ms. McCollum, you both mentioned the situation 
at Malheur. I will speak to that just momentarily. We saw 41 
days, beginning January 2, where we had something that was 
unimaginable really for us, an armed occupation of one of our 
Nation's national wildlife refuges.
    I do believe, as you both have mentioned, that what we saw 
there in a way was amazing, where the community there, 
regardless of whether people felt sympathy for the motivations 
of the occupiers, they overwhelmingly rejected their methods 
and they said to them, we are working with the government in 
the context of a comprehensive conservation planning process at 
the refuge and in the context of candidate conservation 
agreements with assurances within Harney County, at large.
    So we saw the benefits of that field structure, that 
engagement of local people and communities. That is what the 
$59 million increase, Mr. Chairman, that you mentioned, that 
$59 million will help us enrich and reinvigorate our field 
structure, so we can continue to produce that kind of success, 
that kind of community engagement that is the hallmark of the 
work of our people in the field.
    You mentioned ESA. Of course, it is an important law, one 
of our Nation's bedrock environmental laws. It does not come 
without controversy, but I do believe we have shown we can make 
it work with the application of dollars you have thankfully 
provided us. We have seen recovery working by making strategic 
investment. We have seen cooperative and voluntary conservation 
working, as we saw in Technicolor with the sage-grouse refuges.
    Again, you mentioned backlog and maintenance, but I think 
what we have shown with the National Wildlife Refuge System is 
we can grow the National Wildlife Refuge System. The refuge 
system has grown orders of magnitude larger than any other land 
management system during the last 8 years.
    We have reduced our deferred maintenance backlog by nearly 
one-half, not whittled away at it. We have taken big chunks out 
of it. We have done that by strategically using the dollars 
that you gave us through the American Recovery and Reinvestment 
Act, and by tactically managing our maintenance backlog.
    So we can see success. I think the urban refuge initiative 
that Ms. McCollum mentioned is one of the most exciting efforts 
within the U.S. Fish and Wildlife Service, to take wildlife 
conservation to our great urban centers, and build a new 
generation of conservationists that will help us solve problems 
like conservation of the Monarch butterfly.
    We have been able, again with your help, to deal with our 
fish hatcheries system. And probably for the first time in the 
4 years that I have testified before this committee, hatcheries 
and hatchery maintenance is probably not going to be a large 
part of the dialogue that we have here today, because we have 
worked, with your help, to put our National Fish Hatchery 
System on good footing. Again, the budget that we are 
presenting this year, particularly with regard to maintenance, 
will help us ensure that continues.
    I do want to thank you. I want to thank you for the happy 
birthday wishes. Yesterday morning I was at Pelican Island 
National Wildlife Refuge in Florida celebrating the 113th 
birthday of the National Wildlife Refuge System.
    And again, thank you for the kind words that you have said 
about our people. When you think about that $59 million, please 
think about those people in the field, because that is what 
allows us to be successful.
    [The statement of Director Ashe follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
                              DELTA SMELT

    Mr. Calvert. Thank you for your testimony. I have some 
correspondence here from Senator Feinstein, calling for 
increased pumping to capture water from these El Nino storms 
that I would like to submit for the record, without objection.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
      
                              DELTA SMELT

    Mr. Calvert. As I said in my opening statement, I am deeply 
concerned about the choices the Federal Government is making 
with California's water. Instead of harvesting El Nino rains to 
irrigate the Nation's produce and refill our reservoirs, the 
government is sending El Nino water underneath the Golden Gate 
Bridge and out to sea.
    Any preconception California had had about El Nino rain 
providing some relief for the drought has turned out to be 
mostly false. And California is looking for an explanation.
    The Central Valley project is capable of pumping 11,000 
cubic feet of water per second. Last week, 50,000 cubic feet of 
water per second moved through the Delta. But pumping was 
restricted to 5,000 cubic feet because of the Delta smelt.
    Today, 100,000 cubic feet of water per second is moving 
through the Delta, but pumping is still restricted to 5,000 
cubic feet because of the Delta smelt.
    The agencies are considering further restrictions tomorrow, 
as I understand it, because of salmon. In other words, 
yesterday, 90 percent of the Delta water was off-limits. Today, 
95 percent of the water is off-limits. Tomorrow, the percentage 
goes higher, as much as 97 percent of the water.
    No matter how much water is moving through the Delta, it 
seems, the fish always need more, and the Federal Government, 
hamstrung by the Endangered Species Act, gives it to them.
    At what point, Director, does 100 percent of the Delta's 
water become off-limits because of the Endangered Species Act?
    Mr. Ashe. I do not know the answer to your question, Mr. 
Chairman. I think what I would tell you, and I know you do 
realize, is the Delta smelt is literally on the verge of 
extinction. The same is true for endangered salmon that NOAA 
Fisheries has principal responsibility for.
    These fish are literally teetering on extinction. As you 
and I have discussed before, our population estimate for the 
Delta smelt is now a range estimated at 18,000 plus or minus 
18,000, which means that we know there are some fish out there, 
but the population is literally teetering on the brink of 
extinction.
    Mr. Calvert. What else are we doing besides restricting 
pumping to try to recover smelt? And is it working?
    Mr. Ashe. Well, it is not working. Nothing that we are 
doing is working for the smelt.
    The largest source of take and disturbance for the Delta 
smelt is pumping of water to meet human needs. That has been 
the principal focus of our efforts to date, because we have to 
do that in order to ensure the project operates.
    We have used a lot of flexibility over the last 2 years to 
allow pumping to occur, but it is clear now that our use of 
that flexibility has not worked to the advantage of the fish. 
So we are just out of flexibility right now.
    The law does not allow us to turn a blind eye to a species 
that is about to go extinct. So we are in a situation, Mr. 
Chairman, where we just have no flexibility. That is a 
difficult place to be. I know it is challenging for you 
personally, as it is for me.
    Mr. Calvert. In 2008, your Service regional director said: 
Just as releasing Delta smelt into a degraded Delta will fail 
to restore them to self-sustaining levels, so will habitat 
restoration efforts fail if there are not enough fish to 
rebuild the population.
    Unfortunately, that is a very real possibility, as you 
point out, because the current data suggests Delta smelt 
populations might already be so low that they cannot be 
recovered without supplementation.
    The Service broadcast that it was in the initial stages of 
planning for a new hatchery facility to propagate Delta smelt. 
Just last week, the Service said it is still in the planning 
stage. What are we waiting for? Why is this taking so long?
    Mr. Ashe. What I can do is get you a timeline for 
completion of those plans. We do have at least one fish 
hatchery that is capable of producing Delta smelt, and I 
believe is producing Delta smelt. So we have capacities that 
are available to serve as refuges for the population in the 
event that that is necessary.
    [The information follows:]

    The Service, in partnership with the University of California at 
Davis (UC Davis), and the California Department of Water Resources, has 
developed the capacity to spawn and rear Delta smelt in captivity at 
Livingston Stone National Fish Hatchery (LSNFH). Currently, there are 
two refugial populations of Delta smelt: the primary population being 
maintained by the University of California at Davis at the State's 
pumping facility in Tracy, and a backup population maintained by the 
Service at LSNFH in Shasta City. These populations are managed to 
include the range of genetic diversity observed in the wild population. 
Unlike Tule Chinook Salmon, the Delta smelt produced in captivity are 
not released into the wild. Instead, they serve as a source of fish for 
research. Captive bred Delta smelt could be used for future 
reintroduction or supplementation, should either of those actions be 
determined necessary to recover the species.

    We have not, Mr. Chairman, considered supplementation as 
part of a strategy, because the habitat is not there to support 
them. Supplementation, putting fish into an environment where 
they cannot survive, is not a recovery strategy.
    But we do have refuge capacity, if we need to maintain fish 
in a captive state. As you know, our available staff spend all 
of their time trying to deal with the project and operation of 
the project, and the California Water Fix. The Governor of 
California expects us to support the California Water Fix and 
the project operations, so that is what our staff are doing. 
That is what they spend all of their time doing.
    Mr. Calvert. One quick question, and then I am going to 
turn it over to the ranking for questions, because we are going 
to have another round on this.
    One thing that has always bothered me is the nonnative 
striped bass, which is a predator fish, which has pretty much 
wiped out the native California bass and is primarily the main 
predator for the Delta smelt, wiping them out as we speak.
    Do striped bass prey on smelt? We all know that they do. 
And if so, does the mandate to conserve striped bass conflict 
with the mandate to recover Delta smelt?
    Mr. Ashe. We do not have a mandate to conserve striped 
bass, so we are not----
    Mr. Calvert. But there are those in the area that are 
preserving the striped bass population.
    Mr. Ashe. Sure. Striped bass prey on all lifestages of 
Delta smelt. They are voracious predators. Largemouth bass is 
an introduced species also, a great predator of smelt and other 
species.
    But, again, our biologists do not see that as a limiting 
factor in terms of Delta smelt population and recovery at the 
population level. They do not see predation as a significant 
limiting factor. The most significant factor is the operation 
of the California State and Federal water projects.
    Mr. Calvert. I will get back for another round. This is not 
a partisan issue.
    Mr. Ashe. Right.
    Mr. Calvert. Senator Feinstein feels as strongly about this 
as I do. This is destroying the Central Valley as we know it, 
as I said in my opening statement.
    I will turn it over to Ms. McCollum.
    Ms. McCollum. Mr. Chair, I would like to yield at this time 
to Ms. Pingree from Maine.
    Ms. Pingree. Thank you. Thank you to the ranking member.
    And thank you very much, Director Ashe, for being here 
today. It is nice to see you. You and I have spent a lot of 
quality time together in your tenure here, and I do really 
appreciate the work that you do, the work of the Fish and 
Wildlife Service, and all of your employees. I know you have 
had a lot of challenges in the past year, and I really 
appreciate how you have handled them all.

                     ECHINODERMS: IMPORT AND EXPORT

    I will say something briefly about sea urchins, since you 
and I get to talk about that quite a bit. I have been very 
concerned about the inspection requirements for urchins that 
are processed in my State and exported to Asia. The committee 
has heard me talk about this quite a bit.
    As you know, they are highly perishable and the inspection 
process is very difficult for the urchin dealers. We first 
started talking about it I think in December 2014, and you have 
spent a lot of time, and your department has spent a lot of 
time, working with us on this. We have not completely worked 
out the solution, but I am optimistic we are making progress, 
and I am determined that we will solve this problem once and 
for all, and I can go home safely to my district.
    Mr. Ashe. That is a high priority.
    Ms. Pingree. Yes, and say we worked out some of these 
challenging issues.
    Mr. Ashe. Thank you. I am glad to hear you say that. I 
think we are close to a solution. I think we will get there.
    Ms. Pingree. Yes, if it goes my way, I think we will be 
great. [Laughter.]
    Mr. Calvert. Do you want some smelt over there?
    Ms. Pingree. Keep your fish out of our State.

                AQUATIC ANIMAL DRUG APPROVAL PARTNERSHIP

    I actually want to talk about a couple other fish things. 
You know, we take fish very seriously in my State. We are proud 
of our fishing industry. We are proud of our aquaculture and 
sport-fishing industry. And all of these areas are of deep 
concern to us.
    But I want to talk about the aquatic drug approval 
partnership. I have heard about this program from some of the 
researchers who are working on it daily, trying to understand 
the diseases that affect our fish and also establish some of 
the safe and effective treatment programs to protect against 
them.
    As you are aware, the budget cuts to the AADAP in recent 
years have threatened the future of both the program and new 
drug approvals for United States aquaculture. In the 2016 
omnibus appropriations bill, we were pleased to support the 
language that requires not less than $400,000 for the Aquatic 
Animal Dr. g Approval Partnership.
    So one of my questions is, can you talk to me a little bit 
about your thoughts on the importance of this program? And will 
we have adequate funding to do it, since there is some 
flexibility in there?
    Mr. Ashe. Thank you. Actually, AADAP is a good example. The 
U.S. Fish and Wildlife Service is, at this point in time skin, 
bone and muscle. There is nothing left. So every time we talk 
about reducing something, it is significant.
    AADAP is one of those things that is very, very important 
to not just the Fish and Wildlife Service in our hatchery 
capacity, but to our State counterparts running hatcheries, and 
to private aquaculture industry. They provide a very vital 
service.
    So you think a $400,000 effort, well, maybe we can get rid 
of that, but it is like everything else. You pull on a thread 
and everything starts to unravel.
    I think we are actually in a good place with AADAP. We have 
raised the fees for participation, and we got a little bit of 
grumbling about that, but I think the community, at large, 
realizes we are all in this together. So the $400,000 in base 
funding the committee provides us with, in combination with the 
increase in fees, has put the AADAP program on a good footing.
    We have a good balance there, and we are going to be able 
to maintain and expand the capacity in AADAP in the coming 
years.
    Ms. Pingree. Thank you for that. I hope that is true, 
because there are an awful lot of drugs that need approval.
    Mr. Ashe. I would say that, in the committee's broader 
responsibilities, the Food and Dr. g Administration has been 
helpful in providing some grant funding for AADAP as well. So 
continuing that support through FDA is going to be an important 
ingredient in success in the future.

                              FISH PASSAGE

    Ms. Pingree. Great. I am going to ask you one other quick 
thing, and I will keep that in mind about the FDA, since that 
is my other committee that I am about to go to.
    Just about fish passage programs, certainly that has been 
an important part of some of the changes in Maine. Removing 
something like the Veazie Dam has given us a chance to have 
sturgeon, alewives, salmon, fish that we really want to see 
coming up the river, not some of the challenging fish.
    The budget has level funding, and it is really important 
that there is some kind of expanded footprint for this program. 
Are there any opportunities to do more with it using nonfederal 
funds? Have you thought about how to do more with that?
    Mr. Ashe. Sure. I believe we have an increase, $1.5 million 
for the National Fish Passage Program.
    We had a signature success with the Penobscot River in 
Maine. I would say that is the key ingredient, where we 
strategically used our funds in the State of Maine with the 
Penobscot Tribe and the Nature Conservancy, and other people 
coming to the table to open 1,500 river miles to fish that 
previously could not get there.
    So great, great opportunities exist for us to replicate 
that success on a big scale, like the Penobscot, and on a small 
drainage scale. The Service has developed engineering 
capability. We have fish passage engineers that are coming out 
of schools, like the University of Massachusetts Amherst.
    It is a great opportunity to restore fisheries on a large 
scale. And this program is the catalyst that often helps bring 
people together to provide key stimulus.
    The increase we have requested for this year is very 
important for building upon that success.
    Ms. Pingree. Great. I am glad to see there is an increase 
in it. It is impressive how you brought so many parties to the 
table for a unique goal that has really made a big difference 
in our State. So thank you for that.
    Thank you, Mr. Chair.
    Mr. Calvert. Thank you.
    Mr. Simpson.

                    MALHEUR NATIONAL WILDLIFE REFUGE

    Mr. Simpson. Thank you, Mr. Chairman.
    Thank you, Director Ashe, for being here today. It is 
always good to see you. Let me add my thanks to the Fish and 
Wildlife employees that have been under duress lately out in 
Oregon and other places. They are good people just trying to do 
the job that we have asked them to do. If we do not want them 
to do that job, they should not be there. We should not hire 
them.
    Mr. Ashe. Public statements from officials like Governor 
Butch Otter were very important. He made some public 
statements, saying that we all have grievances, but this is not 
the way to prosecute your grievances. Having statements like 
that from very responsible public officials certainly helped.
    Mr. Simpson. Yes. From those public officials and ranchers 
in the area and others.

                          MONARCH BUTTERFLIES

    I also want to thank everybody for mentioning the Monarch 
butterfly in their opening statements. As I told you last year, 
that is the state insect of Idaho, so it is almost as good as 
talking about potatoes, but not quite. [Laughter.]
    Mr. Simpson. Now, I do not know who it was who said there 
are only two things that are certain in life, death and taxes. 
There is a third one, and that is that no matter what decision 
Fish and Wildlife Service makes, they are going to be sued by 
someone.
    Mr. Ashe. That is pretty true.
    Mr. Simpson. Have you ever done a delisting that you have 
not been sued on?
    Mr. Ashe. I think we have, but your point is well-taken.

                              GRAY WOLVES

    Mr. Simpson. Somebody is going to be on the opposite side 
of this issue. In fact, that was one of the reasons, when 
wolves were delisted in Idaho and Montana--people say that 
Congress delisted the wolves. We did not delist the wolves. 
They say it was done without any science. We did not delist. 
All we did is tell Fish and Wildlife Service to reissue their 
order of delisting and that it was not subject to judicial 
review.
    Mr. Ashe. Correct.
    Mr. Simpson. Fish and Wildlife did the science and 
everything else.
    Mr. Ashe. We originally proposed the delisting based upon 
our review of the science and our conclusion that wolves were 
recovered. What Congress did in that case was direct us to 
republish our rule, and waive the judicial review.
    Mr. Simpson. Well, last year, you told the subcommittee 
that the gray wolves in Western Great Lakes and Wyoming were 
recovered, did not warrant listing, and the States in those 
areas have responsible management plans.
    Unfortunately, a provision similar to the one for Idaho and 
Montana was not included in the final bill--it was in the House 
appropriations bill, but was not included in the omnibus--that 
would have exempted the listing decision from judicial review 
in the Great Lakes and Wyoming.
    As I understand it, Fish and Wildlife Service has been 
sitting on a proposed rule to delist wolves range-wide. Is that 
true? And if you were to propose that rule, and what is holding 
it up from being proposed, would that not solve the problem, 
other than you are going to get sued?
    Mr. Ashe. The Fish and Wildlife Service proposed a rule to 
delist wolves range-wide. I will just say it was roundly 
criticized.
    Mr. Simpson. Imagine that.
    Mr. Ashe. We have gone back to the drawing board. I only 
have so many people to put on so many things. So my view on 
wolves is that we are in a pickup truck that is in the mud up 
to the running boards. I cannot go forward. I cannot go 
backward. I have no good option. And I have other more 
important things to work on.
    We are at a point with wolves where it is manageable. The 
States are doing a good job. I realize that is not a good 
answer for particularly a State like Wyoming, where we have 
endangered wolves. Fortunately, for Wyoming, they are in the 
10(j), the experimental segment of the population, so we have 
some management flexibilities.
    We now have wolves moving into the Western part of Oregon 
and Washington where they are fully endangered, fully protected 
wolves. That presents a challenge.
    Mr. Simpson. Do those States have management plans?
    Mr. Ashe. They do.
    The wolf population is robust. We have about 1,700 wolves 
in the Rocky Mountain portion of the range, which is about the 
same number of wolves as we had when we delisted them. So the 
States are doing a good job of managing that population.
    The range of wolves is increasing. They have been moving 
west into Oregon and Washington, and into Northern California. 
So we have a bigger range for wolves than we had when we 
delisted them.
    We have more wolves, because now we have I think 130 or so 
wolves in Washington and Oregon.
    So the population continues to grow. The range continues to 
grow. The States are responsibly managing them. We continue to 
believe that wolves are recovered, both in the Rocky Mountains 
and in the Great Lakes, and no longer warrant the protections 
of the Endangered Species Act.
    We are appealing judicial decisions in Wyoming and in the 
Great Lakes. We expect to prevail. So right now, that is our 
principal course, to press the legal case forward.
    Mr. Simpson. It would be nice if we could use the resources 
we are spending on all these lawsuits to actually go out and 
protect the species that need protection under the Endangered 
Species Act when the species are recovered, like wolves, 
instead of having to fight that battle forever and ever and 
ever.
    I suspect you will probably see some language in an 
appropriations bill coming out of somewhere. I do not know 
where.

            MINIDOKA REFUGE COMPREHENSIVE CONSERVATION PLAN

    There are a couple other questions I am going to submit for 
the record on the Comprehensive Conservation Plan for the 
Minidoka refuge. Our office would like an update on what is 
going on there and what that looks like.
    [The information follows:]

    The Service is working on the request for information on the 
Minidoka CCP and will provide the material to the Committee with our 
responses to the Questions for the Record.

                           MITIGATION POLICY

    Secondly, could you briefly tell me what the new mitigation 
proposal policy is that was announced about a week or so ago? 
Can you tell me about the proposed rule that you are 
implementing, and what the implications of that are? You hear 
from both sides that it is terrible.
    Mr. Ashe. I would say the U.S. Fish and Wildlife Service is 
the natural resource management agency that has the greatest 
breadth of experience in dealing with mitigation. What we 
announced a couple weeks ago was a modification to our 
mitigation policy. Our mitigation policy was written in 1981, 
when I was a graduate student at the University of Washington 
in Seattle.
    It is an update of that policy, which provides us a kind of 
broader cast, so we can look at mitigation opportunities on a 
landscape scale rather than a project scale. I think that 
provides us with much more flexibility and discretion to work 
with the project applicants and to leverage mitigation efforts 
so that we are achieving success on a bigger scale.
    I think it is very consistent with where we are with sage-
grouse and lesser prairie chicken and other species.
    It will empower a new generation of work with industry that 
I think will help us manage at the project scale. With species 
like golden eagle or bald eagle, we can more easily permit 
activities at a local scale, but do mitigation on a broader 
scale, so that we are actually achieving better results for the 
species.
    It is an update of an existing policy. It is something that 
we have had substantial experience with, and I think the policy 
will take us to a better place.
    Mr. Simpson. Thank you.
    Mr. Calvert. Thank you.
    Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman. And thank you to the 
Ranking Member.
    Thank you, Director Ashe, for being with us.

                  WASHINGTON STATE HATCHERY COMPLIANCE

    As you know in Washington State, salmon and steelhead 
hatcheries are critical to supporting our Federal trust 
responsibility to the to treaty tribes in our State, including 
11 in my district. The hatcheries are also important to our 
commercial and recreational fisheries, which are really big 
economic drivers in our State and, frankly, throughout the 
entire West Coast.
    Unfortunately, these hatcheries and the livelihoods that 
they support are at risk. The issue here is HGMPs, Hatchery 
Genetic Management Plans. The very significant backlog of these 
HGMPs has exposed the hatchery operations and the Federal 
Government to litigation under the Endangered Species Act.
    In fact, the 60-day waiting period on the first of two 
separate notices of intent to sue is about to end, so there is 
a real and imminent threat that we are going to see hatcheries 
actually close this year unless significant progress is made in 
reducing this backlog.
    I know that the Fish and Wildlife Service has an important 
role to play in working through this backlog to ensure that the 
331 Pacific salmon and steelhead hatchery programs on the West 
Coast can continue to operate.
    So I guess my question to you is, what does the service 
need, in terms of funding and personnel, in order to work 
through this backlog and bring our hatcheries into compliance 
under ESA as quickly as possible, so we do not see the 
hatcheries get shut down and risk the livelihoods of people who 
depend on them?
    Mr. Ashe. Our most important need is what I was talking 
about before, field capacity. People in the field and 
scientific capacity are needed so we can better understand 
questions at the genetic scale.
    The increases we have asked for recovery, for instance, for 
cooperative conservation, for science applications, and 
particularly for this issue, consultations, those are the 
capacities that we are going to need.
    I think we are making progress. We are getting the 
biological opinions done. We have been working with NOAA 
Fisheries on this task, and we expect to have biological 
opinions in place for five watersheds this spring. In April, 
they will be able to do stocking.
    I think we are making progress and will continue to make 
progress. But that field capacity is critical for us, 
particularly I would say in this area, the recovery, 
cooperative conservation, and science applications. Those are 
the ingredients of success for this effort.
    Mr. Kilmer. And based on what the service has asked for in 
the budget, is it your expectation that we will see significant 
progress made in dealing with the backlog and specifically on 
the ones where we have a real threat of litigation?
    Mr. Ashe. Yes. What I would like to do is come talk to you 
personally about what we can envision going forward. What I am 
told is that we will see five watersheds where we will see 
stocking in April.
    So that is success. We need to build upon that.
    I will go back and get a forecast looking forward, 
especially if we get the dollars we are asking for, on what we 
can expect in terms of additional success.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Mr. Kilmer. I would appreciate that.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Chairman.
    Mr. Ashe, it is always good to see you. I appreciate you 
and your organization. I think you try in sometimes difficult 
situations.
    I am going to start with a supposition. I am not going to 
ask you to agree or disagree, because I think that you do 
agree. If not, feel free to tell me otherwise.
    We believe that local people, including the States, want to 
do the right thing when it comes to restoration and protection 
of species.
    Mr. Ashe. Yes, I agree.
    Mr. Stewart. I think we would agree as well that, in many 
cases, local populations or the States are capable of taking 
actions that would protect endangered species.
    Mr. Ashe. I agree.

                            UTAH PRAIRIE DOG

    Mr. Stewart. Now, in light of that, we also recognize we 
have Federal mandates that you have to comply with. That is 
your job, to enforce the Federal law and Federal regulations. 
And sometimes those two are in conflict.
    We have an example in my State that we have talked about 
many times since I have been in Congress, regarding the prairie 
dog. We know there has been litigation regarding that. Whether 
that actual finding for the State is upheld will be seen this 
summer.
    But assuming that it is not, that your lawsuit is 
successful, can you ensure us and ensure the people of my 
district that we will not go back to square one with the 
administration with the prairie dog? That Utah has demonstrated 
a capability of protecting the species, they have demonstrated 
a desire to protect the species, and that we can have a 
partnership there that does not take us back to square one and 
some of the real draconian economic effects of the Federal 
plan?
    Mr. Ashe. I think we can. I want to say thank you for your 
personal leadership and engagement on this. I think it has made 
a difference. Like everything, I think we had people on both 
sides who were maybe stuck in a bit of rut on this issue.
    I think the lawsuit has, unfortunately, stalled progress. 
We are appealing that decision. We expect to win.
    What we are working on in the meantime is a general 
conservation plan. I think with continued help from the State 
of Utah, we will resolve this. I will see Greg Sheehan later 
today at a meeting in Pittsburgh. We will be talking to Greg 
about how we can best position ourselves so that we and the 
State of Utah, and hopefully the counties in the range of the 
prairie dog, can work together in a positive way.
    We are committed to moving forward with the prairie dog and 
to working with those local communities. We need a little bit 
of help. Again, your engagement has been a very positive 
influence on that. I hope my engagement has been on the Fish 
and Wildlife Service side. I think we can continue to move into 
a good direction.
    Mr. Stewart. I hope so, and I appreciate that.
    It has just devastating impacts on the small community for 
something they have very little ability to control, because it 
was so mandated by Federal policy.

                              MEXICAN WOLF

    Shifting gears quickly, if I could, toward the introduction 
of the Mexican wolf into Utah, or the Fish and Wildlife Service 
proposing to place Mexican wolves in Utah.
    Again, stating for the record and that is this species is 
not native to Utah. In fact, you seemed to indicate that maybe 
that is not true. I would be interested if that is not the 
case, because my understanding is that 90 percent of the 
habitat is not native to Mexico, with some encroachment in some 
of the Southern States, but not into Utah.
    This is at the same time that we just had a conversation 
regarding the gray wolf. And it would seem to me problematic to 
have the introduction of one protected species while we are 
trying to delist another species. Again, our concern being that 
the Mexican wolf is not native to my State.
    I have two questions on this. The first one: 
hypothetically, are there other potential species that are not 
native to the U.S. that we would have a responsibility to 
protect? Would there be a species in Australia or New Zealand 
or some other place that they may not be doing a job of 
protecting it, and we would accept that responsibility? That 
seems like an incredibly difficult thing to ask, but it may be 
the case here with the Mexican wolf. I would ask you to respond 
to that, if you would please.
    Mr. Ashe. Well, the Endangered Species Act does protect 
foreign species, like elephant and rhino and tiger. We use the 
U.S. influence in trade to ensure that our actions are not 
undermining conservation in foreign countries.
    The Mexican wolf is an example of a species that----
    Mr. Stewart. That goes cross-border.
    Mr. Ashe. That goes cross-border. So, historically, we 
basically extirpated wolves. Now we are bringing them back.
    In the U.S., wolves operate as what biologists call a meta-
population. One large population with different sub-species 
that intermixed.
    I think it is probably correct that what we now call the 
Mexican wolf, their principal range was in Mexico and extended 
into Arizona and New Mexico to some extent. They probably 
ranged up into and intermixed with what we now call Rocky 
Mountain wolves. Where that mixing zone was, we really do not 
know.
    As we craft a recovery plan, we need to understand the 
science of wolves better.
    We are not proposing to reintroduce wolves into Utah.
    Mr. Stewart. The Mexican wolf.
    Mr. Ashe. The Mexican wolf. Well, any wolf, really.
    We will need to sit down with the States to develop a 
recovery plan cooperatively.
    I have asked the States not to come with preconditions. I 
am not coming with any preconditions. You should not come with 
any preconditions. We should look at the science of the wolf.
    And right now what we have is an agreement to move toward a 
population of up to 325 wolves, and their range would be south 
of Interstate 40. We have an agreement that if wolves go north 
of Interstate 40, that we will go and recover them.
    So that is where we are today. We are asking Colorado and 
Utah to sit down with us, along with New Mexico and Arizona, to 
develop a long-term recovery plan.
    Mr. Stewart. I appreciate that approach, as does I think my 
State. We certainly want to do that with you. I appreciate 
though that right now your plan is not a proposal for 
introduction of the Mexican wolf into Utah. That is 
appreciated. Thank you.
    Mr. Chairman, I yield back.
    Mr. Calvert. Sure. I do not think wolves in Utah would help 
the prairie dog population. [Laughter.]
    Mr. Calvert. With that, Ms. McCollum.

                               ASIAN CARP

    Ms. McCollum. Thank you, Mr. Chair, for the courtesy of 
allowing two of our members who had hearings at 10:30 to go 
first with their questions.
    If we can have a second round, I will just do one question 
now, so your members can also ask theirs.
    We have talked a lot about endangered species, protected 
species, and now let us round it off with invasive species.
    The Minnesota Department of Natural Resources has reported 
over 60 captures of invasive Asian carp in Minnesota's portion 
of the Mississippi River since 2008. Last year, the furthest 
upstream catch was made on the St. Croix River near Stillwater. 
As you know, we have a lot of confluence between our rivers in 
Minnesota and our waterways.
    Minnesota waterways support a fishing industry that 
generates $2.4 billion a year and provides 35,000 Minnesota 
jobs. So we are very concerned about the impacts of carp on 
clean water, healthy ecosystems, outdoor recreation and 
fisheries. All of that is essential in Minnesota.
    In fact, our Governor recently held a water summit, which 
was broadly attended in Minnesota, and part of what our DNR did 
was a breakout session on invasive species and its effect on 
Minnesota waters.
    So, Director Ashe, I would like to get a little bit of an 
update from you on how the Fish and Wildlife Service is 
leveraging funds with USGS and other Federal, State, and local 
governments. As you know, Mr. Joyce and I, along with many, 
many other people who care about this issue thought U.S. Fish 
and Wildlife, because of the way in which you collaborate and 
leverage such good work, would be the appropriate lead agency 
on this.
    Two other things I would like you to follow up on. eDNA was 
very, very controversial in its early stages. eDNA would have 
indicated carp was already in the upper areas of the 
Mississippi River, because of fish droppings and other such 
things. I know you were working with the scientists on 
developing better markers with eDNA. If you have any update on 
that now or if you could get it to our office later, that would 
be great.
    Then could you update us as to your research collaborations 
and what is going on with electronic sensors, biological 
controls, acoustic deterrents, as well as planting trackers on 
some of the carp so that you can better understand their 
habitat? I am intrigued by this whole idea of using the markers 
to track, so we learn more about the fish.
    I think it is something USGS and Fish and Wildlife are 
working on in the Everglades with the pythons, too.
    If you can stay a little more focused on Asian carp, the 
chair and I will go look at pythons later ourselves.
    Mr. Ashe. I think the collaboration on Asian carp has 
really been one of the unheralded successes of the past decade 
between the U.S. Army Corps of Engineers, EPA, U.S. Fish and 
Wildlife Service, U.S. Geological Survey, and the States 
involved. There has been enormous cooperation to mobilize 
efforts to restrict the range of these prolific fish.
    It is a formidable challenge.
    I recently asked our deputy regional director, Charlie 
Wooley, who is our expert, if he really thought that we were 
going to be able to keep Asian carp out of the Great Lakes. 
That is, ultimately, the principal objective. He confidently 
says yes.
    So eDNA is a critical tool for us. It is helping not just 
detect carp but learn things about fish and how they move. 
Expanding our ability to use eDNA markers on black carp is one 
of the next important steps, so that we cover the suite of all 
the Asian carp species, and we can use that eDNA to its 
greatest potential.
    The subcommittee has been very helpful in providing us with 
funding to support this effort. I think the collaboration is 
important and generates the ability for us, especially in the 
science applications arena, to provide key support to our State 
partners. Over the last several years, we provided over 
$800,000 in support for our State partners to do scientific and 
mobilization work. That capacity is important.
    The new tools that you talk about, like this kind of mixed 
noise technology, acoustic barriers, electronic barriers, and 
sensor technology, is similar to pit tags in hatchery fish. We 
can use pit tags to detect the fish as they pass by a detection 
sensor.
    We think applying these new techniques could be helpful to 
Asian carp prevention as well.
    Again, the funding to do that, the science to support it, 
so that we are doing the analysis as we go, is very important.
    Ms. McCollum. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    Mr. Amodei?
    Mr. Amodei. Thank you, Mr. Chairman.
    Hey, Mr. Director. How are you doing?
    Mr. Ashe. Good to see you, Mr. Amodei.
    Mr. Amodei. You, too.
    To the extent the chairman is going to manage my time, I am 
going to endeavor to manage yours, although I would appreciate 
the opportunity to get together afterward so we can have some 
in-depth discussions.

                        SAGE STEPPE/SAGE GROUSE

    Most of my questions concentrate on, as we went through 
this sagebrush process in Nevada and the Governor established 
the sagebrush steppe ecosystem council, and they produced a 
plan and report, which essentially in the final EIS adopted by 
BLM was rejected--those are my words nobody else's.
    One of the things that was included in that final EIS was 
obviously the Sagebrush Focal Areas, which was not in the 
Nevada plan. Just so it is clear for people, why the heck is he 
asking these questions, I want to have an understanding of the 
basis of the establishment of those focal areas in Nevada. No 
offense to the other States they are in, but quite frankly, 
that is not in my wheelhouse, so I do not want to speak for 
them, or anything else.
    Your office answered some questions for me earlier that was 
pretty strong on the policy, but I am concerned with the 
process, the mechanics. There were some statements made that, 
basically, we asked Forest Service, where did you get the 
boundaries that you included? And they said from Fish and 
Wildlife.
    We asked Director Kornze in his hearing in here earlier, 
where did you get the boundaries? From Fish and Wildlife. Okay.
    And I am looking at your stuff, and I am seeing this stuff 
where there are references to literature and there are 
references to other things. I am sitting here going, okay, I 
guess maybe what literature and stuff like that?
    But before we get to that, I want to ask you, what is your 
opinion of the Nevada Department of Wildlife? Do they do good 
work? Are they credible? Are they not credible? Do you guys 
think they are an authority on Sage hen in Nevada?
    Mr. Ashe. The Nevada Department of Wildlife is an 
outstanding wildlife conservation organization, and they are 
led by an outstanding individual, Tony Wasley.
    Mr. Amodei. I agree.
    And I guess when I look at some of these answers, and I see 
in the COT report, which your folks refer to: Conservation 
objectives must be developed and implemented at the State and 
local level with involvement of all stakeholders.
    And I also have talked to NDOW and nobody talked to NDOW 
about that Sagebrush Focal Areas map.
    Then I talked to NDOW, and NDOW tells me that they have 
produced a best of the best sage hen habitat in Nevada, and 
that it does not bear much resemblance to the area that is in 
Nevada.
    And so I am sitting here going, we are going to talk to 
local folks. NDOW does a good job. I agree with you. And this 
is not for purposes of saying, so what the heck?
    Remember, the purpose here is how did we get those 
boundaries in that area of Nevada.
    So when I look in your report, and I see: It is important 
to note that BLM and Forest Service, not Fish and Wildlife, 
designated the SFAs and codified them in the final conservation 
plans. We defer to BLM and Forest Service regarding the 
technical products and processes.
    I have to tell you, I have the impression recently from 
contact from both those agencies that they got those boundaries 
from Fish and Wildlife. So I am not going to open Judge Judy or 
anything like that, but it is like, well, you made some 
recommendations. I assume they had lines on a map. Where did 
the lines come from?
    Mr. Ashe. So the answer, of course, is all of the above.
    Mr. Amodei. Well, let me stop you, because Fish and 
Wildlife said that they were not consulted. So maybe we need to 
get them in the same room.
    Mr. Ashe. You mean NDOW.
    Mr. Amodei. This is just Nevada.
    Mr. Ashe. I will see Tony later today and tomorrow, and I 
will be happy to talk to Tony about that.
    The original stronghold maps, what we called strongholds, 
came from the U.S. Fish and Wildlife Service.
    Mr. Amodei. So let me focus you, because my clock is 
ticking. How did Fish and Wildlife Service draw those lines?
    Mr. Ashe. We had delineated priority habitat, what in the 
COT report was delineated as priority areas for conservation of 
the sage-grouse. We took a subset of that. We looked for large, 
contiguous, connected expanses of habitat. We looked at where 
there was principal Federal ownership. We looked at breeding. 
We looked at bird density and breeding densities to come up 
with what we called the best of the best. This is the very best 
of the best habitat.
    Mr. Amodei. In your opinion, that was the best in Nevada.
    Mr. Ashe. Correct.
    Mr. Amodei. Okay. If NDOW has a different opinion on where 
the best of the best is, they have a different opinion.
    Mr. Ashe. Professionals often do disagree. I do not think, 
though, that we disagree with NDOW about the substance of the 
maps. We might disagree on the peripheries, but I do not 
believe that we are in substantial disagreement with NDOW about 
whether what we mapped as the strongholds represents the best 
of the best habitat. I do not believe that.
    Mr. Amodei. Do you think BLM accepted what you mapped, or 
do you think that they modified it?
    Mr. Ashe. They definitely modified it.
    Mr. Amodei. What is the basis for that belief?
    Mr. Ashe. Between the time that we published the stronghold 
maps and when BLM took them into consideration in the 
completion of their plans, people were asking questions. People 
were asking questions about areas that were on the peripheries 
of the maps, whether they needed to be included. People were 
asking questions about whether some areas that were included 
were actually high-priority habitat. People were looking at the 
maps and asking if they could make adjustments.
    Mr. Amodei. Define people for me. What people? Was NDOW 
somebody who asked to modify them?
    Mr. Ashe. NDOW, yes.
    Mr. Amodei. So the answer to my question is, NDOW asked you 
to modify the boundaries of the SFAs.
    Mr. Ashe. They asked BLM to modify them.
    Mr. Amodei. So they asked BLM. Do you know if BLM modified 
them?
    Mr. Ashe. They did.
    Mr. Amodei. Did they ask you before they modified them?
    Mr. Ashe. They did.
    Mr. Amodei. And is it true that BLM's statement that we 
were told that if we did not have these, it would be listed, is 
that input that you gave to the bureau in terms of focal area 
establishment?
    Mr. Ashe. I would say that is a simplification, but it is 
basically right. The strongholds were a key facet in our 
decision to get to a ``not warranted'' determination. That is 
because we could look at the habitat, and we could look into 
the foreseeable future, and we could see that these 
strongholds, the sage-grouse focal areas, would be protected 
and sage-grouse would persist in a large, connected, contiguous 
piece of the Western landscape.
    Mr. Amodei. Final one for this round, Mr. Chairman, if I 
may.
    Did you do an analysis for Nevada and said, okay, this is 
our sagebrush focal area. It is 3-ish million acres, an 
analysis between what was considered priority habitat, what was 
considered non-habitat, or was it just basically we want this 
area and we are not sure if we have included stuff that had not 
hereto been habitat in there? Was there an analysis done by 
Fish and Wildlife before putting out this additional 
conservation method?
    Mr. Ashe. I can just say when you think about strongholds, 
or sage-grouse focal areas, you should first see a map in your 
mind's eye that is priority habitat. Our opening salvo in the 
discussion with BLM was priority habitat needs to be protected. 
We need to know there is going to be no disturbance of priority 
habitat.
    BLM came back and said that was too big of a bite, can you 
shrink that down? So we said we would take a look at that.
    To build sage-grouse focal areas, we started with priority 
habitat and then we picked from that the highest quality 
habitat and put the strongest protections on this habitat, 
because we have to maintain it. So strongholds, sage-grouse 
focal areas, are a subset of what we originally identified as 
priority habitat.
    Mr. Amodei. So the answer to my question is, there does not 
exist an acreage breakout that adds up to 3 million in Nevada 
saying this is priority, this is the next step, this is the 
next step, and this is stuff that is not habitat at all.
    Mr. Ashe. There was a map. We had maps that depicted 
priority habitat, general habitat, and non-habitat.
    Mr. Amodei. No, no, a listing that says, here you go, out 
of the 3 million acres, here is what it is comprised of, as far 
as habitat designation----
    Mr. Ashe. The 3 million----
    Mr. Amodei. Let me finish, please. Or being designated as 
non-habitat. Is there a listing like that in U.S. Fish and 
Wildlife records for the Nevada stronghold areas?
    Mr. Ashe. I do not know. I can find out the answer to that 
question. We could break out the sage-grouse focal areas into 
priority habitat, general habitat, and non-habitat.
    It would almost entirely be priority habitat. But at a 
small scale there is some general habitat, and there is some 
non-habitat, because we built contiguous blocks around the best 
of the best.
    So that means there are some little pieces within that 
contiguous block that would be general habitat, and some that 
might provide no habitat. But what we needed from the 
strongholds was a contiguous block. So the vast majority of 
that is going to be priority habitat.
    Mr. Calvert. You can drill down on that in the second 
round.
    Mr. Jenkins, you are recognized.
    Mr. Jenkins. Thank you, Mr. Chairman.
    Director, thank you for being here, and thank you for your 
testimony.
    I do, like other members of the committee, recognize the 
Fish and Wildlife Service's good work in many areas. You 
certainly have a large footprint in wild and wonderful West 
Virginia. You have a field office in Elkins. We have wilderness 
areas, Canaan Valley and Ohio River. So you have a real 
footprint in our State.
    We obviously had a water contamination issue you all 
stepped up and helped with. Thank you very much for that.
    I hear consistently about positive working relationships 
with your office.

                         STREAM PROTECTION RULE

    One of the things I would like to focus my brief amount of 
time on is asking about what role Fish and Wildlife and your 
agency has had working with the Office of Surface Mining 
relating to their stream protection rule.
    Did you help draft that rule? In particular, what was the 
role Fish and Wildlife had in the drafting of the Stream 
Protection Rule, as being considered and put forth by OSM?
    Mr. Ashe. We have had years' worth of kind of discussions 
with OSM about stream buffer protection, so yes, is the general 
answer to your question, we have been involved with OSM. I 
would need to get back to you in terms of the specific role 
that we have played. I can do that for the record, or I can see 
if there is someone here who can answer it more fully for you 
now.
    Mr. Jenkins. So you describe some discussions but not sure 
exactly to what extent the specifics are.
    While you have had discussions, OSM has put forth a draft 
Stream Protection Rule. Do you know what role you play in that 
rule that is out there being advanced by OSM?
    Mr. Ashe. Gary Frazer is our Assistant Director for 
Ecological Services. He can give you a good answer to that 
right now.
    Mr. Calvert. Gary, would you please submit your name for 
the record?
    Mr. Frazer. Mr. Chairman, my name is Gary Frazer. I am the 
Assistant Director for Ecological Services with the Fish and 
Wildlife Service.
    Mr. Calvert. Thank you.
    Mr. Jenkins. So back to my question. Has the U.S. Fish and 
Wildlife Service been engaged in the OSM drafting? And is there 
a role for the Fish and Wildlife Service under the Stream 
Protection Rule being advanced by OSM?
    Mr. Frazer. Our primary role to date has been working with 
OSM, and through OSM with the States, to help them deal with 
compliance with the Endangered Species Act associated with 
surface mining activities. It has been through that process, 
our consultation process under the Endangered Species Act, that 
OSM has been informed about how best to build into their rule 
these sorts of environmental protections and the coordination 
mechanisms so that individual projects can be in compliance 
with the Endangered Species Act and otherwise address 
conservation of fish and wildlife and aquatic resources.
    Mr. Jenkins. Let me ask you specifically, as I have 
reviewed the rule, the rule as put forth by OSM gives the Fish 
and Wildlife Service essentially veto authority over a permit 
issued.
    As I go back and review SMCRA, it grants the authority for 
OSM but puts the States in the primary position of issuing 
permits.
    My question is, under what legal authority does the Fish 
and Wildlife Service have, under an OSM-proposed rule, the 
right to have veto authority over any permit?
    Mr. Frazer. I have not read their rule. I am not aware, 
though, that they have given us any veto authority. We do, 
certainly, play a role in assisting OSM and through OSM any 
State that administers surface mining programs, a role in 
helping them ensure compliance with the Endangered Species Act.
    There are cases in which a project might not be in 
compliance, and the Service would be advising OSM and the State 
in those sorts of circumstances.
    But I am not aware of us being in a position of actually 
having decisionmaking authority.
    Mr. Jenkins. Okay. It is my reading and interpretation that 
I think OSM is advancing a rule that gives you the ability to 
veto a permit issued by a State when the Service, you, have any 
issue whatsoever with permits, the fish and wildlife protection 
enhancement plan.
    Let us see what they put out. I have read it. I would 
encourage you to review it. And let us see if we can come to a 
mutual understanding as to whether or not OSM may be, granting 
to the Service authority that SMCRA does not grant.
    Mr. Frazer. We will, certainly, do that. We would be happy 
to talk to you in more detail.

                      FISH AND WILDLIFE FOUNDATION

    Mr. Jenkins. The last question I have is, through the 
Wildlife and Sport Fish Restoration Program, West Virginia 
worked closely with the Service to coordinate the largest 
Wildlife Management Area expansion in our State's history. 
Under the Acres for America program, through the National Fish 
and Wildlife Foundation, there seems to be a developing success 
story.
    Can you share with us how Fish and Wildlife Service is 
working with partners at the foundation to advance the 
restoration project that I am referring to in West Virginia? 
This is related to the elk restoration project.
    Mr. Ashe. Right. The U.S. Fish and Wildlife Service, with 
direction from the committee, provides $7 million a year, 
roughly, to the National Fish and Wildlife Foundation, which 
fuels their larger grantmaking program. We do not put 
conditions on that money.
    The Fish and Wildlife Foundation has a multiyear history 
working with Walmart in the Acres for America program. They 
have recently gotten Walmart to expand that program, to about 
$20 million over 5 years.
    The foundation is a catalyst, where we provide funding, the 
foundation brings in private capital to match that funding, and 
then drives natural resource restoration projects. It has been 
working very well nationwide, but specifically in West 
Virginia, it is a great example of success. Our partnership 
with the National Fish and Wildlife Foundation delivers a lot 
of conservation.
    For instance, on Monarch butterflies, the National Fish and 
Wildlife Foundation has provided a multiplier effect. We put 
$1.2 million into the Fish and Wildlife Foundation in 
discretionary dollars. They got Monsanto Corporation to match 
that. And then just 2 weeks ago, they got a $6.3 million grant 
from the Natural Resources Conservation Service.
    They tend to be a force multiplier that brings additional 
resources to the table.
    Mr. Jenkins. Thank you, Mr. Chairman.
    Thank you, Director.
    Mr. Calvert. Thank you.
    Mr. Israel.
    Mr. Israel. Thank you, Mr. Chairman.
    Mr. Ashe, it is good to see you again.
    Ms. Nolin, thank you for being here.

                          WILDLIFE TRAFFICKING

    I want to shift to the issue of wildlife trafficking. You 
and I have had many conversations and have done some events on 
this issue. I am pleased that we are making some significant 
strides on the issue, and these strides have been supported on 
a bipartisan basis in this subcommittee, by the full committee, 
and I think by the vast majority of my colleagues in Congress 
on both sides of the aisle.
    This year, your budget requests small increases or level 
funding for various areas of wildlife trafficking investigation 
and enforcement. I would like to ask you two questions. One, 
are the levels that you requested able to continue to 
demonstrate significant progress? And number two, we passed a 
sportsman bill on the floor of the House, an authorization, 
several weeks ago. Congresswoman Grace Meng, my colleague from 
New York, inserted language that would increase the number of 
Office of Law Enforcement personnel abroad. I want to know 
whether your requested budget levels will be able to fund the 
authorization in Ms. Meng's language?
    Mr. Ashe. In the last 2 years, we have had significant 
budget increases, principally for law enforcement. The 
subcommittee has been very committed to providing support for 
that effort. We now have four law enforcement agents stationed 
in U.S. embassies in Tanzania; in Botswana; in Lima, Peru; and 
in Bangkok, Thailand. Soon we will have our fifth law 
enforcement agent in the Beijing Embassy.
    With the increase the subcommittee provided for this 
current fiscal year, we anticipate four additional law 
enforcement liaisons, hopefully in Jakarta, Indonesia, and 
perhaps Mexico City.
    So I think we will be able to continue that. The small 
increase we have for this year will increase our capacity and 
allow us to gauge the impact that these liaisons are having. I 
think it is an important strategic pause at this point, because 
it is expensive for us to put agents in U.S. embassies. This 
year will give us an opportunity to continue to build it out, 
so that we will have a field of nine international attaches, 
and then do some assessment.
    We are already seeing a great payoff from this. Having eyes 
and ears on the ground, people that are able to build trust-
based relationships with counterparts internationally, has 
already shown great benefits. I expect that we will be able to 
show the subcommittee substantial improvement, and then 
hopefully in subsequent years, see additional increases that 
will take advantage of Ms. Meng's provision.
    Mr. Calvert. Will the gentleman yield just for a second?
    I have been curious about the subject, because some of us 
serve on defense appropriations. As you know, a number of 
terrorist operations are involved in some of this activity to 
sell that to fund their various enterprises. Is there a force 
multiplier effect with some of our intelligence agencies that 
are attempting to keep track of some of these organizations 
that are, in fact----
    Mr. Ashe. Your support and your advocacy both here and on 
the foreign operations committees, and the President's strategy 
to combat wildlife trafficking, has had immense effect. In 
fact, we now have a wildlife trafficking team in the Office of 
the Director of National Intelligence. We have the Department 
of Defense, AFRICOM, providing training support for range 
states in Africa. We have USAID engagement to help build 
community-based efforts within the range states.
    So, yes, Mr. Chairman, the access to intelligence is a big 
force multiplier. That effort is just now beginning.
    Again, I would say that we have seen really great 
cooperation and it is going to pay dividends. The same people 
that are trafficking in wildlife are trafficking in drugs and 
arms and, in some cases, human trafficking.
    Sometimes, as we have seen in other venues, when we find 
wildlife traffickers, it is an avenue into a prosecution of 
people for much more heinous crimes.
    Mr. Calvert. As the gentleman knows, we have a few special 
operators down there that can be helpful.
    Ms. McCollum. Mr. Chairman, there is also the issue of 
having who we need to have at our Customs and airport entries 
here. I am very concerned that we have not put enough resources 
or efforts into that with Homeland Security.
    There are different kinds of trafficking, because there is 
also the illegal trafficking, bringing in invasive species.
    Mr. Ashe, if you could, maybe point out how underresourced 
and how overworked some of U.S. Customs and Border folks are 
right here in the United States.
    Mr. Ashe. Yes, it is a key deficiency that I hope we will 
be able to address on our side of the equation by increased 
fees to support our wildlife inspectors at key ports and entry 
points in the U.S. That will help us both with the legal trade 
and the illegal trade.
    We have a key partnership emerging with Customs and Border 
Protection, they are providing us with a pilot to get access to 
the International Trade Data System. That is going to be of 
immense importance to us, so that our people have the ability 
to see manifests. So we will not be doing a shotgun approach 
anymore looking for stuff coming across the border. We will be 
able to focus our law enforcement efforts, because we will know 
who is shipping what where and when.
    So that is a key partnership. Customs and Border Protection 
and Department of Homeland Security have been very, very 
supportive and enthusiastic about the effort.
    Mr. Israel. Mr. Chairman, if I can just do a brief follow-
up on this?
    You mentioned countries where we do have law enforcement 
personnel where we will plus-up law enforcement personnel. Can 
you tell us what countries worry you? What countries pose 
challenges where we just do not have personnel?
    Mr. Ashe. I think the ones where we are putting people are 
the ones where we see the greatest liability and potential.
    Mr. Israel. There must be some gaps somewhere in the world.
    Mr. Ashe. Vietnam is I think a big gap. All the demand 
countries, really, and the transit countries. Mozambique is a 
huge liability. The Port of Mombasa is a huge liability. States 
where there are destabilized governments present great 
challenges for us.
    But it is also a challenge to put somebody in that 
environment. We have to learn how to better support our agents. 
I do not want to grow too quickly that we create liability for 
ourselves.
    So I think we are in a good place right now. You provided 
great support. Let us stretch our legs a little bit and take 
advantage of some of the force multipliers in intelligence and 
other arenas. Again, I would expect for the Fish and Wildlife 
Service to be proposing additional increases in the future.
    Mr. Israel. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.

                              DELTA SMELT

    Well, back to my favorite subject, California. You made a 
comment, you said that the threat to the smelt population is 
primarily pumping. So we went back, we looked over the last few 
months.
    Can you explain, considering we salvaged a total of 12 
smelt this year--12--and we have let, as you know, a 
significant amount of that water go under the Golden Gate 
Bridge. Do you still believe that is the primary threat to the 
smelt?
    Mr. Ashe. It is always a challenge to talk about this. When 
we say salvage, the salvage is an indicator. What the project 
does is pull water out of the Delta. We sample for fish. When 
we catch fish in our sampling, it means that entrainment is 
happening, meaning fish are being pulled into the project.
    The 12 fish that are salvaged are representative of 
thousands of fish and larvae of fish that are being pulled into 
the project.
    Mr. Calvert. Remember, Director, today, as we sit here, 
100,000 cubic feet per second--people probably have a hard time 
getting their mind around how much 100,000 cubic feet per 
second is.
    Mr. Ashe. It is a lot. It is a river.
    Mr. Calvert. And we are pumping 5,000 cubic feet per 
second. So this is less than 5 percent of the flow. I just want 
to make that point.
    The Fish and Wildlife Service designated critical habitat 
for the Delta smelt, if you remember, back in 1994. 
California's current drought started in 2011.
    The Endangered Species Act directs the Secretary to make 
revisions to critical habitat after taking into consideration 
the economic impact, the impact on national security, and any 
other relevant impact of specifying any particular area as 
critical habitat.
    So the question is, has the Service gone through the 
process of evaluating whether to make revisions to the Delta 
smelt critical habitat based upon economic or other impacts 
since 1994?
    Mr. Ashe. Not that I know of, Mr. Chairman.
    Mr. Calvert. Is it possible, if the service undergoes such 
an evaluation, that the service would make a determination 
different than the 1994 determination?
    Mr. Ashe. It is possible.
    Mr. Calvert. At what point does the situation in the Delta 
become a fair question, a fair question to put before the 
Endangered Species Committee?
    Mr. Ashe. If I could, on the critical habitat question, our 
activities and our biological opinions on Delta smelt are not 
being driven by adverse modification of critical habitat. I 
would set critical habitat aside, because I would tell you 
fairly, if we were going to spend more time and effort on 
critical habitat, it would not be helpful. It would divert our 
effort away from the main issue, which is take of the species. 
So I would set critical habitat aside.
    With regard to the Endangered Species Committee, which is 
colloquially called the God Squad, under the Endangered Species 
Act, there are three bodies who can convene the God Squad, the 
action agency, in this case that is the Bureau of Reclamation; 
a State Governor, the Governor of California; or a private 
applicant, in this case, there is not a private applicant for a 
permit.
    The Endangered Species Committee would appropriately be 
convened either by the Bureau of Reclamation or the Governor of 
the State of California.
    Mr. Calvert. Do you think it is a fair question to be put 
before that committee?
    Mr. Ashe. The law envisions it. It is a facet of the law. I 
would say, Mr. Chairman, as we have discussed, it would be 
appropriate to consider it, except from a process standpoint, 
the Endangered Species Committee is supposed to be convened 
when you have a biological opinion without reasonable and 
prudent alternatives, and we do not have that right now. We do 
not have a situation where that exists.
    But your point is well-taken. We are at a position where we 
have a species that is on the verge of extinction. We are 
racking our brains on a daily basis to try to figure out how to 
make the project work and not have the species blink out. We 
are at a very tenuous place.
    Mr. Calvert. As you know, I have been here for this whole 
process.
    Mr. Ashe. You have. I know. And you have been thoughtful.
    Mr. Calvert. And I have worked with this. We have 
appropriated hundreds of millions of dollars to fix this. It 
obviously has not worked.
    Mr. Ashe. I have not had personal experience with the 
Endangered Species Committee, but we are at a place where 
something has to be different. I mean, we, the Fish and 
Wildlife Service, we are not helping the Delta smelt. The 
project today is not helping the Delta smelt. It is not 
satisfying, certainly, the farmers or the water users in 
California.
    So we find ourselves between that proverbial rock and a 
hard spot.
    But the law does not allow me, as I said before, to turn a 
blind eye and allow a species go extinct.
    Mr. Calvert. No, but there are avenues, because of economic 
impacts. As you know, those impacts are well-known.
    Mr. Ashe. The law allows the Endangered Species Committee 
to do that. It does not allow me to do that.
    Mr. Calvert. That is why I was asking the question whether 
or not that is a reasonable consideration.
    Mr. Ashe. It is a reasonable consideration.
    Mr. Calvert. After 24-years-plus of working on this, and 
trying to come up with a solution to this problem, when we are 
going to release potentially today, if NOAA comes in and asks 
for a recommendation for the department of reclamation, when 
you have 100,000 cubic feet per second moving out, we are only 
pumping 5,000, per the past biological opinion, and they ask 
for us to pump less, in other words, we could actually be 
letting go 97 percent of the water. And that is not sufficient.
    At what point is it sufficient? If 100 percent of the water 
is going to be let loose, then this is a total failure, in my 
estimation, because, the State of California has spent billions 
of dollars--Pat Brown, Jerry Brown's father--building this 
project, which basically becomes basically unusable.
    That is why Senator Feinstein is frustrated. I am 
frustrated. Many people are frustrated.
    Mr. Ashe. I am frustrated.
    Mr. Calvert. We have to get serious about this.
    Mr. Ashe. Thank you for being thoughtful about it, Mr. 
Chairman. I appreciate your good questions.
    I do think the Endangered Species Committee is in the law 
for a reason. It is a reasonable question for you to ask: have 
we arrived at a place where we should convene the Endangered 
Species Committee? It is the only forum that the law provides 
to balance the benefits to a species against economic and other 
forces.
    In designating critical habitat, we can make balancing 
decisions. But when the existence of a species hangs in the 
balance, the Endangered Species Committee is what the law 
envisions.
    Mr. Calvert. Thank you.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    I think I am going to give you something else to be a 
little frustrated by.

                 DEEPWATER HORIZON OIL SPILL SETTLEMENT

    As part of the Deepwater Horizon oil spill settlement, BP 
agreed to pay $100 million to the North American Wetlands 
Conservation Fund for grants focused on wetland restoration and 
conservation. I think that is a good thing.
    Mr. Ashe. It is.
    Ms. McCollum. However, the settlement did not include any 
administrative set-aside for the work that you do at Fish and 
Wildlife. So that means additional funding out of our 
committee, out of the general U.S. taxpayer fund, is required 
for you to be able to conduct your duties.
    From my conversations with you, that includes everything 
from some basic planning to getting a scientist in place 
because the travel comes out of administrative funds.
    Director Ashe, rightly so, you want to make this work, you 
want to make the restoration work, but there has been no set-
aside in the settlement, so you are, in my opinion, forced to 
include $4 million for the Gulf restoration program out of your 
budget. You are forgoing other choices that you might want to 
make in helping my friends from the Western States with some of 
their challenges, or working on invasive species, or many of 
the other projects that you might have on a backlog list.
    Could you please, for the committee, be clear on why this 
funding is needed; what it will allow the service to do to 
expedite, efficiently and properly, the $100 million that has 
been set aside for cleanup; and tell us what we forgo in U.S. 
Fish and Wildlife priorities that this committee is trying to 
set? Some of it is our own doing with some of our colleagues 
thinking that they were being tough on administrative costs, so 
we were shortsighted with some of our colleagues passing 
legislation.
    The other issue is an interpretation, perhaps. Maybe we 
should go back and talk to the Justice Department as to 
conversations that were had to make sure that judicial and 
legislative intent is clear on what monies should be used for 
this restoration.
    Mr. Ashe. The $100 million for Gulf restoration, was 
directed to the North American Wetlands Conservation Fund by 
the court in the criminal settlement, and the $2.5 billion was 
directed to the National Fish and Wildlife Foundation. Billions 
of dollars will be directed through the RESTORE Act process and 
through the natural resource damage settlement.
    The U.S. Fish and Wildlife Service plays a key role. I will 
pick just one aspect of that.
    I just attended a National Fish and Wildlife Foundation 
board meeting this week in San Francisco, and we are funding 
grants from that $2.5 billion. A big part of those dollars are 
going to Louisiana for big public works projects, and the 
Mississippi River diversion. This includes a physical 
infrastructure project. We are funding huge gates in the levees 
that when water rises will divert it out of the main channel to 
take sediment into the marshes and restore those marshes that 
have been eroding.
    That is a huge public works project. We have to work on the 
planning and design of those projects. We have to work on 
environmental compliance, for endangered species or Clean Water 
Act Section 404, and other compliance for that project.
    If we do not, the project will not happen. So we have a 
responsibility, and we have to fulfill it. The money that went 
to NFWF came with the direction to NFWF that they cannot use it 
to support overhead or administration, it can only go to on-
the-ground projects.
    And our colleagues in the State of Louisiana and Alabama 
and Mississippi and Florida are in the same position. We have 
to fund our role in that process.
    The same is true for RESTORE. When Congress passed the 
RESTORE Act, they said that the money cannot be used for 
administration. So we have to pay for our participation. 
Billions and billions of dollars are going to be hanging in the 
balance. We have an obligation to support the restoration.
    That is why we have asked the committee for $3 million more 
to support our Gulf of Mexico function. I think it is 
appropriate. It is necessary, and we do not have another 
avenue--the avenue for us to get our overhead expenses has been 
foreclosed.
    Ms. McCollum. Mr. Chair, I think sometimes when people are 
talking about administrative costs, it is a very abstract 
thing. Some of our colleagues to go down on the floor and say, 
we are just going to cut administrative costs. Sometimes there 
are things that we will see in a budget administratively and we 
think you can do that later, or you can postpone that.
    But this is a very different type of administrative cost. 
So, Mr. Chair, if Fish and Wildlife could tell us with more in-
depth clarity some of the things that are going to be done 
under this administrative cost, which just allows a project to 
go forward, it is something we need to talk to our colleagues 
on the floor about amending in the RESTORE Act to see if we can 
provide some relief on that.
    I am going to be trying to explore with the Justice 
Department just exactly what the conversations were, and their 
definition of administrative costs. Mr. Chair, if we do not get 
this solved, one, Fish and Wildlife goes shortchanged on other 
projects that the American public would like to see move 
forward; and two, I do not think it was ever the expectation 
for U.S. taxpayer dollars to basically now be paying for 
cleanup of the Gulf BP spill.
    Mr. Chair, this is something that our staff should work 
with Fish and Wildlife to explore a little more and see if we 
can talk to our colleagues and reach a common-ground, common-
sense solution on this.
    Mr. Ashe. Thank you for your help. I would point out to you 
that these are not fictitious--these are costs that we are 
incurring now. I actually have an office in the Gulf of Mexico. 
I have had to do that, because I have to support these 
projects.
    We built it into our budget, which is responsible, I think, 
on our part. So we have done what we always do. We take it from 
elsewhere. It is not a reprogramming, because the money keeps 
its color. It is refuge money or ecological services money 
depending on how it is spent. It would be irresponsible for the 
Fish and Wildlife Service not to fulfill its----
    Mr. Calvert. I understand the intent. It is just that 
sometimes you have to have rational administrative costs. I 
think we will take a strong look at that and see what we can 
do.
    Mr. Ashe. Thank you.
    Mr. Calvert. Mr. Amodei.

                              SAGE GROUSE

    Mr. Amodei. Thanks, Mr. Chairman.
    First, I have to say I am shocked that your favorite topic 
was not sage hens. I was under the impression it was, but I 
will get over that. Thank you.
    Hey, Dan, I think in an effort to kind of keep this brief, 
I appreciate your offer to meet, and I would like to do that, 
and I would like to shorten some of this up to just some 
information maybe we can get before we have our meeting. You 
referred to a BLM request for additional conservation measures. 
We would like a copy of that, if it was a memo or whatever, if 
it was verbal. I am not suggesting there should or should not 
be these documents. I am just saying, if you got one, give it 
to us. If you do not, then say, hey, it was not formally 
written.
    You have referred to conservation community and NGOs as 
providing information in support of the decision to do the 
focal areas. I would just like a list of who that was and the 
NGOs, if you have it. If you say, I cannot generate that, then 
that is fine. But if it exists, great.
    You have referred a lot of times to scientific literature 
in terms of the support for that. Citations to what that 
literature was would be good. We do not want to make you make 
the copies or anything else like that, I know you have other 
stuff to do, but what you relied upon.
    Also, you referenced NDOW and that this has been a 10-year 
process on that. Any record of communications you have with 
NDOW on the focal areas before your October 14 memo, I would 
appreciate seeing what that is, because part of the claim is, 
hey, this is not a secret. We have been out there collaborating 
with people on it for a long time. Although I will tell you, I 
find it interesting that BLM's draft EIS did not include this.
    Mr. Ashe. As I said, the BLM's original EIS looked only at 
priority habitat. So the focal areas were a subset of priority 
habitat.
    Mr. Amodei. Okay, so then the NDOW discussions were after 
the October thing. Okay, that is fair enough. You just need to 
let whoever wrote the answer to request from our office, let us 
know. They need to tune that part of it up because it 
represents something different.
    At least I did not ask if you reviewed it and it is your 
work, so I am easygoing in that respect.
    And then also, I would like to know if you guys contracted 
out any of the stuff with regard to focal areas in terms of the 
policy, because you are very good on the policy, and also the 
mapping. If there were any contracts to produce mapping or to 
produce the policy or mapping, then we just kind of would like 
to know what those were.
    And then, I guess that goes to the question of was this 
generated in-house or was it contracted for in house. I am 
still trying to get that.
    [The information follows:]

    The Service is working with the Congressman regarding his 
concerns with how the strongholds were developed and is setting 
up a meeting with his office. The Service will provide the 
requested written material to the Committee with our responses 
to the Questions for the Record.

                           STILLWATER REFUGE

    And then, just real quick, I want to follow up on that 
thing that I handed you on the refuge, because it is a small 
thing.
    Mr. Ashe. Stillwater?
    Mr. Amodei. Yes, here is my concern, because I did not get 
a chance to talk to you. My concern is that this is a key area. 
Stillwater National Wildlife Refuge is a neat thing for where 
it is in Nevada.
    Their neighbors that they did a boundary line adjustment 
with, or started one with, are good neighbors, one of the 
oldest Stillwater farms, Canvasback Gun Club, perfect profile--
no offense to those of you who live in an urban area. We might 
be sitting in one right now. Great conservation folks, do not 
use the resource much, love ducks, probably have duck wallpaper 
in their bathrooms at home and all that other good stuff that 
is all good.
    But this is a situation that I think somebody probably 
needs to go to charm school, because a fence was built, from 
the information I have heard, before a boundary line adjustment 
was approved that had taken a lot of years. It was almost as a 
show of power, allegedly, by the refuge manager.
    So now what you have is you have, because you are real 
estate folks doing their job, have finished that up finally, 
and now the fence that is brand-new has to be torn down and 
rebuilt. Not that that is a ton of money, but it is a heck of a 
lot of money in the context of running a refuge like that.
    So if it was one of those things where it is like, ``I am 
just going to show them,'' and now we have ended up spending 
almost 100,000 bucks again to rebuild the same section of new 
fence where it really should be, that is just something that 
bothers me in terms of going forward in the context of that 
refuge's relationship with what has been over probably 100 
years a very good relationship.
    So I normally would not get into that level, but it bothers 
me, so I appreciate, if your head refuge person is available, 
or something like that, I just kind of want to know that if 
somebody needs to go to charm school, I will be happy to drive 
them.
    Mr. Ashe. It could be me.
    Mr. Amodei. I will drive you, too.
    Anyhow, with that, Mr. Chairman, I yield back. Thank you.

                             BURMESE PYTHON

    Mr. Calvert. Well, if there are no other questions, I think 
I will wrap this up. I appreciate you coming out.
    I know you were out in the Everglades. Ms. McCollum and I 
want to get out there.
    I read a story yesterday somebody sent me about this python 
issue and the great python contest that they had down there. I 
do not understand why we cannot come up with a better way to 
track down these snakes, apparently they are totally 
devastating the Everglades. We need to find out a way to kill 
them en masse.
    Mr. Ashe. For the future, not for the Burmese python, but 
the best way for the future is prevention, like we are trying 
to do with the Great Lakes, to keep them from getting there the 
first place. I think that is the most important lesson.
    But you will see pythons in the Everglades, I am sure they 
will capture one. They are incredible creatures. They really 
are. They are what biologists call cryptic. They are hard to 
find, because they make their living by hiding and grabbing 
things that come by.
    You can walk right by them and not even know they are 
there. I actually love snakes.
    Mr. Calvert. This is the one instance where the chairman 
will be following the ranking member. [Laughter.]
    Mr. Ashe. These snakes are scary. But in their rightful 
place, they are amazing creatures. In the Everglades, they are 
incredibly disruptive, so you are going to see firsthand how an 
invasive species harms conservation. We are spending billions 
of dollars on Everglades restoration and then a species like 
this comes in and really puts that investment at risk.
    So, yes, you will see firsthand the struggles of people in 
the field dealing with invasive species. The best way to deal 
with it is prevention, keeping it from happening in the first 
place.
    Mr. Calvert. Well, it is too late for that.
    Mr. Ashe. Too late for that, that is right. But there is 
lots of innovation going on using dogs, using infrared 
technology, using improved detection devices like Ms. McCollum 
was talking about with Asian carp.
    We are learning how to better deal with them in the future.
    Mr. Calvert. Thank you.
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    

                                         Wednesday, March 16, 2016.

            NATIONAL PARK SERVICE BUDGET OVERSHIGHT HEARING

                               WITNESSES

JON JARVIS, DIRECTOR, NATIONAL PARK SERVICE
LENA McDOWALL, CHIEF FINANCIAL OFFICER, NATIONAL PARK SERVICE

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. Good morning. The committee will come to 
order.
    Director Jarvis, I would like to welcome you to today's 
hearing, along with the park service chief financial officer, 
Lena McDowall. This morning's hearing will address the 
important work of the National Park Service and its budget 
priorities for fiscal year 2017.
    On August 25, 1916, Woodrow Wilson signed the Organic Act, 
creating the National Park Service, a new Federal bureau in the 
Department of the Interior responsible for protecting the 35 
national parks and monuments then managed by the department, 
and those yet to be established.
    One hundred years later, the National Park Service is 
comprised of 410 individual park units, and that number 
continues to grow.
    The award-winning filmmaker Ken Burns, whom this 
subcommittee met with 2 weeks ago, has described our national 
parks as America's best idea. Few Americans would disagree with 
that assessment. Everyone loves our national parks.
    Last year, the National Park Service welcomed more than 307 
million visitors to its parks, a record-breaking number, which 
was 14 million more visitors than the previous attendance 
record set in 2014. That trend will likely continue well beyond 
this year's centennial celebration.
    Overall, the proposed funding level in your fiscal year 
2017 budget request is $3.1 billion, which is $250 million, or 
9 percent, above the fiscal year 2016 enacted level. The 
largest increase, about $191 million, in discretionary funding 
is proposed for the centennial-
related needs and priorities. This includes sizable funding 
increases for deferred maintenance needs in both operation and 
construction accounts.
    Last year, the subcommittee made a substantial investment 
in our national parks, providing additional funds for park 
operations, as well as significant funds to address 
longstanding deferred maintenance issues. We will endeavor to 
make similar investments this year within the confines of our 
302(b) allocation.
    Also worth noting is the proposed expansion of the so-
called Centennial Challenge, which leverages Federal dollars 
with private-sector dollars to at least a 1-to-1 matching of 
funds. Congress provided $15 million for Centennial Challenge 
in fiscal year 2016. The administration proposes to increase 
the Federal share by $20 million to $35 million in 2017.
    As the service prepares for its second century of 
stewardship of our national parks, this subcommittee looks 
forward to learning more about the budget request and receiving 
additional details of the role park service partners and the 
private sector will play in this effort.
    We will do our very best to address the service's highest 
priority needs, but we also need to face our budget reality. 
Any increases above last year's enacted level will likely have 
to be offset elsewhere within the service's budget or within 
our overall bill.
    While this subcommittee does oversee the budget for the 
Forest Service, we have yet to find money growing on trees in 
our national forests. That would be great.
    [Laughter.]
    Mr. Calvert. We welcome any ideas you may have on how to 
pay for some of the proposed increases within your budget 
request.
    Director Jarvis, today's hearing is the beginning of a very 
important conversation about the service funding priorities. We 
look forward to hearing from you on these and other issues.
    But first, let me yield to our subcommittee's ranking 
member, Ms. McCollum, for any opening remarks she would like to 
share with us this morning.

               Opening Remarks of Ranking Member McCollum

    Ms. McCollum. Thank you, Mr. Chairman.
    Director Jarvis, thank you for joining us here today. The 
National Parks represent our country's collective decision to 
preserve and celebrate America's natural wonders and cultural 
heritage.
    This year, with the National Park Service Centennial, 
America's commitment and fascination with its parks are at an 
all-time high. Last year, over 307 million people visited our 
national parks.
    The fiscal year 2017 budget request reaffirms this 
commitment and makes the necessary investments to preserve 
these special places. As part of the Centennial Initiative, the 
budget proposes $560 million to strengthen the foundation for 
visitor services and make essential infrastructure 
improvements.
    I am pleased to see that the Centennial Initiative 
continues to emphasize youth engagement. The budget increases 
support for the Every Kid in a Park program by $20 million. 
Youth engagement initiatives such as this one truly offer a 
return on investment as these important educational 
opportunities help build the future stewards of our national 
treasures and our natural resources.
    The budget also includes a $151 million increase to address 
high-priority deferred maintenance needs across the National 
Park system. The National Park Service has a significant 
problem in meeting its maintenance needs.
    Currently, 60 percent of the service's highest priority, 
nontransportation assets have deferred maintenance needs. We 
must invest in the repair and maintenance of these assets to 
ensure we can protect the natural and cultural resources in our 
over 400 park units.
    There is also a tremendous need to address the critical 
maintenance backlog for the service transportation assets. Just 
this month, reports came out that the Memorial Bridge here in 
Washington, D.C., is deteriorating so quickly that it will be 
closed to vehicle traffic in 5 years. While funding for the 
park service transportation assets is provided through the THUD 
Subcommittee, I want to emphasize how critical these funds are 
to the preservation and public enjoyment of our national parks.
    Finally, I have to express my disappointment with the 
administration's failure to request funding for the Save 
America's Treasures program. The Save America's Treasures 
program began in 1999 and has been instrumental in partnering 
with others--local municipalities and cities and nonprofits--to 
protect cultural resources that were almost lost.
    Let me give you two examples right here in Washington. The 
program helped to restore the Star-Spangled Banner flag, which 
people from all over the world and all over this country go and 
visit, and the Wright Flyer III, the world's first practical 
airplane.
    The program is aptly named Save America's Treasures because 
that is exactly what it does. So I hope next year, the budget 
request will include funding for this important program.
    We have a national parks system because we had people in 
the past who had the vision and courage to work to set aside 
these special places and preserve them for generations to come. 
Our responsibility today is caring for America's historical, 
cultural, and natural treasures, and it is an ongoing 
responsibility.
    The American people are looking to us to take that 
responsibility seriously, to make the investments and the 
partnerships to protect and preserve them for the next 100 
years and beyond.
    So, Director Jarvis, I appreciate the work that you and all 
the employees of the National Park Service do for us every day, 
and I look forward to your testimony.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    And, Director Jarvis, as you gaze upon our oldest national 
park right behind me, I am happy to yield for your opening 
statement.

                   Opening Remarks of Director Jarvis

    Mr. Jarvis. Mr. Chairman, members of the subcommittee, 
thank you for the opportunity to appear before you on the 2017 
budget request for the National Park Service. I would like to 
summarize my testimony and submit my entire statement for the 
record.
    Mr. Calvert. Without objection.
    Mr. Jarvis. First, I really want to thank you for the 
support of the National Park Service and the Centennial 
Initiative in 2016. With the generous funding, and I mean that 
very sincerely, you provided, we are really making strides 
toward our goal of inspiring a second century of stewards.
    With the fiscal year 2016 funding levels, we can restore 
seasonal ranger hiring to peak levels. We can coordinate more 
than 400,000 volunteers. We can begin operations in our newest 
units, complete additional deferred maintenance, and expand 
partnerships through the Centennial Challenge. All of these 
actions will help sustain our national parks for another 100 
years.
    The men and women of the National Park Service and our 
partners are doing everything we can to ensure our centennial 
year is successful and that it builds on the foundation for a 
strong second century.
    We are working with the National Park Foundation to 
leverage the support of our major partners. Their centennial 
campaign has already raised over $200 million of its $350 
million goal.
    In addition, we worked with the National Park Foundation to 
launch the Find Your Park campaign to invite all Americans to 
rediscover their national parks. The campaign is now 
recognizable to one of four young adults, and our efforts are 
drawing new visitors, as you mentioned, a record 307 million 
visitors in 2015.
    These visits do more than provide inspirational, 
educational, and recreational opportunities. In 2014, they 
drove over $30 billion in economic impact, supporting hundreds 
of thousands of jobs in communities around the country.
    Last year, after significant public engagement efforts, 
some parks raised their fees for the first time since 2008. We 
estimate these increases will raise another $45 million, the 
majority of which will go toward deferred maintenance.
    With all these parallel efforts, I am here to testify on 
our budget request, which reflects the Federal investments 
needed to ensure our next century is as strong as our first.
    The budget will allow us to build on the progress we have 
already begun to achieve with our fiscal year 2016 funding.
    First, we are requesting the remaining pieces of the 
Centennial Initiative from 2016, including $150 million to 
address the deferred maintenance backlog. You have asked this 
many times, and the 2017 request is what we need to address the 
problem, a discretionary increase of $150 million and a 
mandatory proposal for $300 million annually for three years.
    If these requests are met, we could restore and maintain 
our known highest priority, non-transportation assets to good 
condition over 10 years.
    The centennial also includes $20 million to support the 
Every Kid in a Park initiative, which would help get every 
fourth-grader and their family into a park, and lastly it 
includes a discretionary request of $20 million for the 
Centennial Challenge, as well as a mandatory proposal for $100 
million annually over three years.
    This program provides the Federal match to leverage partner 
donations from friends groups and the National Park Foundation. 
In 2016, we leveraged the $15 million in Federal money with $33 
million in donations for a total benefit to the parks of $48 
million.
    And our partners are ready to do more. The recent gift of 
$18.5 million from David Rubenstein to restore the Lincoln 
Memorial is a wonderful example of the type of generosity our 
national parks can inspire.
    The budget also proposes $25.7 million for a Cultural 
Resource Challenge, which focuses on the stewardship of our 
cultural heritage and builds on key programs to meet the needs 
of challenges confronting the NPS and its partners. This 
includes funding for historic preservation for parks through 
the Vanishing Treasures Program, digitization of the National 
Register, and grant funding for the Tribal Historic 
Preservation Offices. It also includes $17 million in 
competitive grants and $3 million in grants to Historically 
Black Colleges and Universities to preserve sites and stories 
of the civil rights movement and the African-American 
experience, building on the $8 million you supported last year.
    In addition to these initiatives, the budget requests 
funding for critical operating needs, including $12.7 million 
for fixed costs and $8.1 million for seasonal health insurance. 
After years of flat budgets, sequestration, and fixed cost 
absorption, the funding you provided in 2016 helped stabilize 
park operations. Our workforce is recovering, but if parks 
absorb the costs in 2017, they will begin to lose ground again.
    Finally, the budget requests $10.7 million to support new 
parks and critical responsibilities, such as basic operations 
at Tule Springs Fossil Beds National Monument in Nevada and the 
Manhattan Project National Historical Park.
    Our critical responsibilities include law enforcement and 
visitor service needs during the 2017 presidential 
inauguration.
    Mr. Chairman, this concludes my summary. I am pleased to 
answer any questions. Thank you.
    [The statement of Director Jarvis follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
                          BOTTLED WATER POLICY

    Mr. Calvert. Thank you. I want to discuss for a few minutes 
the service's ban on bottled water in national parks, as I take 
a sip out of my bottled water here.
    In December 2011, the National Park Service issued Policy 
Memorandum 11-03, which authorizes park superintendents to ban 
bottled water sales on a park-by-park basis. That memorandum 
requires that proposals for bans be based upon rigorous written 
impact analysis considering specified factors relating to 
health and safety, waste reduction, costs, impacts, 
concessionaires, et cetera.
    The fiscal year 2016 omnibus included a directive for the 
service to report on the justification each affected park 
service unit used to ban bottled water. The report was due on 
February 16. It is now 1 month overdue.
    So the question is, what is the status of the report? When 
can the committee expect it? Are you able to share with the 
committee any details of the report relating to the impact of 
these restrictions?
    Mr. Jarvis. Yes, sir. That report is basically complete and 
undergoing review at the department level, through general law, 
before it is forwarded to you.
    We collected the reports from 22 parks. There are 22 parks 
out of the 410 that have implemented elimination of the sale of 
water bottles, either by their concessionaires or their 
cooperating associations.
    Each park had to prepare a written justification for that 
and an analysis of impact, and also design and install water 
filling stations before they could get approval by their 
regional director.
    So all of that is being assembled and will be coming to you 
just as soon as we can get it through the final review.
    Mr. Calvert. As you know, many of my colleagues and I do 
not understand how the service can ban the sale of bottled 
water in the parks, which is arguably the healthiest option for 
park visitors, yet continue to sell soft drinks, juices, sports 
drinks. Monster is in my district. I am sure they love selling 
at the national parks. But water is, certainly, a reasonable 
option.
    This position directly contradicts the National Park 
Service Healthy Parks, Healthy People initiative, which 
encourages healthy food and beverage choices in national parks.
    So why the inconsistency? Does the service have any plans 
to ban the sale of soft drinks, juices, and sports drinks in 
the national parks?
    Mr. Jarvis. We have no plans whatsoever to ban the sale of 
those other items.
    The way we view it is, actually, we see no contradiction. 
It actually is very consistent with the values of the National 
Park Service. We look at our institution having core values 
around sustainability, about reducing waste streams, about 
energy conservation. We have spent millions of dollars to 
develop water systems to provide excellent potable water in the 
parks. What is kind of fascinating to me is that the bottled 
water companies often market their water as mountain spring, 
glacially fed. Well, those are the water systems that the 
National Park Service maintains.
    We have developed these filling stations throughout the 
parks that have implemented the elimination of bottled water 
sales, where you can fill your reusable water bottle, which are 
for sale within the concession facilities, very inexpensive, 
reusable water bottles, and we have these filling stations all 
around.
    To be blunt about it, I have gotten zero complaints from 
the American public about this. If anything, I have gotten 
thousands of support comments from the public about this 
direction in sustainability.

                    BOTTLED WATER POLICY: RECYCLING

    Mr. Calvert. Well, if we are going to be selling soft 
drinks and all the rest of it, which obviously has the same 
waste streams as bottled water, would it not make more sense 
for the park service to partner with some of these folks to 
have better recycling, not just for water bottles but for any 
other kind of refuse, and have a better recycling program 
within the national parks?
    Mr. Jarvis. One of the recycling issues we have in a lot of 
the national parks is that our national parks are remote. 
Often, there are no recycling organizations anywhere nearby.
    So even though we collect the bottles, the plastic bottles, 
it makes no sense to haul them hundreds of miles to a local 
recycling center. Our own recycling systems in these remote 
places are really inefficient, in that regard.
    So what we are really trying to do is to reduce the waste 
stream within the parks, in terms of this product.
    Mr. Calvert. Thank you.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.

                        TRASH IN NATIONAL PARKS

    I was at Theodore Roosevelt park at one of the observation 
areas, and a bus pulled up and unloaded all of its trash at the 
park. I think the folks at the park expected it to happen, 
because they were out there shortly after. The bins were 
overflowing. There was trash all over. That was not even from 
the regular park-goers who might purchase something and then 
want to dispose of it, or a family having a picnic that they 
were bringing to one of the picnic tables at one of the 
outlooks.
    I was just aghast. I wanted to say something, but I did not 
know what I would say.
    I am sure this happens all across our national parks. Any 
other business, any other nonprofit, that was absorbing things 
like that would be trying to reduce waste in the stream.
    I have two things I would like to follow up on. I will 
bring both of them forward, Mr. Jarvis, and then you can 
respond.

                        SAVE AMERICA'S TREASURES

    I mentioned earlier that the budget request does not have 
any dollars going toward Save America's Treasures. Our 
treasures are vanishing. This is a program that has not 
received any funding since 2010, yet I know that the park 
service at times has benefited from this program. It helps us 
tell the story of how important it is to save our treasures, 
our cultural treasures.
    I know it is not in the President's budget, but if you 
would, please enlighten the committee on some of the work that 
it has done.

                    COMPETITIVE CIVIL RIGHTS GRANTS

    I am pleased, though, that the budget has $25 million in it 
for competitive civil rights grants--though those also would 
have been opportunities to use Save America's Treasures for 
civil rights grants. As we see more opportunities coming 
forward for historic preservation, it is good that we have the 
civil rights grants available now. But those would have been 
projects that could have been eligible for Save America's 
Treasures and could be in the future.

              HISTORICALLY BLACK COLLEGES AND UNIVERSITIES

    There is also a proposal for $3 million in grants to 
renovate historically black colleges and universities, which I 
think is critically important. A lot of people in the public 
might wonder why we have something in our budget for colleges 
and universities.
    So, if you could, please address those three issues for me 
in a little greater detail.
    Mr. Jarvis. Thank you for the question.

                        SAVE AMERICA'S TREASURES

    Actually, the National Park Service viewed the Save the 
America's Treasures program as a very positive program. Between 
when it was funded in 1999 and 2010, there were over 1,287 
grants in 50 states across the country requiring a one-to-one 
match, and they went to, as you indicated, preservation of 
physical fabric like the War of 1812 flag, to bricks-and-mortar 
projects, to restoring old downtowns in cities across the 
country. We worked very collaboratively with communities, the 
advisory council, the National Trust for Historic Preservation, 
and other organizations to implement that program.
    Unfortunately, it went to the wayside in the constrained 
budget process, in particular 2011 was really a constrained 
budget year for us.
    This committee has asked us many times, what are your 
priorities? Our priorities have been the big issues of park 
operations and deferred maintenance. You have to make choices. 
Unfortunately, this is one of those programs that fell to the 
wayside.

                    COMPETITIVE CIVIL RIGHTS GRANTS

    We have then come back, as you indicated, on some very 
specific programs like the Civil Rights Initiative, which is 
focused specifically on sites related to the civil rights 
movement, and we are, of course, in the middle of celebrating 
the 50th anniversary.
    We looked at the transition from the Civil War to civil 
rights, and making those connections. And places like 
Birmingham, Alabama, Selma, Montgomery, and others, we feel a 
need for this kind of infusion out there. We have a great 
program. Thank you for the funding in fiscal year 2016.

              HISTORICALLY BLACK COLLEGES AND UNIVERSITIES

    The Historically Black Colleges and Universities are an 
incredibly important institution in this Nation. Many of them 
are struggling for a variety of reasons. Many of them have very 
old infrastructure, very historic infrastructure, where really 
the first African-Americans out of slavery had the opportunity 
for education.
    We feel, with the very small amounts of money that we have 
requested, the $3 million in this year's budget, we can assist 
those colleges in maintaining some of these incredibly historic 
buildings that were really the pioneers in education of our 
African-American citizens.
    Ms. McCollum. Thank you, Mr. Chairman.
    Mr. Calvert. Mr. Stewart.
    Mr. Stewart. Thank you once again, Mr. Chairman.
    Director, it is good to see you. Lena, it is good to see 
you both. I appreciate the time we have spent together and the 
things we have been able to work on.
    I would like to thank you and congratulate you on a couple 
things, and then ask several questions, if I could.

                    TOUR OF UTAH: ZION NATIONAL PARK

    First, let me thank you once again for the park's support 
of the Tour of Utah. This is an internationally sanctioned, 
very popular bike race. Your willingness to let us use the Zion 
National Park and to highlight Zion to the world, actually, as 
a race through the park, I think it is good for both of us. It 
is good for the park. It will be good publicity. It is 
obviously good for the Tour of Utah and gives us a chance to 
show the world this stunning place that we are so proud of. So 
thank you for that.
    And Superintendent Bradybaugh down there just has been 
great to work with, so we are grateful for him as well.
    I also want to congratulate you on the Centennial 
Challenge, taking $15 million and turning it into $48 million 
or something like that, as I recall, is meaningful. We would 
look forward to supporting you in those efforts in the future.
    If I could, to a question then, and I do not think this 
will be terribly difficult, but I would be interested in your 
view on two things.

                  BUS AND PARKING ISSUES IN UTAH PARKS

    First, Utah is home to what we call the Mighty 5, five of 
these great national parks--Canyonlands, Arches, Bryce, Zion, 
and Capitol Reef. We have been very successful in promoting 
these parks, I would say almost too successful in the sense 
that they have become, as they have been, even more crowded.
    So access is a concern for us. With the buses, as you know, 
Zion and some of the others have this great bus and 
transportation system. But that leaves us many times with no 
place to park, we have so many visitors.
    So my question to you is, do you have plans and can you 
help us with the parking or with the bus route and bus 
structure through the parks?

                           REIMBURSING STATES

    And then the second question, I will just ask them both now 
and then that you address them, as you may recall several years 
ago, we had a partial government shutdown. We had some 
conversations regarding that, and some of them were somewhat 
heated. We had some various opinions on that.
    But during that time, Utah did what I think was the right 
thing. They stepped in and did everything they could to keep 
the parks open, recognizing that people had traveled from 
around the world, in some cases, to visit the parks.
    They incurred substantial costs doing that. In fact, 
recently, our legislature had signed legislation to request 
formally for the Federal Government to reimburse them for those 
costs. I have legislation that would reimburse them as well on 
the Federal side.
    Help us understand what the status of that is, and can Utah 
expect to be reimbursed for those costs they had in keeping the 
parks open during that shutdown?
    Mr. Jarvis. Okay. Great questions.

                    TOUR OF UTAH: ZION NATIONAL PARK

    Thank you on the Tour of Utah. The proponents for that have 
been very willing to work with us on our mitigation and support 
and protection of the park. That has not always been the case 
with other promoters, so we appreciate your support on that.
    The city manager for Moab once said that they went fishing 
for tourism, and they hooked a whale. The net result has been 
the Red Rocks part of Utah has really seen an enormous success 
in terms of tourism, and it is a little bit overwhelming now.

                  BUS AND PARKING ISSUES IN UTAH PARKS

    We have a really fantastic transportation system for Zion, 
but not for Arches or Canyonlands, in that area. So this is an 
area we really are going to be looking hard at. We know we had 
some real crowding conditions at Arches this last year where 
the visitors trying to get in were backed out to the highway 
and creating quite the safety problem. So this is an area where 
we really want to work toward looking at centralized parking, 
transportation systems, connections to the communities, getting 
people to stay and leave the car behind, and then use the 
systems.
    The park service has implemented transportation systems in 
a number of parks. We understand what it takes. They are 
expensive to both purchase and operate, but the public love 
them and utilize them quite well, once we get them in place. So 
it is an area we definitely want to work with you on.
    Mr. Stewart. Director, so I appreciate that you want to 
work with us, but right now, you have no plans? There is 
nothing in the budget to address these things in the immediate 
future?
    Mr. Jarvis. Well, we have within the transportation funding 
stream that is now authorized a 5-year transportation budget. 
There are fund sources in that to do preplanning for 
transportation systems, and we know we have a problem in 
southern Utah. We do not have a hard proposal about how to fix 
it, though, yet.
    [The information follows:]

                    Arches National Park Congestion

    The park is actively working to manage parking congestion, and will 
have a final public comment opportunity on a Congestion Management Plan 
in June 2016, with a final plan in late summer.
    The park is actively engaged with the Utah Department of 
Transportation, Utah Highway Patrol, the Moab Travel Council, and 
others to manage the urgent issues related to traffic congestion, and 
with the Utah Office of Tourism, the Moab Area Chamber of Commerce, the 
Grand County Council and the City of Moab to jointly manage the 
crowding that all entities face.

    Mr. Stewart. Okay. Before you answer the second question, I 
would just encourage you to move as aggressively forward as you 
can on that. The magic of the parks is diminished when people 
feel like they spend half their day in a parking lot. I know 
you understand that, but I hope we can move that up on your 
urgency list. We would appreciate it, if you could.
    Mr. Jarvis. Absolutely.
    Mr. Stewart. Thank you.

                           REIMBURSING STATES

    Mr. Jarvis. In regards to reimbursement to the States who 
very generously stepped up, and Utah was first at the plate to 
reopen the parks during the shutdown, we have supported and 
have testified in support of legislation that would authorize 
that. We do not have the authority currently to reimburse the 
States, but we said we would do that, if provided that 
authority.
    Mr. Stewart. We will work together on that, I think. So 
thank you.
    Mr. Chairman, I yield back.
    Mr. Calvert. Mr. Stewart, in the old days, we would have 
directed those fundings. [Laughter.]
    Mr. Stewart. That is right.
    Mr. Calvert. Ms. Pingree.
    Ms. Pingree. Thank you, Mr. Chair.
    Thank you very much, Director Jarvis, for being with us.
    We appreciate the work that you do. We appreciate all your 
employees.
    In Maine, we are particularly proud of our national park 
and so grateful for the attention that you have given us in 
Maine.
    I want to follow up a little bit on Representative 
Stewart's question, because I think this issue around visitor 
experience is a pressing one, as we are happily seeing the 
parks be more and more popular. And certainly in the centennial 
celebration, we are a little bit worried about our visitors, 
too.
    So first, I want to say we are really excited that this is 
centennial year of Acadia National Park, as well as the park 
system. We are hoping that many members of the subcommittee who 
would like to come and visit when we have our celebration will 
come. Since it is the heart of lobster fishing territory, we 
guarantee excellent food while you are there. So come on up.

                  OVERCROWDING AT ACADIA NATIONAL PARK

    But as we know, Acadia I think had 2.8 million visitors 
last year. We are an incredibly popular park. We have a lot of 
the same kinds of transportation issues, a bottleneck getting 
on to the island where Acadia National Park is located.
    I am interested in this year, where there will be even more 
focus, how you are handling--I know some of the things you are 
doing--but to ensure that there is a high-quality experience. 
No one does want to spend their day in a parking lot. No one 
wants to be unable to climb Cadillac Mountain.
    I know you are looking for ways, but how do we get people 
to visit differently, off-peak hours? What are you working on 
for that? And what parts of the budget help to support that?

                          TICK-BORNE ILLNESSES

    I am just going to throw in another somewhat similar issue 
about the visitor experience. We are increasingly concerned 
about tick-borne illnesses in Maine. I know they have been 
traveling their way up the East Coast and now Lyme disease is I 
think the sixth most reported disease to the CDC, but we think 
it is tremendously underreported, because people are not always 
sure.
    That can really change the visitor experience. I think as 
it grows, people are going to be increasingly concerned about 
going outdoors. We do not want that to spoil the visitor 
experience. So talk a little bit about the things that the park 
service has been doing to alert people and how you help 
visitors protect themselves, so that it does not become 
something you bring home from your experience.

                  OVERCROWDING AT ACADIA NATIONAL PARK

    Mr. Jarvis. Great. Thank you for those questions.
    Acadia is a fantastic park, and they are doing a great job 
in celebrating their centennial as well. We have been working 
very closely with the park and the community.
    I think one answer is, for some of these parks, and I think 
it applies to Utah as well, and all the parks across the 
system, is a better system on the Web, so that individuals on 
their way there can do a better job of planning in advance.
    So we are launching our new NPS.gov website during National 
Park Week in April, which will have a much more robust trip-
planning component to it. Particularly the millennials rely 
heavily on their technology and their phones to figure out what 
they are going to do and where they are going to go. I think 
each park, particularly the ones that are a bit overcrowded, 
are thinking about giving them information, real-time 
information, like maybe go in this entrance rather than that 
entrance, or identify alternatives out there.
    Our investment on the Schoodic Peninsula is, one, to 
provide a great economic benefit to the people of Maine in 
having an alternative to the Bar Harbor experience, and it is a 
great resource as well and a fantastic development.
    I think technology is going to be one of the keys to this, 
and better trip planning for all of them.
    [The information follows:]

                  Overcrowding at Acadia National Park

    Given the recent upward trend in visitation, combined with this 
year's centennials of both the National Park System and Acadia, it is 
not unreasonable to predict that 2016 visitation will approach or 
exceed 3 million.
    The park and Centennial task force have initiated a campaign to 
encourage visitors to enjoy Acadia wisely, and to distribute use (both 
geographically and temporally) by choosing low-impact transportation 
systems such as leaving cars where visitors are staying, then walking, 
biking, or riding the bus; enjoying a car-free biking experience by 
using the park's carriage roads; or enjoying a summit view by hiking 
one of Acadia's historic trails. The campaign also encourages visiting 
special park places in ways and at times that avoid and reduce crowds 
like at night to view a full moon over Sand Beach or shooting stars 
over Cadillac Mountain or avoiding Cadillac Mountain at sunrise; 
watching the sunrise along Ocean Dr. ve or on an off-shore boat ride. 
Visitors could enjoy Acadia-related amenities in the communities that 
surround the parks, including visiting local museums, libraries, 
historical societies, gardens, or galleries, or exploring the greater 
Maine coast, or even venturing into Canada to make a trip a ``two 
nation vacation.''
    NPS staff and consultants also are working on a holistic 
transportation plan for the park. Although an approved plan and the 
beginning of implementation is still about two years away, staff will 
be engaging the public this summer on a series of preliminary 
alternatives that suggest various measures to better manage the 
movement and activities of visitors. To help inform the planning 
process, park staff will continue to test possible strategies with 
potential to ensure better visitor experiences. An example are two 
planned car-free mornings where most motorized vehicles will be 
prohibited from the park loop road and the Cadillac Mountain Road.

    Going back to Congressman Stewart's comment. Utah has great 
public lands besides the national parks. There is all the focus 
on the icons, and there are other places. And we can work with 
our other public land agencies, State parks, and others to help 
distribute this.
    That is why the Find Your Park campaign is ``find your 
park.'' It does not say ``find your national park.'' It is 
``Find Your Park.'' We looked at this as a big tent for all of 
our parks and partners.

                          TICK-BORNE ILLNESSES

    On the public health side, you may not know that the 
National Park Service has had a direct relationship with the 
Public Health Service for almost 100 years. We have public 
health officers embedded in the National Park Service that 
directly monitor. These are uniformed officers of the Public 
Health Corps that are actively engaged in the issue of 
maintaining public health when it comes to visiting parks.
    Tick-borne illness, Lyme disease and others, are one of 
those key resource issues that we really want the public to 
know. Particularly in our East Coast parks, where we are 
struggling with Lyme disease.
    Three times I have gone through treatment for Lyme disease, 
so I know what it is all about.
    This is an area where we really want to emphasize public 
information, to wear the proper repellents, the right clothing, 
and the like, so visitors avoid this issue.
    [The information follows:]

                          Tick-borne Illnesses

    Our Office of Public Health's Public Health Consultants, assigned 
in parks and regions throughout the NPS, routinely provide information 
on relevant tick-borne diseases and intervention strategies to parks as 
a part of their Public Health Assessments, where the epidemiological 
evidence supports a specific disease.
    Starting in 2014, the Office of Public Health has partnered with 
the Centers for Disease Control and Prevention to conduct tick-borne 
disease surveillance in 11 eastern national parks. This long-term, 
geographically dispersed study provides specific tick-borne disease 
risk information for visitors and employees and will be a significant 
contribution to improve scientific understanding of the ecological 
drivers of tick-borne disease risk, particularly the relationship that 
biodiversity may have to reducing tick-borne disease risk.
    Tick-borne disease prevention materials are available on our 
websites, and a tick and zoonotic disease prevention app is in 
development and expected to be released this summer. Over 200 tick-
borne disease prevention trail-head signs were distributed to four of 
the seven easternmost regions. Tick-borne disease prevention trainings 
were given in-person at parks participating in our surveillance program 
and educational materials were distributed, with service-wide tick-
borne disease prevention webinars for employees and volunteers.

    Ms. Pingree. Thank you, Mr. Chairman.
    Mr. Calvert. Mr. Jenkins.
    Mr. Jenkins. Thank you, Mr. Chairman.
    Director, thank you for the visit yesterday, and thank you 
for your testimony today. And thank you for the good work of 
the National Park Service in my State of West Virginia. I am 
proud to have some very beautiful, scenic, cherished lands.

                           BOY SCOUT JAMBOREE

    West Virginia, in the Third Congressional District, we have 
the Bechtel Summit Boy Scout camp. There is now going to be a 
second National Jamboree in 2017 and a World Jamboree in 2019.
    Just as an expression of appreciation, I hear pretty 
consistently about the work of the Boy Scouts with the local 
community, because this area of the Boy Scouts butts up against 
a national park, the New River Gorge.
    As a matter of fact, if you go onto the Boy Scouts Web 
site, they promote the Jamboree by talking about the Summit 
Reserve's 14,000 acres up against the 70,000 acres of the 
national park. So some of this cobranding, comarketing, is well 
at work.
    Do you have any sense of the positives or challenges in 
your national park relationship with the Boy Scout jamborees, 
national and world, that will be in that area?
    Mr. Jarvis. I see no challenges, just great opportunities, 
Congressman. As you know, the development of the new site in 
West Virginia adjacent to New River Gorge National River, was 
the largest volunteer effort in the history of the National 
Park Service with extraordinary support from literally tens of 
thousands of Boy Scouts and troop leaders across the country. 
There is an integrated trail system. And this is the sort of 
new permanent home for these kinds of gatherings.
    We have not, to be blunt about it, started planning for the 
2019 World Jamboree, but I see it as a huge opportunity to 
really highlight the long history of the relationship between 
the Boy Scouts of America and the National Park Service, and to 
really expand that.
    As I mentioned to you, I have probably done hundreds of 
Eagle Scout projects myself with young scouts looking for 
projects in national parks, and I know rangers across the 
system have done as many as well.
    Mr. Jenkins. Those involved know that one of the 
commitments the Boy Scouts have made is essentially requiring 
the scouts to do community service projects in conjunction with 
their participation with these jamborees. I hope we can 
continue to see that collaborative relationship as an 
opportunity to help improve our national parks. When you talk 
about deferred maintenance, you have literally 30,000, 40,000 
Boy Scouts attending the jamborees that are ready to get to 
work.

                        NATIONAL HERITAGE AREAS

    Secondly, I noticed from the budget, about a 50 percent cut 
in the category of national heritage areas. In my neck of the 
woods, we have two National Heritage Areas, one actually in my 
district, the other in another part of the State. I notice from 
the budget about a 50 percent cut to those line items.
    I heard you reference priorities. If we as a committee 
recommended restoring funds because we think it is a priority 
for the National Heritage Areas' support, do you have any 
opposition?
    Mr. Jarvis. No opposition to that.

                     CO-MARKETING OF NATIONAL PARKS

    Mr. Jenkins. You mentioned the Mighty 5. We talked about 
this yesterday, and it came up again today. It sounds to me 
that when States do some unique marketing and branding about 
the assets that they have, in particular national parks, that 
is a true win-win situation.
    I want to reiterate I welcome feedback from you, Director, 
and your staff about those State and national park co-marketing 
efforts, where they are working like the Mighty 5, and maybe 
where we can provide some assistance to encourage them.
    I want to be able to go back to my tourism folks and hold 
out some best-practice examples. Let's make sure that we are, 
at the State level, doing everything we can, in working with 
the National Park Service, to promote these wonderful 
resources.
    Mr. Jarvis. We look forward to working with the State of 
West Virginia on that. We built this marketing campaign around 
the centennial in a way that any State or tourism destination 
organizations can benefit. We just received a destination 
tourism foundation hospitality award for this work on the 
centennial. Brand USA is using it in international tourism.
    We have really done this in a way that any State can take 
advantage of it. Certainly, with the incredible assets that are 
in West Virginia, this is a real opportunity to market the 
parks that you have, the heritage areas', Appalachian Trail, 
some great resources.

              HISTORICALLY BLACK COLLEGES AND UNIVERSITIES

    Mr. Jenkins. My last question for this round is, we have a 
historically black college in my district, Bluefield State. 
From a quick look at the National Registry of Historically 
Black Colleges, there appears to be about 107 colleges on that 
list. Your budget line item was about $3 million.
    I would like to have some follow-up with that volume of 
historically black colleges, to what extent that $3 million can 
really make an impact. I welcome the opportunity to have a more 
detailed discussion about your line item and your priorities 
within that category.
    Mr. Jarvis. We will be glad to come back and follow up with 
you individually as we go forward with that.
    Mr. Jenkins. Thank you.
    Thank you, Mr. Chairman.
    Mr. Calvert. Mr. Israel.
    Mr. Israel. Thank you, Mr. Chairman.
    Director Jarvis, welcome.
    Ms. McDowall, thank you for your work.

                            ROOSEVELT ISLAND

    One very specific curiosity, and then a broader question 
about how you sustain funding over the long term.
    Specifically, the Theodore Roosevelt Association has been 
in a conversation with the park service about placing some 
interpretive markers on Roosevelt Island here in Washington. I 
want to thank you for that engagement and encourage you to 
continue to work and consult with them, so that we can develop 
what I think could just be a masterpiece here in Washington. 
Thank you for that.
    I assume that you will continue to have conversations with 
them.
    Mr. Jarvis. Absolutely. I think it was actually a really 
great idea that was brought forward by Tweed Roosevelt, a 
direct descendant of Teddy. We do not do a particularly good 
job of telling the legacy story of President Roosevelt on the 
island. So his concept is creating a series of interpretive 
displays around the trail.
    That trail is heavily used. If you go over there coming out 
of Rosslyn and out of the District, it is an opportunity to 
really tell Teddy's story and his contributions to conservation 
in this country. We will be working directly with our friends 
group there from Theodore Roosevelt and with the National Park 
Foundation and our own resources.

                          SUSTAINABLE FUNDING

    Mr. Israel. Thank you. Sagamore Hill is located in my 
district, so I have a very strong and deep interest in this.
    Going a little bit broader, I am concerned about the 
ability of the park service to sustain a massive 
infrastructure, and to conserve, while it relies on sometimes 
good years, sometimes bad years in appropriations. I perhaps 
should not be saying this as an appropriator, but it seems to 
me that a long-range plan for the park service needs to 
consider some sustained funding levels.
    I am curious as to whether you have given any thought to 
what future funding may look like and where you may go for 
sustained budgetary support and new revenues?
    Mr. Jarvis. Thank you, Congressman, for that question.
    As I look out into the future of our second century, I am 
with you. I have the same sort of concerns. We are a perpetuity 
organization on an annual appropriation. That makes it very 
difficult for us to plan and to manage these resources for the 
American people.
    So we need your help, and the authorizers as well, to help 
us create essentially a more sustainable financial model for 
the National Park Service. I think there are multiple 
components to that.
    One is obviously appropriations. If we had a more 
predictable appropriation, or even a multiyear appropriation, 
that would be one aspect of this.
    I think another is our fee program. Right now our fee 
program is hard to predict because we are on an annual 
reauthorization. That is $230 million a year that we rely on to 
address deferred maintenance and provide visitor services. If 
there is any way we could get a much longer authorization of 
our fee program, that would give us a much greater ability to 
plan and predict.
    We do have some requests for some new fee authorities 
within the authorizer's side, as submitted officially from the 
Secretary of Interior to both the Senate and the House. We 
would like to see those come through.
    The third piece of it is philanthropy. I think we have 
really worked on this over the last couple years. Our National 
Park Foundation is on the path to raising $350 million 
privately. And our other friends groups, which we have recently 
just analyzed, are also showing extraordinary success in 
raising philanthropic support at the individual park level, and 
they are raising somewhere over $300 million themselves for 
individual parks. Our ability to continue to grow that is a big 
part of it.
    Then, believe it or not, corporate support and corporate 
sponsorship is an area we just ventured into. But as a part of 
the centennial, we have raised over $45 million from individual 
corporate sponsorships, from Subaru, Disney, American Express, 
and Budweiser. They put up hard cash and their marketing 
support. That has driven a lot of the marketing effort out of 
this as well.
    Ultimately, this institution needs an endowment, and we 
need a way to feed that endowment and let that endowment grow.
    The Second Century Commission, which was a bipartisan group 
that got together and studied the park service starting in the 
Bush administration, released their report in the beginning of 
this administration. They said if they looked back 100 years 
from now, the number one thing that they think would have a 
long-term effect is if they could create an endowment for the 
National Park Service.
    If you think about major institutions like colleges and 
universities that are very successful, they have endowments. I 
think this is an area where we would love to work with you.
    How do we create that? How do we feed it? How do we let it 
grow? So that 50 or 75 years from now, the service has a corpus 
upon which it can rely?
    Mr. Israel. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    Speaking of endowments, how much does Harvard have in their 
endowment account right now?
    Mr. Israel. $40 billion.
    Mr. Calvert. $40 billion, so at 4 percent a year, that is 
significant.
    Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman.
    Thanks, Director. I am sorry I missed our appointment 
yesterday, but around here, they make us vote occasionally. It 
just screws up our whole schedule. So anyway, I am sorry about 
that, but it is good to see you again.
    It is nice that you brought Grace along, back to her old 
stomping grounds on the committee. It is good to see you again.
    One thing about an endowment is that we are appropriators 
and what happens is you all of a sudden get automatic funding 
through an endowment, and then the funding from the 
appropriators goes down, because you have this funding. So that 
is something you have to watch when you are pursuing an 
endowment.
    I was going to ask about the annual collecting fees process 
that we authorize through this appropriation versus a long-term 
reauthorization by the authorizing committee, and the need for 
that. However, I think you answered that with Mr. Israel's 
question.

                   GROWTH OF THE NATIONAL PARK SYSTEM

    What concerns me to some degree is, A, the number of new 
units we are putting in the park service without the thought of 
how we are going to maintain those and how that impacts the 
backlog of maintenance and so forth in the current parks that 
exist.
    I will give you an example. In Idaho, they are having a 
discussion right now. There are a lot of people who would like 
to make Craters of the Moon a national park.
    I view the national parks as the jewels, the Yellowstones, 
the Glaciers, even Yosemite, and other major national parks.
    There are places for national monuments, for unique 
characteristics. Everybody agrees that Craters of the Moon is a 
unique landscape and characteristics. I do not know that a 
national park necessarily is justified there. But a lot of 
people look at it as, if it was called a national park, it 
would bring in a lot more visitors and it would get a lot more 
unappropriated dollars to maintain it. I do not know that you 
are going to get more dollars.
    But we seem to be expanding and thinning out your ability 
to address the maintenance in the current parks that we have by 
adding new units.

                         TRANSPORTATION FUNDING

    In your testimony, you said, ``Of this increase, $150.5 
million will address the deferred maintenance backlog. Together 
with the mandatory proposal discussed below, this will provide 
the National Park Service the resources to restore and maintain 
all currently identified, highest priority nontransportation 
assets in good condition over the next 10 years.''
    What about, A, the transportation backlog, and the non-high 
priority? What is going to happen to the backlog overall?
    Mr. Jarvis. No, I got it. Let me take your last question 
first, and then I will go back to the growth in the system a 
little bit.
    Congress passed a 5-year transportation bill and the park 
service's allocation for that was $268 million, and that grows 
to $300 million over the 5-year term of the transportation 
bill.
    It is not enough, but it is a pretty good start. And it 
allows us, now that there is a 5-year plan, to really put in 
place our planning efforts for the restoration and repair of 
our transportation systems, our roads, paved and unpaved, 
bridges, all that sort of access component that is so 
necessary.
    We have some really serious issues, as you know. We talked 
briefly about Memorial Bridge here in Washington, D.C., which 
is estimated at a $250 million project. The Grand Loop Road and 
three out of five entrance roads in Yellowstone is another one. 
That is $850 million to $1.25 billion. It is a big project as 
well.
    The transportation bill did allow the National Park Service 
to compete for these large projects with the States, so we 
would have to go in, and that is what we are going to do with 
Memorial Bridge. We will go in for a request along with the 
Commonwealth of Virginia and the District of Columbia, to 
request funding from that pot to fix Memorial Bridge. We have 
to really get started by 2018, at a minimum, to get that bridge 
repaired so it does not turn into a footbridge by 2021.
    So we are addressing our transportation assets.

                        DEFINING ASSET PRIORITY

    The high-priority, nontransportation assets are those that 
are essential to visitor use, so those are the water systems, 
the wastewater systems, the prime visitor centers, some of our 
lodges and hotels, and the historic core of the historic 
resources. In a triage, those have to be considered.
    The low-priority assets, some of them we are going to lose, 
and some of them we will tear down and remove, just to get them 
off the books, because of their condition. If they are in very 
poor condition and they are a low-priority asset, then we will 
remove them from the inventory and from the park. That is just 
the way we have to face it.
    We are really focusing our fee program, our philanthropy, 
on those assets you can market to a potential donor, like the 
iconic sites here in Washington, supported by individuals like 
David Rubenstein. The request we have in the fiscal year 2017 
budget relates to those high-priority assets.

                   GROWTH OF THE NATIONAL PARK SYSTEM

    In terms of the growth in the system, let me just say that 
I am as concerned I think as you are about growth in the system 
that has a direct financial impact on the National Park 
Service. Every one that I have promoted and supported, I have 
worked very, very hard to minimize the footprint of the 
National Park Service and required that there are partners 
willing to pony up before we even say yes.
    For instance, at Harriet Tubman National Monument in 
Maryland, the State of Maryland is building the visitor center, 
completely doing all of the infrastructure development. All 
they ask is that we have a ranger in that building. The 
physical resource that we have obtained has no real 
requirements. It is just an open set of fields.
    When we did Pullman, we raised $8 million in the Chicago 
area before we even said yes. We own the footprint of one 
building. We minimized our ownership, again, so that we are not 
taking on huge additional maintenance backlog or operational 
responsibilities.
    But I think the system is always going to grow. It does not 
stop. The defense authorization bill gave us a bunch of new 
parks. Presidents, every one of them, regardless of their party 
affiliation, like to give us new parks as well.
    We will continue to grow, but I think we have to manage 
that growth in a way that does not impact the broader system.
    Mr. Simpson. Thank you.
    Mr. Calvert. Thank you.
    Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman.
    And thanks for being with us. I echo Mr. Simpson's 
apologies that votes blew up our meeting yesterday, but I thank 
you for the effort.
    I also want to say thank you for what the service does. As 
someone who grew up in the shadow of the Olympic National Park 
I know it is an extraordinary asset that draws a whole bunch of 
people to our region. I am often reminded of what an economic 
driver it is, and not just in terms of hotel stays and 
restaurants. My grandfather helped pave the road up Hurricane 
Ridge, so I know it has been an extraordinary asset.
    Our neck of the woods has had a really tough winter, and we 
are now facing some real access challenges that are already 
posing problems for researchers who are studying the Elwha, and 
for homeowners and private landowners within the region, not to 
mention the fact that it could have some impact in terms of 
visitation this summer.
    I was happy to see that the park service budget makes some 
key efforts to address maintenance needs because I know just 
how critical it is to maintain these roads and trails so 
visitors can get out there and enjoy the parks.

                        OLYMPIC HOT SPRINGS ROAD

    That said, I was hoping I could just get an update on one 
pressing issue, the washout of the Olympic Hot Springs Road. I 
know there are a lot of balls in the air with the whole 
alphabet soup of agencies that get involved with the impacts to 
salmon habitat, not to mention the continuing difficult weather 
conditions. But we have a lot of private landowners, park 
users, research scientists, and park service staff who are very 
heavily impacted by the loss of this single access point.
    So I was hoping you could just discuss what the service is 
doing to expedite the repairs to the road and ensure that 
access is restored as quickly as possible. Can you give us some 
sense of the timeline? Also if there is anything that the park 
service needs to expedite repairs, I would love to know that, 
too.
    Mr. Jarvis. Thank you for that question, and thanks for the 
support for Olympic National Park. It really is a fantastic 
resource. I know you have been getting a lot of rain up there. 
If you could just capture it, that would be the other thing. At 
least we are getting some snowpack, both in the Cascades and 
the Olympics and Sierras this year, which is a good thing.
    The good thing on the Elwha is that it has helped flush out 
all that sediment that was backed up on the rivers. The 
photographs of the delta that have been created and the 
restoration of the beaches and the quahog sandspits down to 
Dungeness are really fantastic. But there has been impact to 
the road system.
    So the plan is right now we have requested funding from the 
Federal Highway Administration for what they call the Emergency 
Relief for Federally Owned Roads funds, which are emergency 
funds, to put in a one-lane bridge at that washout. We expect 
that to take about 6 to 8 weeks to get installed, after the 
estimated two month compliance process is complete.
    That will serve, not great, but it will serve as access for 
the landowners who are up that road and our own administrative 
access. We have park housing. We have a maintenance facility up 
there. And the public access as well.
    Then we are going to have to go in for a reprogramming 
request to the Federal highways. The road was in for a 
resurfacing. We are going to have to rethink that, obviously.
    But now that we do have a 5-year bill, we can go in for a 
major reconstruction on that site. But we are probably talking, 
three, four years before we can actually get to that and get 
the work done. So we will be living with that temporary fix for 
three to five years.
    Mr. Kilmer. Do you have what you need in terms of being 
able to move forward with the temporary fix?
    Mr. Jarvis. Yes, we do.
    Mr. Kilmer. Okay, thank you.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    Mr. Amodei.
    Mr. Amodei. Thank you, Mr. Chairman.

                        QUAGGA AND ZEBRA MUSSELS

    Thanks, Mr. Director. Hey, I want to talk with you about 
quagga mussels and zebra mussels for a minute, Lake Powell, 
Lake Mead.
    In the omnibus last year, which was signed I think about 
the middle of December, NPS was asked to give a report on what 
you guys are planning on doing with regarding other water 
bodies in the West becoming infected with vessels leaving those 
two. I think the report is due here pretty quick. Is it out 
already? Have I missed that?
    Mr. Jarvis. My staff says it is in review.
    Mr. Amodei. So you expect it to be kind of out in the time 
frame of the 90 days? We gave you a couple million bucks to do 
that.
    Mr. Jarvis. Yes.
    Mr. Amodei. Okay. So my last question on that is, can you 
let us know when it is out? I assume we do not have to go to 
the SCIF to see it, so we can come over and pick one up.
    Mr. Jarvis. Yes.
    Mr. Amodei. Okay, great. One last question.

                ACQUISITIONS AND RECONNAISSANCE STUDIES

    I need to know who handles acquisitions or reconnaissance 
studies, since we were talking about acquisitions and expanding 
the system and that sort of stuff, because I have been 
approached by somebody in western Nevada. And I do not know 
whether it works or not, but we want to kind of hook up with 
whoever handles that for NPS.
    What do you do to see whether this is something that is a 
potential fit? Small footprint thing, but anyhow. So if you get 
that information to my office, just to say, here is who you 
should talk to in my outfit in terms of a potential acquisition 
in western Nevada that is not thousands of acres or hundreds of 
acres, stuff like that.
    Mr. Jarvis. Absolutely. We will get the information to your 
office.
    Mr. Amodei. Thank you.
    I yield back, Mr. Chairman.
    Mr. Calvert. Thank you.
    Mr. Israel brought up an interesting point. These budget 
battles, I am afraid, are not going to end. The growth of 
entitlement spending is squeezing discretionary accounts, we 
have the same problems with defense spending and interior. And 
certainly Mr. Simpson's bill, all of our bills, we have this 
challenge.
    But you have the honor and privilege to represent probably 
the most popular government agency in the United States 
Government. I read somewhere the Marine Corps and the park 
service are tied. You are popular.
    So the endowment, I am very pleased that we are moving that 
way. I know the authorizers are moving with the centennial bill 
to get language to do that.
    I think you are going to find that there are going to be a 
lot of people who are interested in leaving some legacy to the 
National Park Service. I think, long term, it will have a 
positive effect on the national parks.

                         TRANSPORTATION FUNDING

    A couple questions. Obviously, you mentioned the Memorial 
Bridge, the necessity to move forward on that. Obviously, we 
have a lack of funds. We are hoping that next year, no matter 
who is President, we can come to some agreement on repatriation 
and put money into the transportation bill, which will increase 
those allocations, including to the National Park Service, so 
hopefully we can see that happen.

                           WHITE HOUSE FENCE

    The other issue is in the newspaper, the White House fence. 
It looks like we have had a number of incursions of late. It 
seems like it is a growing phenomenon. Obviously, the security 
there is important.
    I do not know if you want to get into that briefly, but I 
know there are artistic ramifications. And of course you manage 
the grounds, then you have the Secret Service and Homeland 
Security and everybody else.
    But how is that coming along?
    Mr. Jarvis. I have met with the director of the Secret 
Service. We have talked about it. Our teams are working 
together to come up with several design alternatives to provide 
better security to the White House while at the same time 
recognizing the value of the public to be able to see the White 
House. I mean, you really do not want a 30-foot-tall concrete 
wall around the White House. You want the public to feel the 
People's House is still visible.
    There are a variety of ideas being cast about. We did a 
temporary fix, which has added some level of security. The bike 
racks are still out, giving some distance to the fence, which 
is not really acceptable either.
    We are working toward a design. At some point, we will be 
coming up and talking to you about it.
    Mr. Calvert. Okay, good. And obviously centennial funding 
is important. I am going to make a wild guess here that we are 
going to be level-funded in our allocation. We hope. We will 
find out.
    But we are going to do the best we can with the hand we are 
dealt, so we will try to work with you and the park service to 
make sure that we fund your top priorities and work on that. I 
know you have significant deferred maintenance issues that we 
have to deal with, and we want to help as much as we can.
    Anyway, with that, are there any additional questions?
    Ms. McCollum.
    Ms. McCollum. I have two.

                         YOSEMITE NAMING RIGHTS

    First reading the newspaper a while ago, I read the Federal 
Government is currently involved in an outrageous lawsuit over 
naming rights at Yosemite Park. It just took my breath away.
    My understanding is the corporation that formerly held the 
park's concession contract is trying to claim trademark rights 
in the names associated with a national park.
    To me, it sounds like they are mad that their concession 
contract did not go the way they wanted it to. To me, it is 
extortion of the American taxpayer.
    I am distressed that the National Park Service is changing 
the name of five of the park's attractions. If you could, tell 
me why did the Service feel it had to rename those attractions?
    This has a ripple effect with local businesses that rely on 
this to sell visitor guides and souvenirs. When Voyageurs 
National Park was going forward, that was one of the things 
that we told communities, that they can be part of successful 
economic opportunities being adjacent to a park.
    What steps is the National Park Service taking to make sure 
that does not happen again? And then after you answer that, I 
have one other question I would like to ask.
    Mr. Jarvis. Thank you, Congresswoman, for that question.
    In a nutshell, Delaware North Corporation, which was the 
concessionaire at Yosemite National Park, in 2002 filed with 
the Patent and Trademark Office and obtained the trademark 
names of not only the individual facilities, like The Ahwahnee, 
and Wawona, and Badger Pass, but Yosemite National Park as 
well. They obtained those rights legally. We did not know. It 
is not something that we thought we needed to monitor.
    As a result, this is in court. We have a vigorous defense 
of our position on this through the Department of Justice. And 
the Delaware North Corporation owns, according to them, the 
right to put those names on any product, so a T-shirt, a coffee 
mug, anything in the park right now cannot have that name on 
it, nor can we call The Ahwahnee Hotel ``The Ahwahnee Hotel'' 
because those names are, according to Delaware North, owned by 
them, and they are demanding to be paid $51 million for the 
rights to use those names.
    Mr. Calvert. Will the gentlelady yield on this?
    Ms. McCollum. I would be happy to.
    Mr. Calvert. I am as outraged about this as you are.
    Ms. McCollum. I imagine you are.
    Mr. Calvert. As a businessman, to me, there are ethical 
issues involved here by some concessionaire who took advantage 
obviously of not notifying you of this change. How long were 
they the concessionaire for this location?
    Mr. Jarvis. I am going to let Lena jump in here, because 
she has been very active in this case as well.
    Ms. McDowall. They have been there since 1993.
    Mr. Calvert. So this operation was going on for many, many 
years prior to 1993----
    Ms. McDowall. Correct.
    Mr. Calvert [continuing]. With the names that are iconic 
associated with Yosemite National Park. And they took it upon 
themselves to, in effect, take those names for their own 
purposes in order to, in effect, blackmail you into renewing 
the contract. Would that be an accurate statement?
    Ms. McDowall. It essentially would protect them from a 
competitor coming in.
    Mr. Calvert. People talk about corporate ethics. This is 
just terrible.
    Anyway, Ms. McCollum.
    Mr. Jarvis. So let me just tell you what we are doing about 
that. We are vigorously defending it. We have filed with the 
Patent and Trademark Office to void their claims. 
Unfortunately, that is a process that probably could take up to 
a year or more for them to go through their analysis.
    So in the interim, we do not have the authority to use our 
own names within these facilities, so we had to go through a 
renaming process in order to not validate their claims.
    So they also offered us to use those names, to license them 
to us, which was, to be blunt, offensive. On our part, we chose 
not to do that, to have them license our own names to us.
    Mr. Simpson. Will the gentlelady yield?
    Ms. McCollum. I would be happy to yield to the gentleman 
from Idaho.
    Mr. Simpson. Just out of curiosity, I do not know who the 
concessionaire is, is this the only park that they have been 
in? Or are they in other parks also?
    Mr. Jarvis. No, they are one of our major concessionaires. 
They are in other parks.
    Mr. Simpson. Really? Okay.
    Mr. Jarvis. Including the Grand Canyon and Yellowstone.
    Mr. Calvert. Have they taken possession of those names 
also?
    Mr. Jarvis. Under the new contracts that we have awarded 
them, they are prohibited from doing that. This was an old 
contract that did not have specific language that prevents it. 
But we have gotten smarter about this, so we actually prevent 
them in their contracts from filing the names on this.
    One of the other concessionaires at the Grand Canyon did 
attempt to obtain the rights to Grand Canyon, but we backed 
them off on that.
    Mr. Calvert. This gives the legal profession a bad name.
    Mr. Jarvis. We have proposed in the centennial legislation 
some intellectual property rights protection language to give 
protection to all of the park names across the system, to 
prevent this from happening in the future. That is something 
that is working its way through markup as we speak.
    Ms. McCollum. Thank you, Mr. Chair.
    Before I ask my second question, was it $51 million that 
they were asking--I am going to say trying to extort--from the 
Park Service? That is my term, not yours.
    Mr. Jarvis. What they wanted was us to force the incoming 
concessionaire to pay them the $51 million. So as Lena 
indicated, that was to make it noncompetitive, that any 
incoming concessionaire would have to pay them $51 million.
    They sued us to force the incoming concessionaire to pay 
them.
    Ms. McCollum. It sounds like blackmail to me.

                      GRAND TETON LAND ACQUISITION

    Moving on, we were talking about acquisitions and how 
careful you are when you are looking at making acquisitions to 
our national park system. The budget does include a significant 
land acquisitions request for $22.5 million to purchase 640 
acres of state-owned land in the Grand Teton National Park.
    The size of the project is somewhat unusual. I think I 
understand it pretty well. As we move forward, putting the 
budget together, could you please explain for us why this 
purchase is so large? Is it scalable at all? The project will 
require a match, assuming funds are appropriated. What happens 
to that parcel of land if you are unable to raise the matching 
funds necessary to complete the purchase?
    What happens if the State of Wyoming does not extend the 
date by which the sale must be completed? You are running into 
a potential problem if we are not getting things done on time, 
even if it is in our proposed budget to go to conference and 
get to the President's desk. Can you explain how sensitive this 
timeline is?
    Mr. Jarvis. Thank you for those questions.
    There are two full sections, 640 acres each, inside the 
boundaries of Grand Teton National Park that are owned by the 
State of Wyoming that are part of their State school lands. So 
revenues generated from those lands support the State schools.
    The State of Wyoming has let us know that unless we acquire 
these properties to incorporate into the park, they will sell 
them at auction for development. These are in the heart of the 
park, very developable properties right on the flats. They are 
in the Snake River Valley looking right up at the grand. They 
could either be mega homes or a mega resort, easily developable 
into that.
    They are appraised, one at $46 million and one $39 million. 
The $46 million property called Antelope Flats is probably the 
most vulnerable, the most developable. So we have requested 
half of that funding in the fiscal year 2017 Land and Water 
Conservation Fund, and then the proposal is to raise the other 
half privately. We have a coalition with our National Park 
Foundation and Grand Teton Foundation, to raise the match of 
$22.5 million to purchase the property.
    If we do not purchase that property by December 31, 2016, 
the Governor's authority to sell it to us expires, and then the 
property will be subject to auction by the State of Wyoming for 
development.
    So we are under a great deal of pressure. We are pretty 
concerned, to be very blunt about it, about going into a CR, 
into a continuing resolution into fiscal year 2017, because 
then we would not be able to have the full amount, the $22.5 
million, to match the fundraising side.
    So it is absolutely, as you can see, our number one 
priority in our Land and Water Conservation Fund for fiscal 
year 2017.
    Ms. McCollum. Mr. Chair, there are some things that are 
even beyond our control. We would like to see everything done, 
as Chairman Rogers has said, in regular order and in good time. 
But there are some conversations that we might need to have. If 
this becomes a priority, if this committee and the Senate are 
in agreement on it, and it looks like something that would be 
included, we might be able to have conversations with the State 
of Wyoming to figure out if there is some way we can work with 
the Governor or the legislature there in extending that 
deadline for moving forward.
    From what I am hearing from you, there is our decision as 
legislators and appropriators whether or not this becomes 
something we fund on the priority list. It is something that I 
support. And then if it looks like we are not going to be able 
to get things done in regular order, we have to figure out how 
we have those conversations with the State of Wyoming on this.
    So, thank you, Mr. Chair.
    Mr. Calvert. Thank you.
    Just on that subject, thinking out of the box a little bit, 
is it possible a third party could acquire that property with 
an agreement for future acquisition back from the National Park 
Service?
    Mr. Jarvis. It is possible, but the deed would have to be 
secured with us because the Governor's authority is specific to 
selling it to us.
    Mr. Calvert. Could a third party, in effect, loan the 
National Park Service the money to acquire the property with a 
payback provision?
    Mr. Jarvis. That is what we are looking at right now.
    Mr. Calvert. Okay. Thank you.
    With that, we certainly appreciate you coming--anything 
more?
    Mr. Jarvis. Yes, if I could make one final comment I am 
serving in my last year with the National Park Service. I just 
want to express my great appreciation to this committee, to 
you, Chairman, to all the members. This committee has been 
always very, very good to the National Park Service. Bruce 
Sheaffer was before this committee the first time in 1976, 
which is the same year I joined the National Park Service. I 
want to compliment Lena McDowall, who is the new and improved 
Bruce Sheaffer, CFO of the National Park Service. She did not 
get much chance to speak today, but is a fantastic new addition 
to the system. I think you will enjoy working with her into the 
future.
    But again, my compliments to this great committee. You have 
always been great to us.
    Mr. Calvert. Thank you for your service. We appreciate you 
every year coming to this committee. We will miss you.
    But with that, we are adjourned.
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    

                                         Wednesday, March 16, 2016.

 BUREAU OF INDIAN AFFAIRS/BUREAU OF INDIAN EDUCATION BUDGET OVERSIGHT 
                                HEARING

                               WITNESSES

LAWRENCE ``LARRY'' ROBERTS, ACTING ASSISTANT SECRETARY, INDIAN AFFAIRS, 
    DEPARTMENT OF THE INTERIOR
CHARLES ``MONTY'' ROESSEL, DIRECTOR, BUREAU OF INDIAN EDUCATION
MICHAEL BLACK, DIRECTOR, BUREAU OF INDIAN AFFAIRS

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. The committee will come to order. Good 
afternoon, and welcome to today's hearing on the Fiscal Year 
2017 budget proposal for Indian Affairs. I am going to be brief 
because we have a lot of ground to cover, and obviously we have 
votes coming up.
    Funding for Indian Country has been and will continue to be 
a nonpartisan funding priority for this subcommittee for Fiscal 
Year 2017. Today we have been making a concerted push over the 
past several years to make incremental improvements in the 
lives of American Indians and Alaska Natives, particularly in 
healthcare, education, and law enforcement.
    It has been a partnership. I want to thank several of our 
key partners for being here today to testify. Our first panel 
includes Larry Roberts, acting assistant secretary for Interior 
for Indian Affairs, Mike Black, director of the Bureau of 
Indian Affairs, Monty Roessel, director of the Bureau of Indian 
Education. Gentlemen, thank you for being here today.
    For the past few years at the subcommittee's request, the 
Government Accountability Office has been another key partner 
on Indian education matters. What started in 2012 with a 
seemingly simple question of comparing per student funding 
inside and outside of BIE has grown into something much more 
complex. The GAO recently completed another study on BIE 
facilities' condition and management, and I have asked them to 
be here today on a second panel to report their findings and 
recommendations.
    Before we begin, I will just make a few comments about the 
Fiscal Year 2017 budget proposal for Indian Affairs. This 
Administration put its partners on the subcommittee in a tight 
spot by raising expectations throughout Indian Country that we 
will struggle to meet. The President's budget circumvents the 
discretionary spending caps that were signed into law. That is 
how the President is able to propose $136 million increase for 
Indian Affairs, and a $377 million increase for the Indian 
Health Service with no realistic offset.
    But currently law requires discretionary spending to stay 
relatively flat in Fiscal Year 2017. So this subcommittee's 
challenge will be to find the money from within to pay for the 
have-to-do's without cutting the popular nice-to-do's by so 
much that we cannot pass a bill.
    Before I turn to the first panel, let me first ask our 
distinguished ranking, Ms. McCollum, for any opening remarks 
she would like to make. Thank you.

               Opening Remarks of Ranking Member McCollum

    Ms. McCollum. Thank you, Mr. Chairman, Assistant Secretary 
Roberts. I join the Subcommittee Chairman in welcoming you to 
the committee. Thank you to the other witnesses who are here as 
well.
    This Subcommittee is united in its commitment to the social 
and economic wellbeing of Native Americans, so I am pleased 
that the President's budget in 2017 proposes investments to 
better address Native American issues and needs, both in their 
communities and in their environment. I do support the 
President's budget. Some of the initiatives that the President 
has proposed, well, I think the chairman is correct that they 
are not likely to see the light of day. But they are good to 
have in here, so that we can have a discussion on the way we 
move forward and invest in the United States of America and in 
Indian Country.
    The budget expands the Administration's TIWAHE initiative 
which leverages BIA funds and other Federal programs to support 
families and communities' health in a culturally appropriate 
way. It increases this initiative by $17 million. In the 
discussions that we have had with youth who have been here 
about some of the challenges that they and their families face, 
what we heard about rising suicide rates among the very young 
in Indian Country makes these investments in tribes and tribal 
families and communities very important to me.
    The budget also invests in tribal natural resources, 
supporting climate resilience, management, conservation, and 
utilization of reservation and water resources. The budget 
request advances Indian education by investing an additional 
$60 million in programs that support students from elementary 
through post-secondary education, and by providing $138 million 
to continue the robust education construction program that was 
enacted last year.
    Together we are taking important steps to build towards a 
construction budget that is dedicated to repairing our schools 
and education facility replacement. These investments are a 
good start, but there is much more to be done.
    Having said that, I have to admit I was appalled to learn 
that the Bureau of Indian Education is failing to conduct 
safety and health inspections for all of its schools. The 
Bureau of Indian Education is responsible for 48,000 Indian 
students and 183 campuses. Each and every one of those schools 
is supposed to be inspected annually, but GAO found last year 
that BIA failed to inspect 69 out of the 180 school locations. 
GAO also determined that 54 school locations have not been 
inspected in the past 4 years. So I am glad we are going to 
have another panel with GAO, because if there is something that 
needs to be repudiated on that, we need to know. But I was 
absolutely appalled reading that report.
    On March 2nd, 2016, Secretary Jewell testified before this 
committee, and agreed that BIE schools were in a deplorable 
condition, and that we have a responsibility to provide these 
students with a safe learning environment. So it is 
unconscionable that, if true, the Bureau is not demanding full 
accountability from the inspection program because one of the 
most basic elements of children's safety is to be in a school 
facility that is safe. GAO's study shines a light on what I see 
as huge failures. We can and we must do better for those 
children. I know that will be a goal that we all share.
    So, Mr. Chair, with that, I do not have anything more to 
add to an opening statement.
    Mr. Calvert. Thank you. I thank the gentlelady. I think we 
have time to have your opening statement. So, Mr. Roberts, if 
you will do that, then we will recess until after votes. You 
are recognized.

         Opening Remarks of Acting Assistant Secretary Roberts

    Mr. Roberts. Good afternoon, Chairman Calvert, Ranking 
Member McCollum, other members of the committee. It is an honor 
to be here before you all here today.
    I am Larry Roberts, acting assistant secretary for Indian 
Affairs. I'm a member of Oneida Nation of Wisconsin, so near 
your neck of the woods, Ranking Member. I want to begin by 
thanking of each of you for your dedication to Indian Country. 
I know that you visited the Navajo Nation and saw issues there. 
I want to say thank you to this committee for your leadership 
with the Fiscal Year 2016 budget and the resources that this 
committee provided because it is sorely needed throughout 
Indian Country, and we thank you for that.
    The increase in successes in Indian Country are due in 
large part to the work of tribal leaders. Since 2008, our staff 
within Indian Affairs has decreased by approximately 1,600 
employees. That's nearly 17 percent of our workforce within 
Indian Affairs. What we're seeing is that whether you're a 
direct service tribe or a self-governance tribe, tribal 
leadership is proving with the increased funding Congress is 
providing, they can deliver results. We've seen it in the 
reduction of violent crime. We've seen it in the reduction in 
recidivism, and we're seeing in our Tiwahe Initiative.
    The President's budget is built in coordination with tribes 
through the Tribal Interior Budget Council. The President's 
budget, again, requests full contract support cost funding, and 
also requests that it be mandatory funding in Fiscal Year 2018. 
It includes an increase of $21 million to support TIWAHE 
objectives including additional money for social services, 
additional money for implementation of the Indian Child Welfare 
Act, improved access to suitable housing, and also job training 
and placement.
    The President's budget includes investments for Native 
youth through increased funding for scholarships and schools 
like Haskell and SIPI, the United Tribes Technical College, and 
Navajo Technical University. BIE is focused on serving as a 
capacity builder and service provider to support schools and 
tribes in educating their youth. The budget proposes full 
tribal grant support cost funding for tribes which choose to 
operate their schools for BIE schools. And finally, the budget 
provides $138 million for construction of BIE facilities.
    In terms of managing natural resources, we've heard from 
tribes about the importance of trust real estate services and 
increasing funding for that. And so, the President's increase 
requests approximately $7 million to address probate backlogs, 
title land and record processing, and database management.
    We thank the committee for the Fiscal Year 2016 money to 
start the Indian Energy Service Center, where tribes can go to 
one location to get energy services from BLM, BIA, OST, and 
ONRR. That's being implemented now, and the President's request 
in 2017 continues that funding.
    We're also working with tribes to promote cooperative 
management, and the President's request includes a $2 million 
increase to address subsistence management and Alaska issues. 
And finally, the President's budget request includes a $15 
million increase to assist tribal communities in preparing and 
responding to impacts of climate change.
    I know, Mr. Chairman, in this difficult fiscal climate we 
have budget caps. The President's budget overall, includes a 
less than 1 percent discretionary increase for the Department 
of the Interior, but a 4.9 percent increase for Indian Affairs. 
And so, we're really proud of the President's budget.
    Within the Department as a whole, the National Park Service 
has the largest increase, followed by Indian Affairs. There are 
other agencies within the Department that are taking a 
decrease.
    So, again, Mr. Chairman, we appreciate this committee's 
leadership on the budget. We are thankful for the 2016 budget. 
And we stand ready to answer any questions you may have.
    [The statment of Acting Assistant Secretary Roberts 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Calvert. I thank the gentleman for his testimony. We 
are going to recess until the votes, and then we will come back 
immediately after the last vote. Thank you.
    [Recess.]

                 INDIAN EDUCATION FACILITIES INSPECTION

    Mr. Calvert. The committee will come to order. Ms. McCollum 
in her opening testimony mentioned the GAO report on the Bureau 
of Indian Education schools, and I share her concern about the 
69 of the 180 BIE school locations that were not inspected for 
health and safety in Fiscal Year 2015. This, as she has said, 
is clearly unacceptable.
    In the entire $2.9 billion Indian Affairs budget, I cannot 
imagine a higher priority than protecting the health and safety 
of children attending schools and sleeping in dormitories. Why 
did some BIA regions inspect all schools while others inspected 
no schools in recent years? Specifically, why some regions with 
a large number of schools and significant travel distance were 
able to conduct all the inspections in 2015 while others not? 
What is going on out there?
    Mr. Roberts. Thank you, Chairman, for the question. We 
agree with you that it is unacceptable. We need to make sure 
all of these schools are inspected. We are making sure all 
facilities will be inspected this year. We are in the process 
of advertising job vacancy announcements for additional safety 
inspectors. We expect to have six new people come online.
    Part of our overall reform of BIE, we will have a school 
operations division. That school operations division will look 
at this more proactively.
    Mr. Calvert. On this subject, I would hope--well, not hope. 
We expect that we will have reports from time to time, at least 
quarterly, on how these inspections are going, and that you are 
meeting the target of inspecting all schools in this Fiscal 
Year. And I would like to get also a report on which employees 
are responsible for not inspecting these schools, and has 
anybody been discharged because of this? Is there any reprimand 
that has been done because of the inactivity of BIE to inspect 
these schools?
    Mr. Roberts. Mr. Chairman, we're happy to provide quarterly 
updates. You have my commitment that we will have all 
inspections for the facilities this year. In terms of why those 
inspections did not occur, my sense is that some of that was 
probably due to vacancies, but I do not have the specifics on 
that.
    Mr. Calvert. Well, somebody should be held responsible for 
something like this. If it had been one of my restaurants when 
I was in the restaurant business, a manager would be out of a 
job. And this is much more important than that. It is the 
health and safety of children.

                   PUBLIC SAFETY AND JUSTICE FUNDING

    Ms. McCollum, you are recognized.
    Ms. McCollum. Thank you, Mr. Chairman. I would like to talk 
about the decision that was made in this budget to cut law 
enforcement by $7 million and tribal justice support by $8 
million. The majority of that funding goes directly to tribes 
to be used at a local level. Some tribal nation are on 
reservations that cover areas the size of a State. We are 
working to make VAWA a success in bringing to an end to 
violence against women. That is going to be an ongoing battle 
that we face. We are going to need ongoing support for tribes 
in doing that.
    I have to believe that a cut of this size will be felt with 
impact. In fact, your budget states that increases to law 
enforcement funding have ``represented some of the best 
opportunities for BIA to strategically impact the allocation of 
public safety resources in Indian Country.''
    So there must be a reason why you chose this cut. We need 
to understand it. We are going to be hearing public testimony 
from tribal nations over the next few days, and I know this is 
going to come up because it is coming up with me already. So 
could you address that?
    Mr. Roberts. Thank you, Ranking Member, for the question. 
As part of the great work that this committee and the Congress 
did with the 2016 budget, we received an additional $10 million 
over and above the President's budget request. That $10 million 
was focused on taking proactive steps for tribal courts in 
Public Law 280 States like Minnesota, Wisconsin, Alaska, and 
California.
    When we received that appropriation from Congress at the 
end of 2015, we worked within our budget to see how we could 
maintain the $10 million appropriated for this specific 
purpose, and we were able to refrain some of the funding 
because we do not disagree there is a need out there. The 
funding overall for law enforcement, for police officers on the 
ground, that has not changed. This $10 million is specific to 
tribal courts in Public Law 280 States.
    The topline message, Ranking Member, is that for law 
enforcement, we did not take a decrease over what we asked for 
in the 2016 President's budget. Our request is actually $1.8 
million over what we asked for in the President's 2016 budget. 
We tried to maintain the great work that this committee did. We 
just did not have time to maintain that full $10 million, but 
we do think there is a need there.
    Ms. McCollum. Thank you.
    Mr. Calvert. Mr. Amodei.

                          DETENTION FACILITIES

    Mr. Amodei. Thank you, Mr. Chairman. Mr. Secretary, we have 
never met before, and I do not come from ``Indian Country,'' 
but we have got a significant population. We have got 
reservations. We have got tribes. I come from the part of 
Nevada where we say if you have only been to Las Vegas, you 
have not been to Nevada, so north of there.
    And I got to tell you, I am going to give you a compilation 
of emails that the person on my D.C. staff has compiled over a 
period of 5 months trying to get two basic administerial 
questions answered on behalf of two tribes in my district that 
deal with detention. I am also going to give you the first 
couple of pages of my memo. I can just sum it up with in 
summary; over 5 months, the BIA has only been able to answer 
one-half of one question that two tribes in Nevada have been 
asking. This is only one of many examples of times where our 
office has had to advocate on behalf of our tribes when it is 
the job of the BIA. We have been trying to resolve these issues 
for one of the pending calls for 2 years, and the tribes have 
been trying far longer

                          REAL ESTATE SERVICES

    The BIA mission statement is to enhance the quality of 
life, to promote economic opportunity, and carry out the 
responsibility to protect and improve the trust assets of 
American Indians, Indian tribes, and Alaska Natives. But when 
push comes to shove, the most basic administerial functions of 
ensuring that tribes are helped when they have questions or 
concerns, the BIA has dragged their feet and allowed a 
congressional office to be more of an advocate.
    And I know you are new, and I want to let you know that I 
think the Agency head in western Nevada is a bright light. But 
we are sitting here, basic questions where you are going to get 
a quarter inch of paper where it was just saying, hey, we need 
to set up a conference call, get everybody on the same line, 
please. And it astounds me more to think when the majority of 
your workforce is Native Americans, it is like, come on, folks, 
we are doing this to ourselves.
    I have got contacts from multiple tribes in Nevada about 
real estate operations, people who had paid their homes off 
years prior. And I am not talking 2 or 3. I am talking 6 or 7. 
Well, ``it has always been a problem.'' Really? If anybody else 
in the title business would take 6 or 7 to convey property 
after it is paid off?
    And so, I know the standard answers are, you know, it is 
Santa Fe, it is Phoenix, it is whatever the title plan is. It 
is like these are basic administerial functions. This is not we 
got to get a ruling from somebody, or this, that, or the other. 
This is they paid it off, convey it to them. And I got to tell 
you, maybe it is my fault. I am not doing a good enough job. 
But we keep knocking our head against this, and I will just say 
there is this culture that I have experienced at least for 
these small little dots on the map of indifference.
    And so, I guess my question is, and, you know, honestly, 
well, tell me about the culture at BIA. You are like, well, 
okay, that will be a nice thing to talk about after that lead 
in. I guess what my request is, I would like if possible to 
have somebody on your staff to meet with directly and go, here 
it is, guys, girls, men, women. Here it is. Here is what we 
think the problem is. Can we do something about this where 
these folks can have some level of service, or tell me where I 
have screwed it up or something like that, because as you can 
probably tell, even though we have not met, I am pretty 
frustrated. But we are not really going to work that out here.
    I would like somebody on your staff to work about 
responsiveness generally and about that realty problem because 
this is not Indian County. I mean, it is not like, hey, we got 
thousands of conveyances in northern Nevada. We need to get 
that stuff wrapped up. Can I please have that person? Can you 
designate that person?
    Mr. Roberts. The Director of the Bureau of Indian Affairs, 
Mike Black, oversees operations of all of the regions within 
the Bureau of Indian Affairs. He will be the point of contact 
here.
    You know, it embarrasses me that you have to raise these 
issues that should not even come to your level, quite frankly.
    Mr. Amodei. Agreed.
    Mr. Roberts. And so, we will work with your staff to either 
get them solved as quickly as possible, or let your staff know, 
there is bigger issue here we are running into----
    Mr. Amodei. I appreciate it. And, Mr. Black, here is kind 
of where we are starting, so thank you guys. Thank you, Mr. 
Chairman. I yield back.
    Mr. Calvert. Thank you. Mr. Kilmer.

                           CLIMATE RESILIENCE

    Mr. Kilmer. Thank you, Chairman, and thanks for being with 
us. As someone who represents 11 tribes, I appreciate the role 
that BIA plays.
    I guess I wanted to focus on a couple of things at the top 
of the long list that keep me up at night. One of the big ones 
being the resiliency challenges facing the coastal tribes in 
the region I represent where we have seen increasingly harsh 
storms and rising sea levels, not to mention the threat of 
tsunami, which can literally wipe out some of the villages that 
I represent, and certainly threaten some of these historic 
sites where people have lived since time immemorial.
    I was glad to see in the BIA budget you requested an 
additional $15 million to support climate resiliency in Tribal 
Country, including an additional $3 million for tribal climate 
resilience projects. I guess I wanted to get some sense of how 
those investments are going to be used, and how will it be 
decided where the money goes.
    Further, I know that HUD recently awarded a grant to a 
tribe in Louisiana that is facing similar challenges to focus 
on relocation. Can you talk a little bit about how BIA is 
working with other Federal agencies on this issue? You know, 
even $15 million it is a drop in the bucket when you are 
talking about potentially having to move entire villages that 
are facing existential threat.
    Mr. Roberts. Thank you for the question. My understanding, 
if we were to receive this money through the 2017 budget, is 
that we would continue to build upon the good work that we are 
doing with tribes. Tribes apply to the Department for grants 
for a wide variety of purposes addressing climate change. So it 
could be something like relocation that you have discussed, or 
it can be overall planning, that is how we are going to address 
these climate impacts we know are coming, or building capacity 
within the tribal governments themselves to address these 
issues.
    With regard to your second question about how BIA is 
working with other agencies to address these issues, we have 
the White House Council on Native American Affairs. They have a 
subgroup on environment and climate. The subgroup is looking 
across agencies about how we can collaborate better between 
EPA, HHS, Interior, and other agencies that work in the 
environment field. That is one way we are working across 
agencies to make sure we are coordinated when we are providing 
services to Indian Country.

                          ACCESS TO BROADBAND

    Mr. Kilmer. Thank you. I would love to follow up with you 
on that at some point. The other thing I wanted to ask about 
was access to broadband. One of the most memorable experiences 
I have had in this job was meeting with one of the tribal 
chairmen from my district, and he said, you want the good news 
or the bad news. I said, tell me the good news. He said, every 
one of our high school seniors is going to graduate this year. 
And I said, well, what is the bad news. He said, for the first 
time, the State of Washington is going to require students to 
take the State-mandated exam over the internet. Since they do 
not have high-speed internet they tried to sample the test. It 
was one of those where you answer a bunch of questions, and 
then click ``next page.'' He told me it took a minute and 44 
seconds to get to the next page so they are going to bus the 
kids to a neighboring community, about 90 minutes away to take 
the exam.
    This is such a big issue in terms of both educational 
opportunity and economic development, not to mention the 
ability to start a business. I was hoping you could talk about 
what steps BIA is taking to ensure tribes have access to high-
speed internet.
    Mr. Roberts. The President's budget in Fiscal Year 2017 
includes an increase request of a little under $17 million to 
provide broadband to BIE schools. And obviously when we provide 
broadband to BIE schools, that broadband is going to be 
accessible to the community where that school is located. And 
so, that is one step we are doing to increase broadband. I 
believe the FCC is also taking steps. Monty, is there anything 
you want to add in terms of broadband at BIE schools?
    Mr. Roessel. We are trying to get to a level that is 
comparable to other schools. We are attempting to achieve a 
level of 100 megabytes per second, just like other schools. 
Even though we may have schools that are very small, we still 
have that target so you do not have that lag time of a minute 
and you cannot take those assessments.
    Also, broadband allows us to expand curriculum. Our small 
schools sometimes have a very limited curriculum because they 
do not have the teachers or a lot of different teachers. 
Broadband allows us to actually have a broader curriculum for 
our students in some of these small places.
    Mr. Kilmer. Thank you. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you. And I would hope that BIE would be 
looking into the other programs. The Department of Agriculture 
has a Rural Assistance Program on broadband, and the Gates 
Foundation has been, I would hope in the State of Washington, 
would be looking at that. And certainly Microsoft directly, and 
maybe assisting on something like this.
    Mr. Joyce, you are recognized.

                      LAW ENFORCEMENT: RECIDIVISM

    Mr. Joyce. Thank you, Mr. Chairman. Mr. Roberts, how are 
you, sir? One of the Fiscal Year 2017 priority goals is to 
reduce rates of repeat incarceration in five target tribal 
communities by 3 percent through a ``comprehensive alternatives 
to incarceration'' strategy that seeks to address underlying 
causes of repeat offenses, including substance abuse and social 
service needs, through tribal and Federal partnerships.
    Can you tell the members of the subcommittee how you will 
specifically work with the tribal communities to accomplish 
this goal?
    Mr. Roberts. Thank you for the question. We have had great 
success in working with the tribal communities on this 
recidivism reduction initiative. We are working directly with 
tribal leadership on how to implement it so it looks a little 
bit different at Mountain Ute than it does at Red Lake. The 
focus is working with tribal leadership to build those services 
to address recidivism itself.
    We have been focused on reducing recidivism over the last 2 
years. The early results show a 70 percent decrease in 
recidivism at one location, which is huge. I just saw Chairman 
Siki from Red Lake yesterday, and he really, really appreciates 
this committee's support and the Department's support in 
implementing the reduction in recidivism project there because 
it is giving them for the first time the tools to address these 
issues long term.
    Mike, do you want to talk a little bit about specifics at 
any particular location?
    Mr. Black. I do not know much about specifics, but some 
tribes have chosen to focus on the juvenile population, and 
other tribes have focused on the adult. What they are doing is 
really looking at the treatment programs that are or are not 
available, working within their tribal courts for alternative 
sentencing opportunities, and then also for reentry. A lot of 
times, for individuals that are our repeat offenders, we can 
give them a certain amount of treatment, but then they go back 
to that same environment without any support. So the tribes are 
trying to build all of those components into the recidivism 
reduction effort. And as Larry mentioned, it has been very 
successful so far, so we are very encouraged.
    Mr. Joyce. Great. I am glad to hear that efforts are being 
made, Mr. --and I apologize if I screw this up--Roessel.

                          BIE GRADUATION RATES

    Mr. Roessel. Roessel.
    Mr. Joyce. Roessel, okay. The percentage of tribal students 
completing high school in the 2014-2015 school year who were 
within 4 years of their 9th grade entry in BIE schools was 55 
percent. One of the Fiscal Year 2017 strategic objectives, 
again, of the Department of the Interior is to increase the 
percentage of tribal students attending Bureau-funded schools 
who complete high school with a regular diploma within 4 years 
of their 9th grade entry date by 5 percent (relative to the 
2014-2015 school year).
    Can you tell the members of the subcommittee what 
additional resources are proposed in the Fiscal Year 2017 
budget to assist teachers in these schools to accomplish this 
goal?
    Mr. Roessel. A big part of that is not a specific program. 
We are trying to get away from a program to fix whatever ails 
us, but to look at issues comprehensively. What we are looking 
at doing is trying to get an expanded curriculum.
    So much of what we have done over the years has just 
narrowed the curriculum. So students are bored. They do not 
want to go to school, so we need to expand that curriculum.
    Also, Tribes want to be a part of the equation in terms of 
solving their school problems, but they also want to teach 
their native language, history, and culture, and make school 
relevant to the students there.
    A big part of it is not saying individually this is our 
program, but trying to expand what education means.
    We are also working with our teachers. We have a program to 
get 1,000 National Board certified teachers that will raise the 
quality of instruction so that kids are more engaged. If we can 
just get kids to be engaged, they will want to come back to 
school. A comprehensive look at trying to improve graduation by 
also improving attendance, will have an impact on graduation 
rates.
    Mr. Joyce. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you. Ms. Pingree.

                          SCHOOL CONSTRUCTION

    Ms. Pingree. Thank you, Mr. Chair. Thank you for being here 
today and for the work that you do.
    We spent a long time last year talking about the Beatrice 
Rafferty School in my State, and I am always grateful for the 
way this committee can work together in a very bipartisan way. 
I appreciated the help from the chair, and ranking member, and 
the President in making sure that the funding was available. 
But as you know, there were some disagreements along the way 
about the design and cost, and it has taken a long time to 
resolve that disagreement around the square footage and the 
design.
    I am very grateful that we have made progress, and in 
recent weeks I have heard that the school is on track for a 
construction start date in 2017 in the spring. But I do think 
it is amazing that it was 11 months since our last hearing 
until the sign-off last month. It took that long to get this 
approved. That is a very long delay, and I think we all thought 
it would be under construction by now.
    So I just want to say I know the BIE is putting a lot of 
effort into restructuring the Agency to work better with tribal 
support of schools. But I want to make sure that in the 
process, it does not take so long, but also that there is still 
consideration for space for native language instruction and 
cultural activities. In particular at Beatrice Rafferty, part 
of the disagreement was about this additional cultural space.
    So, again, I am happy we seem to have worked it out, but it 
has been a really long time, and it seems like it should not 
take so long. Can you share a little bit about the lessons that 
you have learned in the past few years of school construction 
so we do not keep repeating these delays, and disagreements on 
design and community input.
    It seems to me a 3-year delay from appropriation until 
groundbreaking when the need is this high is unacceptable.
    Mr. Roberts. Thank you for the question. I do agree with 
you, it is unacceptable. I know that we need to work very 
closely with the school and the tribe right now because we have 
obligated the funding to them to start construction. Quite 
frankly, because there are so many schools in poor condition, 
we should be moving as quickly as possible. Dr. Roessel and 
myself are planning to reach out to the Beatrice Rafferty 
school to see what we can do to start moving this year. We 
should not be waiting until Fiscal Year 2017.
    As to some of the lessons learned, I am relatively new to 
the school construction world, but it feels like we are going 
in fits and starts when we ought to be moving more in a 
streamlined fashion. And we should share with this committee 
our plan not only for the schools on the 2004 replacement list 
which are fully funded now, and we thank the committee for 
that, but also our schedule for the next 5 to 10 schools that 
need repair so that this committee knows and Indian Country 
knows what the schedule is moving forward. Let us lay out a 
strategic game plan to address this.
    Kids cannot be in these schools. It is just unacceptable. 
And so, when Congress provides us the money, we need to work 
with tribes and move as quickly as possible to get that money 
working and new schools on the ground. Monty, is there anything 
you want to add in terms of lessons learned?
    Mr. Roessel. I think one of the biggest lessons learned 
responds to just what you mentioned. What happens is the school 
will make a request to one office, which turn to my office, and 
then they turn to another office, you know the drill. Moving 
forward, we are going to all meet as a team from the very 
beginning.
    The Division of Facility Management will meet with the 
school and with BIE at the same time so we do not have a letter 
lost in transit, so we get together and we can move. It will 
help us when we move forward to the new list so we can actually 
get moving quicker, and it will save a lot of time because that 
is one of the problems we have here. We are bouncing between 
offices, and that was a simple lesson to learn, but also a 
simple lesson to fix that we have already implemented moving 
forward.
    Ms. Pingree. I appreciate your thoughts, and I am glad that 
you see this as an opportunity to do things differently being 
relatively new to this committee and hearing so much about the 
need for construction throughout the country. I do hope you 
will report back to us and let us see how you are moving 
forward in the future because it seems unacceptable that we 
would finally get the construction funds for schools, which is 
hard enough to do in the first place and then that does not 
even move forward.
    So I hope we will hear back from you, and that going 
forward, we actually see these things in action and at work.
    Mr. Roessel. Absolutely.
    Ms. Pingree. Thank you. Thanks, Mr. Chair.
    Mr. Calvert. I agree with the gentlelady. You know, we want 
to do these projects as quickly as possible. We want to build a 
school that people expect, and we also want to make sure that 
the plans are done, and we do not get into change orders, in a 
VA kind of a situation where things spiral out of control as 
far as costs are concerned.
    That is why I think it is always important to have 
somebody, a person, a project manager responsible that we can 
call and be held responsible for getting these projects done in 
a timely and economical fashion, and with the community's 
support. I cannot think of anything more important.

         ALTERNATIVE FUNDING SOURCES FOR EDUCATION CONSTRUCTION

    While we are on school construction, we have urged the 
Department and the Treasury to explore different ways to fund 
schools. We have a deplorable situation out there where we are 
way behind on school construction, and these schools are the 
Federal government's responsibility. And we are failing in that 
responsibility. They are in deplorable condition.
    And our solution cannot be to just hope for funds to come 
available. And we have a lot of smart people out there in the 
finance world. We have gone through in the Department of 
Defense where we rebuilt all of the schools in the Department 
of Defense to great standards, and we owe no less to the Native 
Americans in this country.
    We need to figure out a way to weave some kind of a tax, 
spending program. I am not quite sure what that is, but we have 
talked about it for the last year or so, where we can do 
something to get these schools under construction and built 
where we do not have these conditions.
    Is the Department exploring these alternatives? And, if so, 
would you please update the committee on these efforts?
    Mr. Roberts. Thank you, Chairman, for the question. We are 
exploring those opportunities. Kris Sarri from our Policy 
Management and Budget Office, principal deputy, is working 
directly with the Department of Treasury to figure out what 
options there may be. I do not have any updates for this 
committee today, but I know that our staff will be wanting to 
talk to your staff as soon as we do have some ideas moving 
forward, because it is an extremely complicated issue, and like 
you said, it is the Federal government's responsibility to fund 
those schools.
    Where we struggle quite frankly is there have been other 
models out there which, you know, have provided bonds to school 
districts, for example. Obviously that raises a challenge here. 
But we do have someone that we have brought in on a temporary 
basis from the Department of Defense Education Office to assist 
us in looking at ways to fund these schools.
    Mr. Calvert. Well, you know, obviously there is a way 
forward. Every day that goes by not doing something, we just 
dig ourselves into a deeper hole. And I would expect that this 
would be a high priority within the Department to get this 
done. This is a bipartisan effort. We want to make sure this is 
completed. We do not want to talk about this again next year. 
We would like to figure out a way to do this and get it done, 
and maybe, if it is necessary, to have language in this year's 
appropriation bill.
    Mr. Roberts. Okay.
    Mr. Calvert. Hoping we get through an appropriation bill, 
but that is another subject.

          HOUSING NEEDS FOR EMPLOYEES & TRIBAL TRANSPORTATION

    But with that, Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. One of the things that 
we have found, whether it is in recruiting healthcare employees 
or employees to deliver education, two issues keep coming up. 
Both the tribes raise them as well as conversations that I have 
had with people who might be looking at a career opportunity 
serving in Indian Country. One is a lack of housing.
    Housing needs to be good for the people in the tribal 
nations. I want to make that very clear, and the roads need to 
be good for the people in the tribal nations. But the second 
issue is being able to recruit and hire permanent staff so 
there is consistency and continuity in care, continuity in 
education.
    There are staff quarters at many locations, and when we 
talk to folks, they talk about the transportation issue, how 
far that they drive, and the condition of the roads. That also 
affects school transportation. Mr. Simpson is not here, but we 
have two different brands of fitness trackers that we wear to 
keep track of our activities, how much we are moving around 
during the day.
    When we were in Navajo Country, Mike and I both noticed 
something. We laughed about it, but it really was not funny. We 
were on a school bus, and we both did 500 steps on each one of 
our different brands, so we knew that they tracked the same 
way. 500 steps sitting in a bus. Those are kids being jostled 
around every day, but that is also wear and tear on the 
equipment.
    Can you talk about how the Administration is working on the 
Tribal Transportation Program, which is part of Fixing 
America's Surface Program? What are some of the things that we 
can be looking at to be more innovative for housing, whether it 
is rental or like some of the construction that they did on 
some of the military bases? If this is for staff, we can look 
at staff housing differently than we do the tribal nation 
members' housing perhaps, with the permission of that tribal 
nation and consultation with them.
    So what are some of the ideas that you might have moving 
forward? Or if you can, get back to the committee with more 
information.
    Mr. Roberts. I am happy to provide information. I am 
actually going to turn it over to Director Black. He is an 
engineer by trade, and road engineering is his background. I do 
know after talking with our transportation folks, for those 
roads that are already in good condition, the funding will 
cover the maintenance of those roads, so long as there are no 
catastrophic events, such as weather-related events. But roads 
are an extreme challenge for us, as well as housing.
    But I am going to turn it over to Mike to provide a little 
more detail.
    Mr. Black. Let me address the housing question first. We 
have identified that, just like many other agencies, as a 
serious need in our remote locations, especially for 
recruitment and retention of law enforcement and social 
services personnel.
    We have been able to carve out some funding over the last 
few years to build some quarters for our law enforcement staff 
at some of our high priority locations. We will be looking at a 
couple more locations this year to try and get some new housing 
in there. It is just a matter of going through and trying to 
prioritize with the limited funding that we have, those areas 
with the most need right now. And we will continue to do that 
and evaluate that.
    We have had conversations in the past with some of our 
tribes about the economic development opportunity it could be 
to build some apartments or duplexes or something that BIA 
could enter into an agreement with a tribe to lease. So we are 
looking at our alternatives realizing the budgets are what the 
budgets are. We do have to get a little bit more creative in 
how we approach that.

           PROCESS FOR PRIORITIZING SCHOOL CONSTRUCTION LISTS

    Ms. McCollum. Thank you. Mr. Chairman, with your 
indulgence, I want to go back to the school inspections just 
for a second. We are going to have another panel, and I want to 
be able to hear some of your thoughts on some of the questions 
that are going to be put to them.
    In Minnesota we have the Bug-O-Nay-Ge-Shig School, the Bug 
School we call it on the reservation. Secretary Jewell visited 
that school, and, I mean, she saw deplorable conditions. It was 
never built to be a building to house students. It was built to 
be something that you put snowplows in and things like that. It 
was not for built for people.
    There are dozens of school facilities in need of 
replacement literally all over Indian Country. That is why we 
increased the replacement construction funding, and you know 
the dollars: school replacement construction by $25 million, 
facility replacement by $12 million.
    We understand that you are finally close to finalizing a 
new list of priority replacement schools, and I have to say, as 
Mr. Amodei was saying, sometimes this is agonizing. ``It will 
be next month,'' or, ``we are going to have it next week.'' So 
I am going to point blank ask you: when can this committee 
expect to see a list? Because we are getting ready to mark up 
our bill.
    Now since the GAO report is out, there are two things I 
need to understand beyond the status of these school and 
facility replacement lists. Can you explain to us, as you went 
through developing this new list, how inspections were done? I 
am not saying you should throw out this list. Even if you 
answer in a way that does not make me happy or proud of the 
inspections done, we still need a list that we can start 
working off of. Then, we can figure out how to fix that list 
later.
    Can you explain whether the inspection process for creating 
these two lists that you are going to be working off of was the 
same one that GAO evaluated? If it was not, can you please let 
this committee know how you went about developing the list? Our 
understanding--and Mr. Calvert and I and others serve on the 
Defense Committee--was that you were going to go through a 
review very similar to what the Department of Defense did, and 
that is why you brought someone in from DODEA.
    Seriously, gentlemen, if you say we need to go back and do 
more due diligence, that is an okay answer. It is an acceptable 
answer because when we know we can do better, then we should do 
better. Or is this list the gold standard for how you are going 
to do inspections in the future?
    Mr. Roberts. So, Ranking Member, I will need to get back to 
you specifically on that question.
    Ms. McCollum. That is fair enough.
    [The information follows:]

    There are three sources for facilities condition data input 
into the Indian Affairs Facilities Management System (IAFMS) 
that help calculate the Facilities Condition Index (FCI). 
Schools that have an FCI indicating a school in poor condition 
were eligible to apply for ranking on the new replacement 
school list. The prioritization for projects on the new 
replacement facilities list will also be founded on the FCI 
based on data from the three sources.
    The three sources of facilities condition data include: 1) 
Facility Condition Assessments (done by a contractor every 
three years), 2) annual safety inspections (performed by 
Regional Safety staff and referenced in the GAO report), and 3) 
local facilities or school staff. The majority of the data in 
IAFMS come from the Facility Condition Assessments. The 
condition of the facility, as measured by the FCI based on data 
from the three sources, was one of the seven criteria used in 
ranking applications for the school replacement list and was 
worth 65 points out of 100. Other criteria included crowding, 
declining or constrained enrollment, inappropriate educational 
space, accreditation risk, school age, and cultural space 
needs.

    Mr. Roberts. But I will say on the list for campus-wide 
replacement, we had 10 schools that presented. I need to 
prioritize those schools in terms of the list. I hope to do 
that within weeks, not months. I understand that through 
negotiated rulemaking, the Department did not set the criteria 
for those lists, and that is why I need to get back to you 
about how they match up with GAO's list, because for the list 
of the 10 campus-wide replacement schools, a negotiated 
rulemaking process came up with the criteria. I hope to get the 
list out as soon as possible.
    With regard to the Bug School, there is a whole other 
category of individual building replacements.
    Ms. McCollum. Right.
    Mr. Roberts. In terms of the Bug School and talking with 
everyone that has either been there or our career folks who are 
responsible for inspections, they know of no other building out 
there in as bad a condition as the Bug School, that was never 
intended to be used as a school.
    Ms. McCollum. It was supposed to be temporary.
    Mr. Roberts. Exactly. And so, on the facilities replacement 
list, I have asked my team for the information on individual 
buildings. We will use the money that this committee 
appropriated for facilities replacement to address a building 
in the very near future, and then we will need to work with 
Indian Country to come up with some sort of process to 
prioritize additional facilities replacement projects.
    I am new to the negotiated rulemaking process that they put 
together so many years ago. In my mind, there were things that 
were not considered, like how many kids are being served by a 
particular school, or how close a school in very poor condition 
is to a new BIE facility. I think those types of things ought 
to be considered, but for this next 10 schools, for the campus-
wide replacement, I am bound to follow the process that was 
part of the negotiated rulemaking.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Calvert. Thank you. If there are no further questions, 
we are going to wrap this up in a minute. Just one last 
comment. Do you have anything additional?

                            ROAD MAINTENANCE

    Mr. Calvert. Going back to what Ms. McCollum was saying 
when we were on the Navajo Reservation on that memorable bus 
ride. You would have thought with four senior members somebody 
would have got a motor grader out there and graded that road 
out to the school. [Laughter.]
    Mr. Calvert. Or maybe they did that on purpose to send us a 
message, but it comes back to maintenance. The Navajo's 
reservation is, what, 17 million acres, and there are a lot of 
roads out there, a lot of dirt roads. I would assume that there 
is a crew of people that that is all they do is grade out 
these, because, it is impractical, I get it, to pave every road 
on the Navajo Reservation, for instance, or Pine Ridge, and 
some of these large reservations.
    But you would certainly think they would have some kind of 
a maintenance program where they would, you know, have a motor 
grader go out on a normal maintenance schedule and maintain 
those roads because that is cost effective because the 
equipment would get blown up over a period of time, tires, 
everything else. Is that happening?
    Mr. Black. Yes. I believe that is a 638 contract by the 
tribe, so they look at the priorities of what they need to do 
for maintenance activities. There again, as you said, you've 
got 17 million acres out there, and a lot of roads to cover out 
in Navajo with limited road maintenance funding. And then you 
also have to throw in that the funding is also used for ice and 
removal, not just maintenance and blading of the roads.
    So you are looking at all those factors. You have a really 
bad winter, it really affects the amount of actual maintenance 
you can do on those roads.
    I am still waiting to get a briefing on the new FAST Act to 
see exactly what is all in there. Under the previous 
transportation authorization bills, tribes had the ability to 
use 25 percent of their construction funding to put toward 
maintenance activities. That was solely up to the tribe to 
decide if they wanted to do that.
    And it honestly became a rob Peter to pay Paul situation 
because construction is just as important out there as 
maintenance is. I mean, if we have better construction, we have 
reduced maintenance.
    Mr. Calvert. All right, thank you. And, gentlemen, I thank 
you again for being here today, for your continued efforts to 
lead in the face of tremendous adversity, the traditionally 
high turnover in all three of your positions, a testament to 
the challenges you face. We want to see you succeed. We hope 
that we can continue to be helpful partners so that you will 
stick around for a while to see through the many improvements 
that you are trying to make.
    At this time, you are excused from the table and invited to 
take a seat in the front row while we call up our second panel. 
Thank you.
                              ----------                              --
--------

                                         Wednesday, March 16, 2016.

   INDIAN AFFAIRS AND OVERSIGHT OF BUREAU OF INDIAN EDUCATION SCHOOLS


                                WITNESS

MELISSA EMREY-ARRAS, DIRECTOR, EDUCATION, WORKFORCE, AND INCOME 
    SECURITY, GOVERNMENT ACCOUNTABILITY OFFICE

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. So we are going to shift gears and focus on 
more detail on oversight of BIE facilities, condition, and 
management. I would like to welcome back our witness from the 
Government Accountability Office, Melissa Emrey-Arras, if I 
pronounced that correctly.
    Ms. Emrey-Arras. Yes, sir.
    Mr. Calvert. Okay. Director of Education at GAO's 
Education, Workforce, and Security team. Thank you for being 
here today and for GAO's continued efforts to spotlight the 
Bureau of Indian Education, including agreeing just yesterday 
to another study that digs down even deeper into accountability 
issues we will be discussing today. No doubt that your work has 
raised awareness on both sides of Capitol Hill, and awareness 
helps make our job a little less difficult.
    Three years ago in this room, then Chairman Simpson 
convened a similar BIE oversight hearing in which GAO testified 
prior to finalizing a study we asked it to do regarding per 
people spending. GAO's testimony at that time helped the 
subcommittee push this Administration to make Indian education 
a much higher priority than before.
    To its credit clearly, the Administration has stepped up, 
but we still have a long way to go. And I recognize the funding 
can help close part of that distance, but not all of it. As we 
see today, there continue to be some management and 
accountability issues, and perhaps even some legislative issues 
that must be addressed before significant funding can follow.
    Before we turn to our witness, let me allow first our 
distinguished ranking member, Ms. McCollum, for any opening 
remarks that she may like to make.

                    Opening Remarks of Ms. McCollum

    Ms. McCollum. Thank you, Mr. Chairman, and as you rightly 
pointed out, this committee over the past 16 years has been 
working with due diligence with two Administrations. The Obama 
Administration only stepped up to the plate after problems were 
pointed out.
    This is not blaming anybody who is up here trying to solve 
the problem. This is the result of decades and decades and 
decades of neglect and failure of the Federal government to 
live up to its obligations. Anybody who was listening at all 
today to the previous panel who were testifying, knows we are 
working together to solve this problem and this issue.
    That having been said, GAO has been closely investigating 
what seems like the endless challenges of the Bureau of Indian 
Education and providing safe schools. Management issues and 
lack of accountability are recurring themes, and I believe that 
GAO's involvement has helped us to really put a spotlight on 
the reform that is needed.
    I would like to thank you and your colleagues for doing 
this important investigation, and for valuable recommendations 
to help us on this committee as we are working with the BIE and 
working in partnership with tribal nations to address what 
needs to happen, because Indian students deserve a quality 
education. We must protect their rights to safe and healthy 
schools, not only so that they can succeed and so their nations 
succeed, but so that the United States of America can succeed 
in the future as well.
    I look forward to discussing your findings in the spirit of 
cooperation and working with one and all to finally have a plan 
to bring this to an end. Thank you.
    Mr. Calvert. And thank you. Ms. Emrey-Arras, you are 
welcome to address our committee today. Thank you.

                   Opening Remarks of Ms. Emrey-Arras

    Ms. Emrey-Arras. Chairman Calvert, Ranking Member McCollum, 
and members of the subcommittee, thank you for inviting me here 
today to discuss the results of the report we issued just last 
week on safety and health conditions of BIE schools.
    For context, last year we testified before this 
subcommittee on the continued challenges Indian Affairs faces 
in overseeing and supporting BIE schools. Subsequently, we 
testified on Indian Affairs' systematic management challenges 
with BIE schools. We concluded that such challenges undermine 
its mission to provide Indian students with safe environments 
that are conducive to learning. We further noted that unless 
steps are promptly taken to address these challenges, it will 
be difficult for Indian Affairs to ensure the long-term success 
of a generation of Indian students.
    My remarks today cover findings and recommendations from 
our recent report. Specifically, I will focus on two findings: 
one, the extent to which Indian Affairs has information on the 
safety and health conditions at BIE school facilities, and, 
two, the extent to which Indian Affairs has supported schools 
in addressing any safety and health deficiencies.
    Regarding the first finding, we found the Indian Affairs 
does not have complete and accurate information on safety and 
health conditions at all BIE schools because of key weaknesses 
in its inspection program. In particular, Indian Affairs does 
not inspect all BIE schools annually as required by its own 
policy. Safety inspectors in BIA regional offices are 
responsible for conducting these annual inspections of all BIE 
schools to ensure compliance with Federal and Interior safety 
and health requirements.
    Nevertheless, we found that 69 out of 180 BIE school 
locations were not inspected in Fiscal Year 2015. Further, 54 
school locations received no inspections during the past four 
Fiscal Years, and some of these schools have not been inspected 
since 2008. Indian Affairs' own Division of Safety and Risk 
Management, which does not oversee BIA regional safety 
inspectors, knows that lack of inspections is a key risk to 
Indian Affairs' safety and health program.
    We also found that Indian Affairs does not have complete 
and accurate information for the two-thirds of schools that it 
did inspect in Fiscal Year 2015 because it has not provided BIA 
inspectors with updated and comprehensive inspection guidance 
and tools. Accordingly, we have recommended that Indian 
Affairs, one, ensure all BIE schools are annually inspected for 
safety and health, and, two, revise its inspection guidance and 
tools. Indian Affairs agreed with these recommendations.
    In terms of our second finding, we found that Indian 
Affairs is not providing schools with needed support in 
addressing deficiencies. Of the schools inspected in Fiscal 
Year 2014, about one-third or less had developed required 
abatement plans by June of 2015, outlining how they would 
correct the deficiencies cited in the inspections.
    Furthermore, among the 16 schools we visited, several 
schools had not abated high-risk deficiencies within the 
timeframes required. Indian Affairs requires schools to abate 
high-risk deficiencies within 1 to 15 days. Examples of these 
include fire alarm systems that were turned off and missing 
fire extinguishers. At one school we visited, the inspection 
report listed over 160 serious hazards that should've been 
corrected within 15 days. However, the hazards went unaddressed 
and were still present during the next year's inspection.
    Similarly at another we visited, we found significant 
delays in the response to the school's urgent safety issues. 
Specifically, a school boiler inspector found elevated levels 
of carbon monoxide and a gas leak in 50-year-old boilers in a 
student dorm. Although Indian Affairs' policy requires the 
school to address these serious deficiencies within 1 day, 
school officials told us most repairs were not completed until 
8 months later, subjecting students living in the dorm to 
potentially critical safety hazards in the meantime.
    Indian Affairs has not taken steps to build the capacity of 
school staff to abate safety and health deficiencies, such as 
offering basic training on how to conduct repairs to school 
facilities. We recommended that Indian Affairs develop a plan 
to build schools' capacity to promptly address these safety and 
health issues. Indian Affairs agreed.
    Until Indian Affairs takes steps to implement our 
recommendations, it cannot ensure that the learning 
environments at BIE schools are safe, and it risks causing harm 
to the very children that it is charged with educating and 
protecting. Thank you.
    [The statement of Ms. Emrey-Arras follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. Calvert. Thank you. I am going to ask some simple 
questions here and get this going.

                           SCHOOL INSPECTIONS

    Why is it important that the BIA inspect BIE schools 
annually?
    Ms. Emrey-Arras. We are dealing with really fundamental 
safety issues, like fire safety. We want to make sure that if 
there is a fire that there are sprinklers, that there are 
alarms, and that children and staff can get out.
    Mr. Calvert. What effect has uneven workload distribution 
had on BIA safety inspections?
    Ms. Emrey-Arras. That is a really good question. We heard 
that was one of the reasons why inspections were not occurring, 
though it is a bit of a mystery to us because there were 
regions that had far more inspections on their plates and they 
managed to get them done while others that only had a couple 
did not. There was one region that only had two schools but did 
not inspect either of them, and one was within walking 
distance.
    So, we heard the issue about workload, but it is somewhat 
of a mystery to us given some of the circumstances we have 
learned about.
    Mr. Calvert. In that view, were there any example schools 
that were not inspected during the past 4 Fiscal Years that 
were within driving distance of regional offices?
    Ms. Emrey-Arras. Definitely. In addition to the one that 
was within 300 yards. Specifically, in the southwest region 
where no inspections took place over 4 years, six of the 
schools are within the 50 miles of the regional office. 
Similarly, in the western region there were no inspections for 
the last 4 Fiscal Years, though three schools are within 50 
miles of the regional office. While we heard that travel 
budgets were an issue, and that may be an issue for schools 
that are farther away, we had trouble understanding why it was 
an issue for schools that were relatively closer to the 
regional offices.

                        PERFORMANCE EVALUATIONS

    Mr. Calvert. What authority does Indian Affairs' safety 
office have over BIA regional safety inspectors?
    Ms. Emrey-Arras. None.
    Mr. Calvert. And this question, I guess, to cap it off. Is 
it reasonable to expect that every employee, having line 
authority over facility inspections also have 100 percent 
inspection rate criterion in his or her annual performance 
evaluation?
    Ms. Emrey-Arras. That is an excellent question, and I am 
really glad that this subcommittee has asked us to do further 
work around performance management so we can really dig in 
deep. I would tell you that a high-level official from the 
Agency told us that in his opinion, he felt that people should 
be held completely accountable for doing 100 percent of the 
inspections. He said it should be rated as ``unacceptable''if 
they do not.
    Mr. Calvert. Thank you. Ms. McCollum.

                            FIRE INSPECTIONS

    Ms. McCollum. Thank you. Not that this would be a good fit 
everywhere because of distance, but could a tribal nation work 
with a local fire department to come out and do fire safety 
inspections? Could the Bureau, for basic fire inspections, 
figure out some way to make that happen, so that at least at a 
minimum, fire inspections are taking place?
    Ms. Emrey-Arras. I would defer to the Department on the 
interpretation of their own policy. But, I would think that you 
would want at a minimum someone checking to make sure that the 
systems were working.
    Ms. McCollum. Mr. Chair, we would have to work with the 
tribal nations and work with the Bureau on that, but that might 
be a quick way to do fire inspections, and the reimburse fire 
departments for travel. There are plenty of places we have been 
where there is not a local fire department nearby, but there 
were other places in Indian Country where you can see the fire 
station across the way.
    That would not be for every safety inspection, but at a 
minimum to have fire, life, health, and safety, and occupancy 
inspections done. But that would have to be done in 
partnership, and it might not work everywhere.
    What happens to a school when it cannot properly address 
these deficiencies? What steps should the BIE be taking to 
ensure that they do, and how is the tracking done? You have 
started doing these inspections. You turn them over. What has 
been the follow-up?
    Ms. Emrey-Arras. Right. I think what is of greatest concern 
to us is the repeat violations, especially the serious ones. 
You have a smaller group that are being inspected, and let us 
say you have one that is inspected from year to year. To see in 
one case 160 serious hazards reappearing, that is a significant 
concern. Those hazards should have been addressed within 15 
days, and should not reappear a year later.
    Inspections need to happen annually so you know what the 
issues are to begin with. If you do not have an inspection, you 
do not know what you are starting with. Once you have an 
inspection done, you need to make sure that it is done in a 
complete way.
    There is tremendous variability right now, which is not a 
good thing. We heard about an inspector, for example, who did a 
drive-by inspection of a school from his car, never got out of 
the door and never looked into the 34 school buildings, did a 
one-page report, and reported no issues, not surprisingly, with 
any of the interiors of the buildings.
    So, it is not enough just to have an inspection. You need 
to have a good inspection, and that is why we recommended that 
the Agency require guidance and instructions to make sure that 
they are of a high standard. So you need to have inspections 
done, and then you need to be able to document what those 
deficiencies are and target the most serious ones and address 
them, and work with the schools.
    We recommended that the Agency work with the schools to 
build capacity to address these deficiencies. The Agency agreed 
but did not put forth a plan for doing so. We think it is 
important that the Agency develop a plan to build that 
capacity, provide training, provide assistance so that people 
can, in fact, address the problems.
    Ms. McCollum. Mr. Chair, I have been a schoolteacher in my 
past life, and I was in a building in North St. Paul that the 
fire marshal told the school district either replace it, or you 
have to cordon it off and not use certain classrooms anymore 
because they could not get folks out. It led the school 
district to have to pass a bond referendum to build a new high 
school. Part of the impetus of that was that the Minnesota fire 
inspector along with our local fire inspector finally said 
enough is enough.
    The chairman was saying, we are going to work together, and 
I want to stress this. We have a willing partner in trying to 
fix this. But we have to have a plan to fix it, because as more 
of these inspections bring things to light, there is going to 
be more pent-up demand to do it right. We are not going to want 
these children to be sitting there waiting, once we identify 
the schools as unsafe.
    I want to thank you for your work. Once again, to the 
people who were here earlier, this is something that everybody 
is working on together. But any inspector that did a drive-by 
inspection and said that was a good job is a person who needs 
to be held accountable. That is a person who needs to be, in my 
mind, disciplined for not doing their job properly, because 
that puts a bad reflection on every single Federal employee who 
is working so hard to solve this problem. It just paints 
everybody with a brush.
    At a minimum these fire inspections and occupancy 
inspections need to be done. We need to figure out a way to 
make those happen, but we also need to know that when we get 
that report back, it is going to mean even more work for all of 
us to solve this problem. Thank you, Mr. Chair.
    Mr. Calvert. Thank you. Okay, Ms. Pingree, and then there 
was something I was going to clarify, but I will do it later. 
Ms. Pingree.
    Ms. Pingree. I will pass.

                        BIE SCHOOL CONSTRUCTION

    Mr. Calvert. You pass? Okay. I just want to clarify one 
point from your testimony and from the questions. Indian 
Affairs is wrapping up a new construction list. Is that 
correct?
    Ms. Emrey-Arras. Yes.
    Mr. Calvert. Which is based on school condition, which is 
based on inspections, which are not getting done. Is that 
accurate?
    Ms. Emrey-Arras. Safety inspections feed into a larger 
facility data system, along with other types of inspections, 
but are limited to looking at fire safety issues, OSHA 
standards, and the like. They do not cover everything related 
to a building, but the deficiencies that are identified are 
supposed to be entered into the larger system, which does bring 
up a concern that if you do not have that inspection, you do 
not have that data in the system, or if you have the 
inspection, but that information is not entered in regarding 
the deficiencies, then you are also at a loss and not 
benefitting from that knowledge. There are a lot of gaps in the 
system.
    Mr. Calvert. I think that we all should be concerned about 
culturally. If an institution is not doing its most basic 
responsibilities, this is a basic responsibility, school 
safety, what does that mean to the rest of the institution? I 
mean, that begs that question.
    Ms. Emrey-Arras. It does not send a promising signal to 
those children.
    Mr. Calvert. No. Any other questions?
    [No response.]

                          GAO RECOMMENDATIONS

    Mr. Calvert. Okay. I guess I have an additional question 
here my staff wants me to ask. GAO has built a significant body 
of work over the last 3 years on Indian education. Can you take 
a few minutes to recap or update us on some of your prior 
recommendations that are changing too slowly in your opinion?
    Ms. Emrey-Arras. Certainly. Prior to this report that we 
released last week, we had several other reports that we have 
done for this subcommittee, and we thank you for your 
leadership on this front. I think we have made a big difference 
because of your efforts.
    Of those prior reports, seven of our nine recommendations 
are still open. They have not been implemented, and many of 
them have to deal with really fundamental issues. For example, 
we had done a report on oversight of school spending, making 
sure that money is not going, to an offshore account, for 
example, and that money is going directly to help students, and 
not just sitting around.
    And we put forward really basic recommendations, like 
having written procedures to oversee school expenditures a 
risk-based approach to make sure you are focusing on the 
highest risk situations and targeting your oversight there. To 
our knowledge, nothing has been done on those, and we think 
that those are really critical, especially when funding is 
limited to make sure that the funds that are available are 
being spent the way that they are intended.
    Mr. Calvert. Thank you. This is disturbing. Ms. McCollum.
    Ms. McCollum. Mr. Chair, this goes to our institutional 
responsibility as the House of Representatives. I serve on the 
Legislative Branch Appropriations Subcommittee. That bill 
continues to cut GAO and CRS, which are direct extensions to 
our offices. It prohibits us from doing the oversight that we 
want to do, that we need to do. I think we need to start 
talking to our colleagues on the Appropriations Committee, and 
our colleagues in general, as to how much not only have we cut 
our personal offices from being able to do things, but we have 
cut to the bone, GAO, and inspector general offices, and CRS. 
We will start making it impossible for us to do the great 
oversight that was done here today, so that we can work in 
partnership to solve problems and move things forward for 
taxpayers and for people who depend upon us to do our jobs 
right.
    So, I want to thank you for the report, but I am sure that 
there are other things that GAO has been asked to do that they 
are not able to do because of cuts that have happened in the 
Legislative Branch appropriations over the past several years. 
I just wanted that on the record and out there.
    Mr. Calvert. I thank the gentlelady, and I hope at some 
point we can come up to a budget agreement, and we can move on 
down on some of these issues. That is above my pay grade right 
now, but I am working on it.
    But I certainly thank you for coming here today and sharing 
this information with us, and hopefully we will get the various 
agencies to act the proper way. They are all here. They 
listened. So hopefully when we asked them for a report here in 
a couple of months, we have some positive information that they 
can share with the committee.
    With that, we are adjourned.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
        

                                           Tuesday, March 22, 2016.

        ENVIRONMENTAL PROTECTION AGENCY BUDGET OVERSIGHT HEARING

                               WITNESSES

GINA McCARTHY, ADMINISTRATOR, ENVIRONMENTAL PROTECTION AGENCY
DAVID BLOOM, ACTING CHIEF FINANCIAL OFFICER, ENVIRONMENTAL PROTECTION 
    AGENCY

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. Good morning. The committee will come to 
order.
    Today, we are joined by Administrator Gina McCarthy and 
Acting Chief Financial Officer David Bloom to discuss EPA's 
fiscal year 2017 budget. Welcome to both of you.
    First, we all woke up this morning to hear about the events 
in Brussels. It serves as a reminder that we must maintain our 
vigilance and remain united in our common goal of combating 
terrorism and fighting extremism. Certainly, our thoughts and 
prayers are with the people of Belgium today.
    Last year, the budget the President proposed ignored the 
spending caps that were then in place. As a result, it offered 
unrealistic expectations and created a challenge for agencies 
and departments to identify true needs. We need to start this 
discussion for the fiscal year 2017 budget on no better footing 
with a budget that seemingly abides by the bipartisan spending 
caps set forth in October, but half full of gimmicks.
    Unfortunately, the President's budget has shifted billions 
of dollars from discretionary programs to the mandatory side of 
the ledger. This allows the administration to circumvent the 
budget constraints while touting support for key investments. 
Again, it offers unrealistic expectations about what we can 
afford.
    On the Interior Subcommittee, we must balance a wealth of 
important issues--Indian health care, education, fighting 
wildfires, management of lands and resources, protection of 
human health and environment. When challenges arise from 
natural disasters, manmade disasters, health crises, rising 
debt, we need to be strategic and have well-defined plans for 
tackling the problems before us. Simply throwing money at 
problems has rarely resolved such issues.
    It is our job to identify common-sense, long-term solutions 
and to prioritize all these issues without adding to our $19 
trillion debt. Mandatory spending continues to rise faster than 
any portion of the Federal budget, something that they are 
discussing at this very moment. Therefore, a budget that 
proposes more mandatory spending is woefully out of touch.
    In an effort to rebalance expectations, I would like to 
explain where we actually are. Under the current budget 
agreement, nondefense discretionary spending for fiscal year 
2017 has increased by $40 million government-wide. That is $40 
million over the entire discretionary government.
    Meanwhile, the EPA proposed budget requests $127 million 
more than last year. That number excludes another $300 million 
proposed outside of the discretionary caps.
    Within the budget, the agency is proposing to work on more 
regulations while proposing cuts for water infrastructure and 
Great Lakes funding. The budget proposes more funding to 
implement regulations the courts have put on hold.
    Meanwhile, the budget again proposes deep cuts to the 
diesel emissions reduction grants, despite the fact that only 
30 percent of trucks and other heavy-duty vehicles have 
transitioned to cleaner technologies. We need to follow the 
science and increase discretionary funding for the DERA program 
to accelerate the replacement of older engines with newer, 
cleaner engines that actually show progress.
    With so much left to do, we are not prepared to cut 
discretionary funding for the DERA program by 80 percent, nor 
eliminate funding for radon grants when 21,000 lung cancer 
deaths per year are directly attributable to exposure to radon.
    I hope in today's discussion you can help the committee 
understand why the administration does not place a higher 
priority on the radon exposure issue, given these startling 
statistics.
    Turning to policy, it is unavoidably clear the 
administration is intent on making select forms of energy 
uneconomical or even obsolete. We have seen this play out in 
Chairman Rogers' district for the last 7 years, and certainly 
Mr. Jenkins' district, via refusal to approve permits to 
operate.
    The policy continues to spread as the administration 
imposes a moratorium on operations on public lands; designates 
new monuments; precludes offshore energy development in the 
Atlantic and Arctic; adds costs to existing operations via EPA 
ozone, methane, and water regulations. And the White House, 
with one foot out the door, has promised to double-down on an 
antijobs agenda driven by a desire to keep it in the ground as 
the clock runs out on this administration.
    In the meantime, statutory obligations are put on hold or 
given insufficient attention. It is time for a new perspective.
    You have a tough job, Administrator McCarthy. We all want 
clean air and clean water and a strong, robust economy. It is 
not a Republican or Democratic issue. I know that is something 
we have often said. We both want a healthy environment and job 
creation, and we need a real debate regarding the best way to 
incentivize those outcomes rather than a rewrite of 
regulations.
    But it starts by proposing and operating within a budget 
that lives within our means. The people I represent in 
California have to live on a budget that reflects what they can 
afford, and so too does the Federal Government.
    I know all members are interested in discussing various 
issues with you today, so I will save my additional remarks for 
the period following your testimony.
    I am pleased to yield to my friend and our distinguished 
ranking member, Ms. McCollum.

                    Opening Remarks of Ms. McCollum

    Ms. McCollum. Thank you. Thank you, Mr. Chairman, for your 
words of solidarity with the people in Belgium this morning. 
Terrible conversations parents are having with their children 
again as they find themselves under siege, so thank you for 
recognizing that tragedy. And we do need to stand together.
    I would like to join Chairman Calvert in welcoming 
Administrator McCarthy to the Subcommittee. The Environmental 
Protection Agency was created to protect human health, the 
health of our environment, and to ensure clean air and clean 
water is there for our families and children.
    In the 1970s, when communities across this Nation saw the 
effects of mass pollution on the rivers and in the skies, the 
EPA was a bipartisan solution to address this public health 
crisis.
    I remember how excited both my Republican mother and 
Democratic father were that the Federal Government was working 
on this.
    Because of the success of the EPA, today we often take for 
granted the quality of the water we drink from our taps and the 
air that we breathe.
    This year, however, the critical need for the EPA once 
again was unmistakable. Our Nation watched a tragedy unfold in 
Flint, Michigan, where children were poisoned by the lead in 
their drinking water. The residents of Flint were betrayed by 
their State Government and, to this day, still do not have safe 
drinking water available from their taps.
    The scandal shines a bright light on why it is necessary to 
have Federal protections for our environment, our water, and 
our public health. Critics often argue that States are the best 
able to regulate themselves, but Flint shows us that the 
Federal Government working with States has a role to play in 
protecting those communities.
    And we here in Congress need to look at the underlying law 
to ensure that the EPA can step in--can step in--when a State 
is ignoring the public health of its residents, the United 
States of America's citizens.
    Parents should be able to trust that their children are not 
being poisoned at school, at their places of worship, and 
especially in their own homes.
    While the situation in Flint is unique because it was 
created by a State's failure to implement existing protections 
for its residents, the issue of aging water infrastructure and 
lead pipes is pervasive all across this country. It is time for 
us to have a serious discussion about infrastructure. It is 
unconscionable that in America, the richest country in the 
world, there are children whose physical and cognitive 
development is being harmed because they lack access to clean 
drinking water, which is a basic human right.
    Now turning to the budget request, the President's fiscal 
year 2017 budget request includes $8.27 billion for the EPA. 
That amount is $127 million above the fiscal year 2016 enacted 
level.
    The request includes increases for core programs, targeting 
resources toward those programs that matter most to public 
health and our environment. Unfortunately, I do not think the 
budget goes far enough.
    The budget requests an additional $77 million for grants to 
support States and tribes so they can implement their 
environmental programs. However, this increase would not even 
bring the grants back to 2012 levels.
    Furthermore, we all realize the Nation's water 
infrastructure is in crisis. Yet, sadly, the Clean Water Act 
State Revolving Fund, which is a major funding source for 
municipal water infrastructure projects, is slashed by $414 
million.
    I also must express my disappointment once again that the 
administration is proposing to cut $50 million from the Great 
Lakes Restoration Initiative. The Great Lakes Restoration 
Initiative has made measurable strides in protecting and 
restoring the Great Lakes ecosystem, but much more work needs 
to be done.
    With the great unmet demand for both water infrastructure 
and restoration projects, I have to wonder if these cuts were 
proposed not on their merits but because the agency was trying 
to fulfill requests for other increases within their already 
terribly strained budget.
    The SRF and the GLRI programs are among the few in EPA that 
have strong bipartisan support, so I will be working with 
Chairman Calvert to restore these cuts.
    I only wish we could have the same kind of bipartisan 
support, though, to restore the cuts that the agency core 
operations have faced. For 5 years, the EPA has been under 
attack and its budget has been slashed. Opponents of the EPA 
view this as a victory, but the crisis in Flint, Michigan, 
shows what they really were: irresponsible cuts that jeopardize 
the EPA's ability to provide State oversight and protect public 
health.
    I truly hope that something positive can come from this 
tragedy, and that it will inspire both sides of the aisle to 
come together, as we did in the creation of the EPA, and ensure 
proper funding for environmental regulations and for 
infrastructure so that no mother or father has to worry that 
the water that they are giving their baby is poisonous.
    Administrator McCarthy, I really do appreciate the work 
that you and all the employees at the EPA do, and I look 
forward to your testimony.
    Mr. Chairman, I yield back.
    Mr. Calvert. Thank you. I learn something new every day. 
Was your mom a Republican?
    Ms. McCollum. You betcha. [Laughter.]
    Mr. Calvert. She voted for Richard Nixon.
    Ms. McCollum. She did. My father did not. [Laughter.]
    Mr. Calvert. Well, one out of two is not bad.
    I know Chairman Rogers would have loved to been here this 
morning, but we have a conference going on right now, and he 
has to be there. I would like to submit his full opening 
statement for the record.
    Without objection.
    [The statement of Chairman Rogers follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    Mr. Calvert. The ranking member is here this morning, Ms. 
Lowey, and I am happy to recognize her.
    And her grandson is in attendance, so we are very proud to 
have him here.
    Ms. Lowey, you are recognized for your opening statement.

                      Opening Remarks of Ms. Lowey

    Ms. Lowey. Thank you very much, Mr. Chairman. I am happy to 
be here today. And I want to thank Ranking Member McCollum for 
your hard work on this committee as well.
    I would like to welcome Administrator McCarthy back before 
the subcommittee today.
    Before I share my remarks, I, too, Mr. Chairman want to 
express our heartfelt prayers for all the families who lost 
loved ones in another evil act of terrorism and express our 
determination to bring the perpetrators to justice.
    Thank you.
    The Environmental Protection Agency is tasked with ensuring 
that our Nation's air and water is safe. I know my constituents 
are grateful for your agency's work to clean up the Hudson 
River and the Long Island Sound, especially given the economic 
significance of those bodies of water to our region and the 
Nation as a whole.
    The EPA has done good work under your leadership on 
lowering carbon emissions and helping the United States do its 
part in the global fight against climate change.
    Today, I want to talk about an issue that is of great 
concern, and that is the Flint water crisis. It is a public 
health emergency--8,000 children under the age of 6 could have 
been exposed to lead contamination. The long-term ramifications 
of that exposure are severe and will not end when the water is 
clean. Decades or even a lifetime of difficulty may plague 
those affected.
    As ranking member of the House Appropriations Committee, I 
want to make it clear that I am absolutely committed to making 
sure that the Federal Government supports the people of Flint 
and the Federal Government holds up our end of the bargain.
    I would like to hear from you what went wrong in Flint and 
what the EPA will do in both the short term and the long term 
to prevent another crisis like this happening on our watch.
    We must also ensure that the EPA has the resources to carry 
out your mission. You come before us today with a budget 
request of nearly $8.27 billion, an increase of $127 million 
above current funding. This increase is badly needed.
    At a time when we face the glaring threat of climate 
change, when the public health and quality of the air and water 
are at risk, EPA funding, my colleagues, is nearly 20 percent 
below its fiscal year 2010 level--below.
    Despite high demand, I am concerned that attacks on EPA 
funding will continue to restrict its ability to get the job 
done. I hope that this committee can move beyond politics, look 
at the science, and provide an increase for the EPA, so it can 
adequately protect our public health.
    I look forward to your testimony.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    I think it is a point well-made--excuse me. I should get to 
your opening statement, and then I will make my comments.
    You are recognized, Ms. McCarthy.

               Opening Remarks of Administrator McCarthy

    Ms. McCarthy. Thank you, Chairman Calvert, Ranking Member 
McCollum, Ranking Member Lowey. It is great to be here, and I 
appreciate the members of the subcommittee giving me time 
today.
    I would like to just briefly discuss EPA's proposed fiscal 
year 2017 budget. I am joined by the agency's Deputy Chief 
Financial Officer David Bloom.
    EPA's budget request of $8.267 billion for the 2017 fiscal 
year lays out a strategy to ensure some steady progress in 
addressing environmental issues that are crucial to public 
health. For 45 years, our investments to protect public health 
and the environment have consistently paid off many times over. 
We have cut air pollution by 70 percent, and we have cleaned up 
half of the Nation's polluted waterways. All the while, our 
national economy has tripled.
    Effective environmental protection is a joint effort. It is 
a joint effort of EPA, the States, as well as our tribal 
partners. That is why the largest portion of our budget, $3.28 
billion, or almost 40 percent, is provided directly to our 
State and our tribal partners.
    In fiscal year 2017, we are requesting an increase of $77 
million in funding for State and tribal assistance categorical 
grants and in support of critical State work in air and water 
protection, as well as continued support for our tribal 
partners.
    This budget request also reinforces EPA's focus on 
community support by providing targeted funding and support for 
regional coordinators to help communities find and determine 
the best programs to address their local environmental 
priorities.
    The budget includes $90 million in brownfields project 
grants to local communities. That is an increase of $10 
million, which will help to return contaminated sites to 
productive reuse.
    This budget prioritizes actions to reduce the impacts of 
climate change. It supports President Obama's Climate Action 
Plan. It includes $235 million for efforts to cut carbon 
pollution and other greenhouse gases through common-sense 
standards, guidelines, as well as voluntary programs.
    The EPA's Clean Power Plan continues to be a top priority 
for the EPA and for our Nation's inevitable transition to a 
clean energy economy.
    Though the Supreme Court has temporarily stayed the Clean 
Power Plan rule, States are not precluded from voluntarily 
choosing to continue implementation planning. EPA will continue 
to assist those States that voluntarily decide to do so.
    As part of the President's 21st century clean 
transportation plan, the budget also proposes to establish a 
new mandatory fund at the EPA, providing $1.65 billion over the 
course of 10 years to retrofit, replace, or repower diesel 
equipment, and up to $300 million in fiscal year 2017 to renew 
and increase funding for the successful diesel emissions 
reduction grant program.
    The budget also includes a $4.2 million increase to vehicle 
engine and fuel compliance programs, including critical testing 
capabilities.
    We also have to confront the systemic challenges that 
threaten the country's drinking water and the infrastructure 
that delivers it. This budget includes a $2 billion request for 
the State Revolving Fund and $42 million in additional funds to 
provide direct technical assistance to small communities, loan 
financing to promote public-private collaboration, and training 
to increase the capacity of communities and States to plan and 
finance drinking water and wastewater infrastructure 
improvements.
    The EPA requests $20 million to fund the Water 
Infrastructure Finance and Innovation Act program, which will 
provide direct financing for the construction of water and 
wastewater infrastructure by making loans for large, innovative 
projects of regional and national significance.
    This budget also provides $22 million in funding to expand 
the technical, managerial, and financial capabilities of 
drinking water systems. Included is $7.1 million for Water 
Infrastructure and Resiliency Finance Center and the Center for 
Environmental Finance that will enable communities across the 
country to focus on financial planning for upcoming public 
infrastructure investments, to expand the work with States to 
identify financing opportunities for rural communities, and 
enhance partnership collaboration with the United States 
Department of Agriculture.
    EPA is also seeking a $20 million increase in the Superfund 
remedial program, which will accelerate the pace of cleanups, 
supporting States, local communities, and tribes in their 
efforts to assess and cleanup sites and return them to 
productive reuse.
    EPA's fiscal year 2017 budget request will let us continue 
to make a real and visible difference to communities and public 
health every day, and provide us with a foundation to 
revitalize the economy and improve infrastructure across the 
country.
    Thank you for the opportunity to testify today, and I look 
forward to answering your questions.
    [The statement of Administrator McCarthy follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Mr. Calvert. Thank you.

                      TARGETED AIRSHED GRANTS/DERA

    A point was made about the bipartisan effort, and I think 
that is true, about the environment over the years. Obviously, 
EPA was signed into law by Republican President Richard Nixon. 
In my own home State, California, Cal EPA was signed into law 
by Ronald Reagan. We also created the South Coast Air District. 
Our former colleague, Jerry Lewis, wrote that legislation back 
when he was in the State Assembly. Of course, it was signed 
into law by then-Governor Ronald Reagan.
    Now the Inland Empire, where I live, it is part of the 
South Coast air quality district and has been in nonattainment 
for ozone as about as long as the Federal standard for ozone 
has existed. As I am sure you know, it is not for lack of 
trying.
    The South Coast Air District has a long history of 
implementing some of the most stringent air pollution measures 
in the country. We broke ground in many of these instances.
    When I played football, I can remember in my early days, I 
could not see the goalposts on the other side of the field, 
because air quality was so bad. Today, that has totally 
changed, and yet the population has tripled in my area in 
Southern California.
    Nearby, we have two of the busiest ports in the United 
States, the Port of Los Angeles and the Port of Long Beach, 
which are responsible for 40 percent of all U.S. container 
imports and exports. These containers are loaded onto trucks. 
They travel through my district and the rest of the country, so 
mobile sources contribute about 80 percent of the air pollution 
in the South Coast.
    We have made significant progress in improving air quality, 
however, as I mentioned. But largely due to topography and the 
large volume of transportation that occurs in and around the 
Inland Empire, we need some additional resources to make 
improvements.
    That is why the fiscal year 2015 omnibus renewed our 
Targeted Air Shed Grant program to provide additional resources 
to areas across the Nation that are similarly struggling to 
meet air quality standards and need additional help. The 2016 
omnibus built on that by doubling those grants.
    With EPA's latest ozone standard of 70 parts per billion, 
the South Coast air quality basin will invariably remain out of 
compliance. It also may cause other counties to fall out of 
attainment with air quality standards.
    Unfortunately, I am struggling to understand why this 
budget, with all these increases elsewhere, cuts discretionary 
funding for DERA by 80 percent and also proposes to eliminate 
the Targeted Air Shed Grant program. These programs help 
communities work toward the 2008 ozone mandates.
    Meanwhile, the budget proposes a $50 million increase for 
the Clean Power Plan, which, as you know, the courts have put 
on hold.
    Can you explain that, Ms. McCarthy?
    Ms. McCarthy. Mr. Chairman, thank you for the question.
    I would congratulate the South Coast for all the work that 
it has done and the work that it has done that has improved air 
quality tremendously. We will keep working with them, as we 
have in the past.
    I think the challenge we have for DERA--and we have, as you 
indicate, offered a request for $10 million in that account. 
Both you and I understand how valuable that program is. One of 
the reasons why the President has looked for a mandatory effort 
to continue to fund DERA at a much more significant level is 
because of that. We know that this program has had great 
impact. We are going to continue to support it as best we can, 
but there is an opportunity that the President has offered to 
have that be done in a different way outside of EPA's budget, 
and we would be supporting that effort tremendously.
    Mr. Calvert. It is one of the few times that Senator 
Feinstein and Senator Boxer and I agree on anything, is the 
DERA program, which has been remarkable in its ability to 
improve especially particulate pollution in the South Coast 
basin, fine particulate pollution.
    As you know, we are not going to be getting into mandatory 
spending. Realistically, that is not going to happen. So we are 
going to have to find money within the discretionary budget to 
do that.
    With that, Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman. I would defer to my 
ranking member of the full Appropriations Committee for any 
questions she may have.

                                 FLINT

    Ms. Lowey. You are very kind. Thank you very much for your 
consideration. This is the busy appropriations season. I think 
we have about eight hearings today.
    So I welcome you again.
    However, I am outraged, as are many of my colleagues, at 
the neglect and criminal incompetence that resulted in the 
Flint water crisis. It is imperative that the Federal 
Government hold up our end of the bargain to end the crisis and 
help the community heal.
    EPA, as I understand it, is currently on the ground in 
Flint assisting with the emergency response, providing 
technical assistance. This work is essential to making the city 
water supply safe.
    This is an emergency, and as a result, EPA could not plan a 
budget for the costs associated with this work.
    Can you share with us how you much you estimate EPA will 
have spent or will continue to spend on Flint this year?
    Ms. McCarthy. Ranking Member, as you know, EPA is committed 
and we are there in full force in Flint, and we are going to be 
there until that water is once again stabilized and it can be 
consumed by people with confidence.
    So I cannot estimate exactly what the costs are. We know 
that we have already identified the need for millions of 
dollars of our current budget to be dedicated there. We will 
keep at it, and we will find a way to continue to meet our 
obligations there.
    But as you indicate, it is a long-term strategy. That is 
why the Federal Government is there in full force, not just 
EPA. So we will be working on the water quality, but we have 
Health and Human Services running a Federal emergency response 
there that is going to look at some of those longer-term 
challenges.
    Ms. Lowey. What I am looking at now is what is needed in 
addition to what you have already budgeted. It would seem to me 
that in order to respond appropriately and adequately, you 
would have to take those resources from other programs and 
further weaken EPA's ability to protect public health.
    Mr. Chairman, I do hope we can act quickly to pass an 
emergency supplemental to address not only the Flint crisis, 
but also Zika and the opioid crises.

                            LEAD PAINT RULE

    EPA has received a lot of criticism for not updating its 
Lead and Copper Rule quickly enough. In fact, it has been an 
amazing about-face for my colleagues across the aisle who spent 
years filling appropriations bills with policy riders to block 
the EPA from regulating. Now, there is unanimity in admonishing 
the EPA for not regulating enough.
    Frankly, protecting children from lead should not be a 
partisan issue.
    If you could share with us, how does EPA's Lead Renovation, 
Repair and Painting Rule protect children from exposure to 
lead?
    And, frankly, I remember years ago, even working at the 
State level, dealing with the issue of paint with lead in it, 
and we were so concerned.
    Could you share with us your program?
    Ms. McCarthy. There are two ways in which we are responding 
to this, Ranking Member.
    One is, as you indicated, we are taking a look at lead 
exposure from water. So we are looking at our Lead and Copper 
Rule. But I want everybody to understand that the challenges 
that we faced in Flint were actually a lack of complying with 
the current rule. That is essential for us to make sure that 
everybody is implementing the current rule while we look at the 
next one.
    In terms of lead paint, that is a significant exposure 
route for lead in our kids, as well as lead in soil. We are 
working on all of those issues.
    The way that the rule works is to require that when we have 
homes that are of a certain age, you have to look and see 
whether or not, and test whether or not, you have lead paint. 
If you do, you have to use certain work practice standards to 
ensure that there is a sealing of the area where you are 
working on that lead paint, and that it is removed 
appropriately, and it does not provide a route of exposure for 
the family moving forward.
    The challenge for that rule is that in moving that forward, 
it requires every State to pay attention. It requires training 
to be done. It requires certification.
    For the most part, what we are seeing is that when you have 
an older home, they are going ahead and using those work 
practice standards, as opposed to relying on the test, because 
the test, as you know, continues to be a challenge for us.
    So we are going to continue to move that forward, but it 
will take a concerted effort. Frankly, we are not moving at a 
pace that, certainly, all of us would be comfortable with in 
terms of getting lead paint out of kid's homes and getting it 
out of the soil, never mind the challenges we are facing in 
water.
    Ms. Lowey. I want to thank you.
    Mr. Chairman, if you recall, in last year's appropriations 
cycle, there was a rider, and I offered an amendment to strike 
the rider that would have prohibited the EPA from implementing 
the Lead Renovation, Repair and Painting Rule. While, frankly, 
my amendment did not pass in this committee, the ranking member 
and I were able to remove it from the final omnibus spending 
bill.
    I do not think I have any time, but at some point, you can 
let us know, had that rider been implemented, how it would have 
weakened EPA's tools for protecting children from lead 
exposure. It would be very helpful if you can respond to that 
in writing, so I can graciously thank the chairman for your 
time.
    Ms. McCarthy. I would be happy to do that, Ranking Member.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. Calvert. I thank the gentlelady.
    Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman.
    Welcome back to the committee. It is always an exciting 
time on our committee when the EPA comes here. As you can tell, 
there are sometimes differences between Republicans and 
Democrats, and sometimes an agreement between Republicans and 
Democrats on such things in the Pacific Northwest.
    I will have some questions that I will submit for the 
record on fish consumption and where we are on the arsenic rule 
and the difficulty of small communities complying with the 10 
parts per billion, down from 50, and what means of assistance 
might be available to some of these very small communities that 
essentially cannot do it.

                                 FLINT

    But I want to ask something else. I watched with some 
interest, the hearing last week with the Government Oversight 
Committee with you and Governor Snyder of Michigan. Quite 
frankly, I was dismayed.
    There is a lot of finger-pointing going on, a lot of 
finger-pointing that is going to be going on for quite some 
time. They will write books about this in the future, about 
what happened, and what did not happen, and who did what.
    The problem is that does not solve the problem.
    Ms. McCarthy. Right.
    Mr. Simpson. What we need to do is solve the problem.
    What I want to know from you is, what should the City of 
Flint, the State of Michigan, and the Federal Government, 
Congress, be doing to address this problem in Flint? And then, 
what are the lessons learned from this moving on? As I 
understand it, there are as many as 2,000 communities out there 
that might be facing the same type of situation.
    If in that answer you could tell me, because I do not know 
that people have the solid background on what the demand is out 
there in water and sewer systems in this country, what the 
total backlog of maintenance of water and sewer systems is in 
the country? And how much the Feds along with State and local 
communities spend trying to address that backlog each year? 
Because at the rate we are going, it is going to take 100 years 
to address the backlog that exists today.
    I will turn it over to you.
    Ms. McCarthy. Congressman, thank you for talking about what 
went wrong and what we need to do about it. I think everybody 
needs to be accountable for this, including the Environmental 
Protection Agency, in terms of how we responded to it.
    But getting to the crux of the matter, Flint was a fairly 
unique situation. So while we are actively, and I have written 
to every Governor and every primacy agency, and I have all of 
my regions working with the many over 68,000 systems that 
actually are regulated under the Lead and Copper Rule, to take 
a look at where they are in their process. How do we get more 
transparent?
    If people have lost faith in government, let's put the 
information out, make sure they are following protocols, a map 
where those lead lines are. Let's really get more serious about 
this and more transparent. So we are working hand-in-hand with 
those States and those cities that continue to have challenges.
    It is not an easy issue, and it is going to take a while. 
And we have 10 million lead lines out there, so it is a 
challenge just to make sure that the water is properly treated. 
But also, over time, getting at those lead lines is going to be 
essential.
    So we are working also on updating the Lead and Copper 
Rule, making sure we are implementing but also strengthening 
that rule.
    But we are looking at a significant challenge in terms of 
water infrastructure, as you noted. It is important for us not 
to just look at lead but at the system itself, because if you 
look at Flint, that was part of the challenge as well. It is 
twice as big as it needs to be because of disinvestment in that 
community. It has not been invested in in decades.
    So you have a system problem that is essential to correct, 
which is why I think it is going to take a while before Flint 
is back in action. We will get the system stabilized for 
corrosion control. But beyond that, there is much work to be 
done.
    Across the U.S., we took a look at this in 2011 and 2012, 
and we estimated that the backlog of need for drinking water up 
through 2030 was something on the order of $300-some-odd 
billion. I do not have exact figure in my head. But I think 
that is a low-ball estimate now. I have heard others estimating 
upwards of $600 billion.
    Mr. Simpson. That is just water systems?
    Ms. McCarthy. This is for drinking water. So we have a real 
challenge here.
    We also have technologies that were done in the 1950s and 
earlier. I love the 1950s, do not get me wrong. It was a good 
decade, as far as I am concerned. But we need to keep up that 
investment. And we have new, emerging concerns, like arsenic. 
How are we going to get those small systems, because the 
technology is expensive and we have to resolve this?
    We have new contaminants coming in, like PFOA and PFOS, all 
of these chemicals that we are finding in pharmaceuticals.
    We need not just an upgrade of what used to be, but we need 
technologies developed that can actually address the problems 
of today and the future.
    So we have some real challenges that EPA is operating money 
is not going to resolve. It is very good to have $2 billion, 
and then to shift that to get more into drinking water, but 
there does have to be a larger conversation about how we keep 
this core need and right of people in place, as this country 
has for decades. We just need to take a step back and think 
this through.

                    RURAL WATER TECHNICAL ASSISTANCE

    Mr. Simpson. I appreciate that. One quick question. You 
mentioned in your opening statement that you had $42 million in 
technical assistance for water systems in small communities. 
You have done away with the rural water technical assistance 
program.
    Ms. McCarthy. Yes.
    Mr. Simpson. Does that mean those funds are transferred 
over to this account?
    Ms. McCarthy. No, it means that we are going to continue to 
provide as much resources as we can, but we have different 
strategies to try to leverage that a little bit further. We are 
working very closely with USDA in our new financing center to 
try to figure out how we can work more directly with 
communities, rural communities. We have funding that is going 
to tribes. We have funding that is going to the Alaskan Native 
villages. We have funding that is also dedicated to the Mexico-
U.S. border.
    So we are trying to be a little bit more selective to get 
at the critical issues as well as more forward-leaning in terms 
of how we leverage those funds.
    Mr. Simpson. Okay. I appreciate it. Thank you.
    Mr. Calvert. Thank you.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.

                                 FLINT

    About 9 months ago, Congressman Kildee approached me, and I 
am sure he approached others on this subcommittee, saying we 
need help from the EPA. I said we cannot do that. That is an 
earmark for Flint. We did some investigation and we found out 
that the Governor could have asked for funding directly and 
then that would not have been an earmark.
    I have two little follow-ups on Flint, and then I want to 
get to another question.
    You referenced 10 million miles of pipes, correct? But that 
is the public pipe. That is not the pipe that goes from where 
the right-of-way ends on a street into somebody's home. I have 
communities in my district, St. Paul and Stillwater, with older 
homes, and people are now paying a little more attention to 
make sure that they are testing for brass and lead.
    As your budget has been cut over the years, how has that 
affected your ability to do not just a State audit, but an in-
depth State audit--really dig in the way that you would like 
to? If you could just take a second to answer that, because I 
have another question.
    Ms. McCarthy. Okay. Just a second.
    There is lead and mostly it is the service lines into the 
homes that we have concerns with, as well as lead in the homes. 
We are working with that.
    You know, everybody's resources are limited. We try to work 
with States to make sure that we marry our resources and 
effectively get at these issues. We have also tried to provide 
some flexibility in State drinking water funds so that we can 
use those not just for the public portion, but also you can use 
those to help support that private system going in, that lead 
line going into the homes.
    So we are doing what we can with the budget we have. But 
clearly, it is a larger problem that we are facing than we are 
able to support and take care of in a short period of time. It 
is going to take a long time.

                             GOLD KING MINE

    Ms. McCollum. Thank you. I want to talk about a different 
kind of backlog, the abandoned mines issue. Last August, while 
you were investigating the Gold King mine, EPA caused an 
uncontrolled release that spilled contaminated water from a 
mine into Cement Creek, a tributary of the Animas River.
    EPA's actions triggered these releases. However, I think it 
is really important to be clear that the EPA was only doing 
that work because it was stepping in to clean up an abandoned 
mine that had been polluting the area for decades. In fact, 
that mine was already releasing a steady stream of over 300 
million gallons of contaminated water each year.
    This country has a legacy of abandoned mines that pose 
safety risks to the public and leach pollutants that 
contaminate the soil and water. The universe of abandoned mines 
is huge. In Colorado, Utah, Arizona, and New Mexico alone, 
there are at least 44,000 abandoned mines with no one to hold 
liable. It falls on the taxpayer to pay for the cleanup for 
these mines. They mine their profits; they close up their 
mines; and they have left.
    As you are dealing with these issues that we are talking 
about today with Flint, you also have a role in cleaning up 
pollution from abandoned mines. How many abandoned mines is the 
EPA currently working on? What has the EPA been doing for the 
Navajo Nation to ensure that their water is properly monitored? 
How much assistance, monetary and technical, has the EPA been 
giving?
    And if I might add, while we are cleaning up these legacy 
mine pollution issues, what is EPA doing to make sure that we 
do not create another legacy of polluted mines?
    Ms. McCarthy. First of all, let me try to quickly answer 
your questions.
    At this point, I am aware that we are working directly on 
probably a little more than a dozen mines, in particular, 
working with States. We put that work on hold when Gold King 
Mine happened. We are still talking about how we not only make 
sure that incident and a release does not happen again, but we 
are called in to deal with issues that the States cannot.
    That is what happened with Gold King Mine. Everybody was 
concerned about a blowout. That is why we were there.
    It is challenging. And there are, as you indicate, 
thousands of these abandoned mines. We are working on as many 
as we can with the resources that we have and our expertise 
allows. But we are working on it carefully, and making sure 
that that does not happen again, and that we have notification 
procedures that are much better than we had when Gold King Mine 
happened.
    But is, as you indicate, challenging.
    We have already, in terms of the answer to the Navajo 
Nation, we have already reimbursed the Navajo Nation for their 
expenses, which is about $158,000. We have done the same for La 
Plata County, San Juan County.
    We have an obligation to work with the States as well, and 
we are doing that.
    But in addition to that, we have been working with the 
States and with the affected tribes to put together a long-term 
monitoring plan that EPA would support. We have identified $2.4 
million, and we are working with States on how best to allocate 
that and how we can do that in a way that looks not just at the 
Animas River that was directly impacted, but the San Juan River 
that was impacted downstream as well.
    So we are working through these issues, but you are 
pointing out a very large problem that needs a much broader 
solution. I think everybody acknowledges that on both sides of 
the aisle, that we have abandoned mines that I cannot find 
responsible parties for, that States do not have the resources 
to address, and we sort of get called in at the last minute to 
try to resolve these. It is certainly not an effective cleanup 
strategy.
    Ms. McCollum. Thank you, Mr. Chairman.
    Mr. Calvert. Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Chairman.
    It is good to see you. I wish we had more time. This is a 
target-rich environment, there is no doubt. There are so many 
things that many of us would like to talk to you about.
    Ms. McCarthy. That makes me nervous when you use the word 
``target.'' [Laughter.]
    Mr. Stewart. Well, having seen just parts of some of the 
other hearings, I recognize this is not your favorite thing to 
do. I get that. But we also feel compelled to engage with you 
in some ways about things that many of us are very, very 
concerned about.
    Ms. McCarthy. Sir, it is an honor to be here.
    Mr. Stewart. I appreciate that.

                      GOLD KING MINE: ANIMAS RIVER

    Just an observation, and then I want to get to a specific 
question.
    The breakdown in trust between just normal folks, just 
people, and the Federal Government is something that I think 
troubles all of us. I think the approach and the aggressiveness 
of the EPA is one of the keys to that. I really do.
    I think we have to find a way to do better than we have 
done at this, and not to give people the feeling the Federal 
Government is going to do what they are going to do regardless 
of how local people feel and the concerns that they may have.
    I would like to pick up on a line of questioning. I was not 
going to do this, but since it came up, I would like to talk 
about the Gold King Mine.
    To review what I know about that, that came out in recent 
hearings, 88,000 pounds of metals released in the Animas River, 
which affected Western States, including my own.
    Just as a second observation, it is interesting to me how 
little media has been paid to this. If a private company had 
done this, I cannot help but believe it would have been a very 
different media story than what we are seeing now under the 
reality that it was the EPA who did it, not a private company.
    When you review the EPA's assumptions, from the layout of 
what they thought the mine consisted of--I know you know this, 
but to state it for the record--that contradicted public 
records, assuming the water was only halfway up the mine. They 
did not test for water pressure. Even things like the onsite 
commander leaving on vacation, leaving instructions that were 
apparently discarded or not adhered to.
    My question is, can you tell us where your investigation is 
and who has been held accountable for what I believe is at 
least the dereliction of responsibilities in this? It has been 
long enough now. We should know what happened and who was 
responsible and how they have been held accountable.
    Ms. McCarthy. Sir, we have both done an internal 
investigation at EPA that has been provided publicly. The 
Office of Inspector General has looked at it. We looked for and 
received an independent investigation by the Department of the 
Interior. So we believe we have provided information to folks.
    Just for a factual basis, EPA was there working with the 
State and with the Animas River group to try to figure out how 
to be helpful here. There is no question that the work that we 
did resulted in the blowout. But I do not want anyone to think 
that EPA was there at the time of the blowout to do anything 
other than to continue the preparatory work for when the lead 
was coming back and we are going to continue to consult with 
BLM and others on how best to address this issue.
    It was a mistake. Have I found anyone that did not act 
responsibly and that should have known better? So far, the 
independent analysis that we are seeing has not identified 
negligence. But we are still continuing to look at the issue, 
and we would welcome anyone else doing that as well.
    Having said that, we had a release there, and it was a 
large release. That is what we were trying to avoid. It was 3 
million gallons, and we are going to make good on making sure 
that that did not have a long-term impact.
    We do not see a short-term impact as a result of that, 
because, frankly, 300 million gallons of contaminated water is 
released into that Cement Creek and into the Animas River every 
single year. So 3 million sounds like a lot, but in the context 
we are trying to get at these things in a piecemeal way. 
Certainly, it was not successful in terms of the preparatory 
work, and it did cause this spill.
    Mr. Stewart. Well, in conclusion, I think the challenge you 
have is to fight the perception, if it is only a perception, 
and I am not certain that it is, but to fight the perception 
that the Federal Government treated themselves differently than 
they would have treated a private company. Because I think 
there is a consensus among at least my constituents that there 
is a double standard here, and that this is evidence of a 
double standard.
    Ms. McCarthy. I really appreciate it, sir. You are 
absolutely right that we need to make it very clear that we are 
holding ourselves fully accountable for this.
    I do wish that some of these abandoned mines had 
individuals we could hold accountable, but that is not the way 
the law and the process is structured.
    But I thank you. You are absolutely right. We need to be 
clear about what we are doing and why, and be held fully 
accountable for this.
    Mr. Stewart. Thank you. I yield back.
    Mr. Calvert. Thank you.
    Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman.
    And thanks for being back with us.

                              PUGET SOUND

    I think you know one of the most important challenges in 
the region I represent is the recovery of Puget Sound. In 
recent years, we have taken some steps in the right direction. 
For that, I want to recognize the EPA and your regional 
administrator Dennis McLerran, and Peter Murchie, who is the 
Puget Sound program manager, for the hard work they have done.
    You got to see just how important Puget Sound is to our 
region when you came to visit in 2014. We would like to invite 
you back this year. Your local team has done an excellent job 
with the resources that they have available.
    Having said that, I think we can all agree that we have a 
long way to go on addressing this challenge. I hope you had a 
chance to see a recent study that was done by NOAA and 
Washington State University that documents the fatal impacts of 
stormwater runoff on coho salmon as they are entering the 
sound.
    Unfortunately, the study confirms what a lot of us already 
knew, which is that toxic runoff is damaging water quality and 
hurting key resources like salmon and shellfish that are not 
just important from an environmental ethic, but are critical 
drivers of our economy.
    Chairman, Ranking Member, if there is no objection, I would 
ask for a copy of this report to be submitted into the record.
    Mr. Calvert. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. Kilmer. Sadly, this is just one of the challenges we 
have facing Puget Sound. Stormwater is one piece of it--habitat 
loss, ocean acidification, coastal erosion, the list goes on.
    The impacts of these challenges are being felt throughout 
our communities, certainly felt throughout our economy, with 
the impact to our fisheries. It is perhaps most acutely felt by 
the Native American tribes with treaty rights to harvest fish 
and shellfish from this watershed, 11 of which are in my 
district.
    So let me ask a question. The funds provided through the 
Puget Sound Geographic Program and the National Estuary Program 
are critical to supporting the recovery effort.
    Can you discuss how the investments made in the EPA's 
fiscal year 2017 budget will advance this work and whether 
requested funding levels actually get us there?
    Ms. McCarthy. First of all, let me say that your leadership 
has been incredibly important, and the Puget Sound program is 
filled with incredibly dedicated people. I am happy that we are 
able to at least seek some additional support for that, which 
we see primarily dedicated towards riparian buffers, because as 
you indicate, that is a significant challenge.
    But there is much work that remains. I think the region is 
intimately involved in understanding what we need to do to 
protect Puget Sound. It is going to take a variety of actions 
that we are engaged in and things we have not even begun to do.
    So this is in no way a done deal, but frankly, the 
geographic programs have been a great opportunity for us to 
focus attention on critical estuaries and resources that 
otherwise would get lost competing for money. So we are 
perfectly happy to continue to work with the Puget Sound 
program to see how we could support that effort in a variety of 
different ways, including using our other statutory tools that 
are available to us.
    Mr. Kilmer. So in that regard, I know the EPA is not alone 
in this effort. There are other Federal players, State players, 
tribal players, local partners. Can you talk about how the EPA 
is coordinating those recovery efforts, and if there are any 
additional resources or authorities that you think are needed 
to better align those activities?
    Ms. McCarthy. Well, I certainly know that there are other 
Federal agencies involved in the program and coordinating with 
us. They provide resources. For example, NOAA is certainly 
intimately involved in these issues, as is DOI and USDA. We 
align our resources as best we can.
    I think that it is a good collaboration and one in which I 
think the Puget Sound program helps to identify, but always 
improvements can be made. We would certainly be open to 
suggestions of how we may do that.
    Mr. Kilmer. Thank you.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    Mr. Jenkins.
    Mr. Jenkins. Thank you, Mr. Chairman.

               CLEAN POWER PLAN: WEST VIRGINIA COAL MINES

    Today, we have before us the President's request to fund 
what I see as the final chapter in this administration's war on 
coal. For almost 8 years, the administration has 
unapologetically and systematically worked to shut down our 
country's most abundant, reliable, and cheapest form of energy: 
coal.
    What this administration and the EPA do not understand is 
what their actions have done to the people of West Virginia.
    So, Ms. McCarthy, in your official role as the head of the 
EPA, have you actually been to West Virginia in the last 3 
years?
    Ms. McCarthy. I cannot recall.
    Mr. Jenkins. I know you were invited. So since you have 
refused to come to West Virginia, you simply do not understand, 
in my opinion, how your agency has devastated my State.
    Here is what life is like for many families in southern 
West Virginia. Coal jobs have plunged more than 50 percent in 
just the last 5 years. These are good jobs. According to the 
Bureau of Labor Statistics, the average wage of a coal miner is 
over $84,000 a year. Compare that to our State average wage, 
which is less than $37,000 a year.
    Coal jobs provide a true living wage that can support a 
family. Coal jobs also come with really good benefits, a 
pension, and health care benefits a retiree can count on. But 
not anymore. The bankruptcies of our country's largest coal 
companies have left pensioners and widows desperate for help.
    And because of your actions, West Virginia now has one of 
the highest unemployment rates in the entire country.
    For the past few months, I have been sharing the stories of 
West Virginia families on the House floor as part of my West 
Virginia coal voices project. Mothers, fathers, coal miners, 
small-business owners, they are all worried about their future.
    April Brooks of Mercer County is the wife of a coal miner. 
She says she wonders if her family has a future in West 
Virginia. Here is what she wrote me: Like every family that 
depends on coal for a living, we live day to day, worrying 
about what will happen tomorrow. You cannot plan for the future 
because of the uncertainty. We love our State, but how does one 
stay here and survive, if the jobs are not there?
    Administrator, your war on coal impacts so many more people 
and businesses than just the thousands of direct mining jobs.
    Teresa Haywood of McDowell County, she owns a small 
business and her customers are affected by the coal layoffs. 
Here is what she wrote me: Our business has dropped majorly, 
and I am struggling day to day just to try to decide to pay the 
bills or to restock. People keep asking me, am I going to keep 
my business open?
    The war on coal also affects our schools, our police, our 
fire departments, all of which are funded by coal severance 
taxes. In just the last few years, severance tax revenue has 
dropped by nearly $150 million in West Virginia.
    As coal mines shut down, communities have less and have to 
make tough decisions.
    Stacy Walls of Boone County reached out to me concerned 
about her son's future. Here is what she wrote me: My County is 
closing my son's school due to not having coal tax revenues 
that help keep it open. My son's education is now going to 
suffer because of the war on coal.
    This Congress is trying its best to stop your agenda, an 
ideologically-driven agenda hell-bent on shutting down the use 
of fossil fuels for energy production.
    We have used the power of the purse and included policy 
riders on funding bills. We have supported the legal challenges 
brought by a majority of the States, led by Democrats and 
Republicans alike, trying to stop your regulatory overreach.
    The Supreme Court has already said you erred in not 
considering the economic costs of your regulations, the kinds 
of things I have been talking about.
    And the Government Accountability Office said you used 
covert propaganda and grassroots lobbying in violation of 
Federal law.
    But despite our best efforts, you have succeeded in 
wrecking our economy and ruining the lives and livelihoods of 
thousands of our citizens.
    Regardless of one's belief in the President's climate 
change agenda, his drive--your drive--to succeed has been 
devastating to the people of West Virginia and to the tens of 
thousands of others across this country who work to fuel this 
Nation.
    Administrator, West Virginians are a proud people. We want 
to work. We want to provide a better future for our children. 
Let us do the work we have done for generations, work that 
provides a good paycheck and keeps the lights on.
    And until you actually visit the coalfields of West 
Virginia, you will never understand the impact of your actions.
    Mr. Chairman, I yield back.
    Mr. Calvert. I thank the gentleman.
    I guess the question is, are you planning on visiting West 
Virginia before the end of the year?
    Ms. McCarthy. I will take that under consideration, Mr. 
Chairman.
    Mr. Calvert. It is a beautiful State to visit, by the way.
    Next is Mr. Israel.
    Mr. Israel. Thank you, Mr. Chairman.

                           LONG ISLAND SOUND

    Administrator McCarthy, I want to shift from one sound to 
another sound, from Puget Sound to Long Island Sound.
    Not to belabor Mr. Jenkins' point about you not visiting 
West Virginia, but I have to say I am disappointed that you 
were not able to visit Long Island Sound. I understand that you 
had a crisis in Colorado that you had to attend to. I hope that 
the book is not closed on that. You can come to Long Island and 
get a flight to West Virginia. It is not that hard. Maybe it is 
hard. [Laughter.]
    Mr. Israel. So I do hope that you will consider visiting 
Long Island Sound.
    The Long Island Sound, which is important particularly to 
Ms. Lowey and I and so many others, generally receives funding 
of about $4 million a year. The President's budget requests $3 
million. $4 million is about half of what the Long Island Sound 
actually needs. $3 million is $1 million less than it has been 
getting.
    I am very deeply concerned about the adequacy of those 
resources. The Long Island Sound is the biggest economic 
generator in my region. It may not be coal for us, it is the 
Long Island Sound. Billions of dollars of economic activity. If 
we were a company town, the Long Island Sound would be our 
company.
    The declining level of Federal resources is not just a 
problem for us in terms of protecting our environment. It is a 
problem for us in terms of protecting our economy.
    The good news is that there is bipartisan legislation 
introduced by my colleague on Long Island, Mr. Zeldin, and I 
that would reauthorize the Long Island Sound Restoration and 
Stewardship Act. We were able to pass this legislation about 10 
years ago with a former Republican Member from Connecticut, Mr. 
Simmons. It was signed by President Bush and approved by the 
House of Representatives.
    The bill was passed unanimously in the Senate Environment 
and Public Works Committee. We are hoping that it will be on 
the floor, before too long, in the House.
    The problem that I have is, if this bill is passed, and I 
expect that it will be because it has always been bipartisan, 
we are looking at the potential of $65 million of grant 
opportunities and the Long Island Sound Geographic Program 
office is inadequately funded the task.
    So I am hoping that you can talk to us about, why $3 
million? What do we need to do to increase that investment? And 
will the Long Island Sound Geographic Program office have the 
resources necessary to attend to the tasks?
    Ms. McCarthy. First of all, thank you, Congressman. I think 
you know how much I care about Long Island Sound as well. It is 
an incredible resource for the region, but it is an incredible 
ecological resource.
    And it is challenged. It is challenged because so many 
people live around it that depend on it.
    So the funding is not a reflection of the agency's lack of 
interest and enthusiasm for its protection. It is just budget 
realities in terms of how we can continue to move forward.
    You are right that we are proposing a decrease in that 
funding, but we also are maintaining $2.8 million, almost $3 
million in investment there. We are confident that the program 
can continue to run, but I think you are right in terms of 
looking at what are the opportunities for additional funding 
that is needed to be brought to the table to make sure that we 
can continue to make steady progress.
    We are making some difficult choices, and I cannot 
apologize for that but I certainly know that EPA cannot turn 
around Long Island Sound and protect it without significantly 
more resources from the neighboring States, as well as other 
ways in which we can potentially leverage those funds.
    Mr. Israel. Thank you. I do hope that your staff and my 
staff can review the invitation and that you can find time to 
visit. Thank you.
    I yield back, Mr. Chairman.
    Mr. Calvert. Thank you. I am sure we will be working 
together on that issue.
    Next, Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman.

                                  GLRI

    I would like to ask you, Administrator McCarthy, a few 
questions about the Great Lakes.
    Ms. McCarthy. Yes, sir.
    Mr. Joyce. The Great Lakes are the largest system of 
surface freshwater on Earth, containing 20 percent of the 
world's surface fresh water, and 95 percent of the United 
States' surface fresh water. The watershed includes two 
nations, eight U.S. States, two Canadian provinces, and more 
than 40 tribes.
    How will the administration's proposed $50 million cut to 
the GLRI impact our ability to restore and maintain the 
environmental integrity of the Great Lakes ecosystem?
    Ms. McCarthy. As I indicated, there are some difficult 
decisions. It is still proposing $250,000--I am sorry, $250 
million. You know that. That would be a real dramatic change.
    Mr. Joyce. Yes, it would be. Considering we started at $475 
million, and you have been proposing cuts was ever since.
    Ms. McCarthy. Yes.
    We understand the value of the Great Lakes. We are trying 
to coordinate, and I think we have done a good job at enhancing 
coordination across the Federal family to support the effort 
there, because that is what it needs to be.
    There are remaining challenges. The $50 million that we are 
suggesting in a cut is just a reality of trying to face our 
budget constraints. But we are certainly open, and we know that 
there will continue to be a lot of push for that to be 
restored. We are happy to talk about what other kind of 
leveraging we can do.
    We know we have work to do. We have done great so far, but 
the work remains in terms of looking at harmful algal blooms, 
looking at invasive species, looking at those areas of concern 
and continuing to make progress. There are a lot of challenges 
that are being faced that are worthy of significant investment, 
if that money was available.
    Mr. Joyce. I want to discuss areas of concern.
    Since 2010, three areas of concern have been delisted, one 
of the areas being the Ashtabula River in my district. As EPA 
personnel were on site, as though it was on cue, an eagle flew 
overhead.
    Which areas of concern will have to postpone restoration 
work, if you cut the GLRI by $50 million?
    Ms. McCarthy. I actually am not aware that any of those 
sites would be postponed, but I certainly can get back to you. 
I think mainly we are looking at maintaining those resources to 
those efforts. We have a number that are targeted this year, 
but let me go back and I will get you that information, if I 
could.
    [The information follows:]

    Great progress has been made in cleaning up Areas of 
Concern. Since the start of the Great Lakes Restoration 
Initiative, the Presque Isle Bay (PA), Deer Lake (MI), and 
White Lake (MI) Areas of Concern have been delisted and the 
remediation and restoration actions necessary for delisting 
were completed at an additional four Areas of Concern, 
including Ashtabula River (OH), Sheboygan River (WI), St. Clair 
River (MI), and Waukegan Harbor (IL). These Areas of Concern 
will be delisted once all of their beneficial use impairments 
have been removed. Because the EPA has prioritized Areas of 
Concern restoration, the EPA does not expect that restoration 
at any areas of Concern will have to postponed in the near 
future.

    Mr. Joyce. I learned a great lesson from Representative 
Kaptur. She has pictures of the Asian carp, which are ugly 
fish, and unfortunately I do not have any pictures with me 
today. The GERI has been central to the efforts to keep self-
sustaining populations of silver, bighead, and black carp out 
of the Great Lakes, the GLRI Invasive Species' laws area 
received $57 million in FY 2016 to combat invasive Species such 
as Asian carp. Your budget would cut Invasive Species' funding 
to $43.6 million. In 2015, juvenile Asian carp advanced 66 
miles closer to Lake Michigan. How will the proposed funding 
reduction impact efforts to prevent carp from spreading 
further?
    Ms. McCarthy. Again, sir, I do not have exact 
identification of where the funding cuts would be made. I 
appreciate your concern for this.
    A video is even better than pictures, because it is pretty 
frightening.
    I know that is one of the areas of priority for funding 
moving forward.

                              ALGAL BLOOMS

    Mr. Joyce. In the past 2 years, there have been harmful 
algal blooms on Lake Erie that have impacted access to safe 
drinking water for residents, including, in Toledo, which is in 
Ms. Kaptur's district.
    The 2015 harmful algal bloom on Lake Erie was recorded as 
the largest bloom this century. The GLRI `Nonpoint Source 
Pollution Impacts on Nearshore Health' focus area received $49 
million in FY 2016, in part to address the situation on Lake 
Erie. The administration's FY 2017 budget would cut Nonpoint 
Source Pollution Impacts on Neighbor Health funding to $43.5 
million.
    In February, you joined Canada's Environment and Climate 
Change Minister, Catherine McKenna, to announce that Canada and 
the U.S. adopted targets to reduce phosphorus entering affected 
areas of Lake Erie by 40 percent. How will the proposed fiscal 
year 2017 funding level help us achieve this goal?
    Ms. McCarthy. Well, it certainly will continue the momentum 
moving forward. There certainly has to be a larger conversation 
about how quickly we can achieve those goals working with State 
and local communities, and how best to do that. But it 
maintains, I think, the emphasis on the program in a way that 
our budget accommodates.
    Certainly, we are still open to whether or not those 
budgets are aligned effectively, whether they are targeted 
appropriately, how we can work with USDA on some of these 
issues.
    I sympathize with what is going on in western Lake Erie, 
but it is also happening in many other parts of the country, 
and we have to address this issue systemically as well as in a 
targeted way as the GLRI done this.
    Mr. Joyce. Obviously, this really bothers me. Until people 
lose a potable water supply, they do not understand and 
appreciate the fact that there is not a redundant water supply.
    For years, every year I have been here, we have watched the 
administration cut funding for GLRI. We have tremendous 
bipartisan support for the GLRI, we are doing our best to 
protect and preserve not just a lake or a series of lakes, but 
a national treasure, and we need to treat it that way. We need 
to continue to treat it that way.
    The administration should be out front on the issue and 
work with our international partners to make sure that these 
efforts are coordinated.
    Ms. McCarthy. I appreciate that, sir. I am not trying to 
put you in a position of doing heavy-lifting, but we are trying 
to meet the Bipartisan Budget Act numbers.
    I would also just, as an aside, recognize that part of the 
challenge we had in Toledo, it was twofold. It was one of the 
harmful algal blooms, but it was also a lack of investment, so 
it goes back to that overall look at what we do with water 
infrastructure and how we get resources that can help 
communities address these challenges to update, because that is 
what essentially was missing in that scenario.
    Mr. Joyce. Also, dredging the channel and dropping the 
sediment back in the lake, instead of placing the sediment 
aside.
    Ms. McCarthy. That is another challenge as well. I know you 
have been active in that. You have been active in many ways 
that I think recognize the value of the Great Lakes to your 
region, and it is of enormous concern to all of us.
    Mr. Joyce. Thank you. I Have no further questions.
    Mr. Calvert. I thank the gentleman.
    Ms. Pingree.
    Ms. Pingree. Thank you very much, Mr. Chair.
    Thank you, Administrator, for being with us today. I know 
this is not an easy job, and you certainly have had a lot of 
challenges in recent times.
    I want to take us on a somewhat different path. I am 
interested in the topic of food waste. I know the EPA has set 
some interesting goals.
    I know my colleagues are riveted by this topic. [Laughter.]

                           FOOD RECOVERY ACT

    Ms. Pingree. But 40 percent of the food in this country is 
wasted, and we have a lot of hardworking farmers and others who 
spend a lot time to produce that food and we have a lot of 
people going hungry in this country, so it is a very serious 
issue. I have introduced a bill called the Food Recovery Act, 
because I do think this is something that we have to take on 
and challenge.
    I am very pleased that the EPA and the USDA have set 
national food waste reduction goals, which is a 50 percent 
reduction by 2030 in the amount of food we waste. I was very 
happy to be on a panel the other day with Mathy Stanislaus, the 
assistant administrator in the Office of Solid Waste in your 
organization.
    Clearly, you have people out there working hard on it. But 
now you have this big goal. I know a little bit about how hard 
it is to tackle some of these issues at all levels of how we 
waste food.
    Can you talk to me a little more about what the EPA's goals 
are and what you are doing to make this a reality?
    Ms. McCarthy. As you indicated, we have embraced with USDA 
an opportunity to look at food waste more successfully, given 
how much is actually wasted, and how many people in this 
country have food insecurity. There has to be a way to mix and 
match in making sure that we are recovering that waste and 
shipping off what is usable to reach those families in need. 
That is what the challenge is all about.
    We are working on it in a number of different ways. I think 
the program I would most note is our Food Recovery Challenge, 
which is really just about connecting with supermarkets to see 
how they buy, how they donate, working with local restaurants, 
working with food shelters, connecting those dots.
    We have now done extensive outreach to the faith community, 
to try to activate them, because, as you know, poverty and food 
issues are central to most faith constituencies. So they are 
great in working with us both on water quality, as well as this 
effort.
    We are open to any suggestions on how we move this forward, 
but there seems to be a building momentum on this. That is a 
good thing. It is all the way upstream to agriculture where the 
food is produced to getting it to the tables where the food can 
be consumed, especially by those most in need.
    But it is a big lift to go from where we are today, which 
is close to 40 percent wasted, to actually meeting and having 
that in a fairly short period of time.
    But people seem energized and engaged. It is not a largely 
resourced effort of EPA or USDA. I think both Secretary Vilsack 
and I are committed to making sure we leverage our resources 
wisely, but really do it in a way that engages outside 
constituencies who see this as such a core effort moving 
forward. It is exciting to see it building some momentum.
    Ms. Pingree. Thank you for that. I appreciate that you are 
trying to look at it at all levels and work with the USDA.
    Along with the challenges of making sure our food gets into 
the hands of people who need it and are hungry, there are some 
serious environmental challenges of how to dispose of food 
waste and the gases produced.
    Ms. McCarthy. And the methane it produces.
    Ms. Pingree. Right, which is much more toxic than many of 
the gases we worry about. Plus, it is a huge cost to 
municipalities.
    One of the challenges when we try to do something about a 
problem with limited resources is how the agencies coordinate. 
How is that going between you and the USDA, since you are kind 
of the two key agencies on this?
    Ms. McCarthy. I think we are coordinating well, but we also 
are looking at having a much more robust strategy. I think it 
goes well beyond the few people we are dedicating to food 
recovery. It is just not commensurate with the challenge or, 
frankly, the real opportunity that we see.
    But we will continue to work. We need a strategy that will 
get us to meet that 2050 goal, and we are working on how best 
to do that.
    Ms. Pingree. I appreciate that. I will have another 
question, if we get a second round, but I did want to make just 
a quick comment on Mr. Jenkins. I am sorry he is no longer 
here.
    I feel very, very sympathetic for any rural State that has 
to deal with the loss of high-paying jobs. I know in the State 
of Maine, we have lost a tremendous number of our paper mills. 
It seems to be happening at a rate higher than people can even 
fathom.
    Those are the same kinds of jobs. They are high-paying 
jobs. They come with benefits. It is staggering, particularly 
in a rural State, when those things change.

                            CLEAN POWER PLAN

    But I just wanted to add sort of another perspective, since 
Maine tends to be the State at the end of the tailpipe, and 
coal-fired power plants have been a huge issue for our State 
for a long time. You think about going to Maine and you think 
about, pristine air, this wonderful State on the ocean. But, 
frankly, we have some of the worst air in the country.
    One in 10 people in Maine have asthma. We have a tremendous 
number of children with asthma. It is one of the biggest 
reasons for emergency room admission, and it is the fourth most 
common reason that people miss going to work. So people who 
have jobs often cannot go because they have asthma.
    So I just wanted to add in the other perspective, that 
while I am very sympathetic about the loss of jobs, and Mr. 
Rogers is here too, and he represents so many important coal 
country communities, but it is a huge challenge, making sure 
that those of us who really suffer from the air at the other 
end are also able to have clean air. We must reduce the amount 
of very costly illnesses and tragic situations that many people 
are in because of that.
    So I wanted to thank you from the other side, and I know it 
is not easy. I know we are always trying to deal with that 
balance. It is tricky. So thank you for that.
    Mr. Calvert. With that, I am happy to recognize our full 
committee chairman, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.

                 CLEAN POWER PLAN: KENTUCKY COAL MINES

    There are over 10,000 miners in my district who found 
themselves unemployed as a result of your keep it in the ground 
strategy when it comes to coal. This committee has acted time 
and again to protect the mining industry and the hardworking 
people who they employ from the devastating impact of the 
actions of your agency.
    I have to imagine that you understand how these regulations 
have led to many counties in my district grappling with 15 
percent or 20 percent unemployment. But can you imagine what it 
must be like for that miner, that father with small children, 
formerly making $70,000, $80,000, all of a sudden trying to 
find a job at McDonald's, unsuccessfully, at minimum wage with 
small children, car payments, home payments, house payments, 
and school payments.
    It is devastating. Nevertheless, here you are, asking for 
more taxpayer money to put toward this job of killing coal. In 
fact, you have asked for an additional $50 million for the 
EPA's Clean Power Plan.
    Since the Supreme Court issued that stay of your final 
regulations implementing the Clean Power Plan last month, I 
have seen conflicting reports regarding the deadlines for State 
actions that were included in the final rule. My understanding 
is that the Justice Department, in opposing the stay, advised 
that the deadlines would be delayed for the duration of the 
stay. But Acting Assistant Administrator McCabe recently 
indicated that the deadlines may remain in effect.
    Can you assure us today that the agency will, as you have 
done when implementing other rules, delay the deadlines and the 
rule until the courts have issued their final decision?
    Ms. McCarthy. I am happy to answer that question.
    The Supreme Court did stay the rule. They did not speak to 
any tolling of the deadlines. This is a rule where compliance 
is quite far off into the future. So that issue will clearly be 
decided either by the Supreme Court or if they choose to give 
it to the lower court or to EPA to work through. There are a 
variety of ways that those issues get resolved. But it was not 
spoken to by the Supreme Court in its decision.

                              EPA LOBBYING

    Mr. Rogers. In December, the Wall Street Journal reported 
that the Energy and Environment Legal Institute obtained emails 
indicating that EPA worked with environmental lobbyists in 
secret to craft its Clean Power Plan. The correspondence they 
obtained made it clear that this group of lobbyists with ties 
to extreme environmental groups like the Sierra Club, NRDC, and 
Clean Air Task Force, worked with the agency to craft a CO2 
emissions standard that would be impossible for existing coal 
plants to meet.
    Essentially, EPA worked with these extreme 
environmentalists to ensure that under the rule all existing 
coal-fired power plants would have no choice but to close.
    There is no question that the Clean Power Plan will 
fundamentally alter the energy economy in this country and put 
thousands of hardworking men and women who are employed in the 
coal industry out of work.
    Why is the EPA allowing these individuals who are not 
employees of this agency to be so heavily involved with the 
drafting of rules with such significant impact?
    Ms. McCarthy. Sir, I will assure you that EPA drafted this 
rule. We had an open-door policy from day one, and we worked 
for years before we even proposed a rule, to make sure we heard 
from everyone.
    We believe the standards are reasonable and not just 
appropriate but cost-effective as well, or else we would not 
have established them. So we are not looking to preclude coal 
from being a significant part of the energy system. Indeed, we 
project it will continue to be.
    But we do believe that facilities can comply, and we think 
States will be able to meet the requirements under the Clean 
Power Plan.
    Mr. Rogers. Well, the truth is that power plants cannot 
possibly physically do what you would require, so they have no 
choice but to switch to something else. It is impossible, 
physically impossible, for them to meet your requirements.
    What do you say to that?
    Ms. McCarthy. Sir, the way the Clean Power Plan works is 
that States make decisions instead of individual utilities on 
how they are going to comply, because that is the way the 
energy system works. It is done regionally, primarily.
    We just wrote it in a way that we thought would be the 
least expensive, the less invasive, get us significant 
pollution reductions, but work within the energy system rather 
than EPA imposing on that energy system a new structure of 
decision-making.
    So we think it is consistent with the way the energy system 
works, that utilities will be able to work with this, that 
States should be able to manage this. And we are working hard 
to continue with States voluntarily looking to move forward to 
continue to support those actions.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Calvert. Thanks, Chairman.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman.
    I was going to ask another question, and I really would 
like to get that in after this, but right now I want to follow 
up on what Chairman Rogers was saying.

                            CLEAN POWER PLAN

    In my own congressional district in St. Paul, I had an 
electric utility that made the decision to convert from coal to 
gas. But they also have a coal-fired plant in Stillwater, 
Minnesota on the St. Croix River. We also have nuclear. We have 
solar. We have wind. We just would like to have more funding 
going to R&D, so we can capture it and store it in a battery.
    In Minnesota, Governor Dayton and our Legislature has 
decided to move forward, as have other States, knowing that 
coal will be part of the mix, but also making sure that we do 
what we can to protect our air and water.
    Could you please let us know how many States are responding 
in a way that moves forward with emissions reduction? And are 
you going to have the resources available to help those States 
move forward that are choosing to do so?
    And then I have a question regarding tribal issues.
    Ms. McCarthy. Thank you so much for letting me respond.
    There are about 25 States that at least have sent signals 
or continue to work with us directly. Frankly, most States 
continue to talk about this and work on it, because the Clean 
Power Plan is legally solid, and I think everybody wants to get 
a jump on how they are looking at planning to respond to that. 
So about 25 States are continuing to voluntarily ask us for 
assistance and work on----
    Ms. McCollum. And in my State, my utility is working hand 
in hand.
    Ms. McCarthy. Utilities are very engaged in this issue, 
because, frankly, the energy system is transitioning already, 
and they are trying to understand what their investment should 
look like now so that they prepare for what is inevitably a 
low-carbon future.
    So we are going to continue to work with that. This budget 
reflects about $50.5 million, $25 million of which would be 
supplied to States that continue to voluntarily want to move 
forward, and the other $25.5 million is really about us 
continuing to develop tools that respond to their requests and 
continue to work with those States that want to voluntarily 
work with us.
    But it in no way is running contrary to the Supreme Court 
stay. We are not implementing or enforcing the law while it 
goes through the courts. Everybody sort of expected it would go 
through the courts anyway.
    Ms. McCollum. Thank you.

                           GLRI-TRIBAL GRANTS

    Last week, the subcommittee spent 2 days listening to 
Native American tribal leaders in public witness testimony. One 
thing we heard concerns about was the discrepancy on how the 
tribes are requesting and what they are actually receiving from 
the Great Lakes Restoration Initiative. Tribes are an essential 
partner in restoring the health of the Great Lakes. The process 
of solidifying grants must be fair for all applicants, 
especially tribes.
    I believe, and I think there are other committee members 
here who would agree, that is imperative that tribal nations 
have the resources and the staff to develop competitive grant 
proposals, so that they are able to manage and protect their 
natural resources. Speaking for many of the tribes in the Great 
Lakes area, they have terrific working relationships with their 
State partners.
    Could you either tell us now or later how many grants have 
been awarded to tribes since 2010 when GLRI was launched? What 
has been the total amount of funding awarded to tribes? What 
kind of engagement is EPA doing with tribes to ensure that 
their grant proposals are competitive?
    This also affects another issue, and here again I commend 
Governor Dayton. He proposed legislation to work with tribal 
nations to secure rights to hunt and gather to support their 
traditional diet in the Ojibwe culture. He has heard, I am 
sure, from tribal leaders, as I have, that they want to make 
sure that the habitat that they hunt and fish in is not 
damaged.
    Can you tell me how the EPA is working to keep waterways 
healthy enough to support tribal treaty rights, traditional 
subsistence foods, and how aggressively you are making sure 
that tribal consultation is moving forward, especially in the 
area of the sulfide mining?
    Ms. McCarthy. I am happy to follow up with you. Thank you.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
                     CLEAN POWER PLAN

    Mr. Calvert. Just a comment, and then I have a question. I 
have been charting the coal industry for some time. From the 
book value of those corporations, they have been driven to near 
zero. Bankruptcies, you obviously read about in the newspaper.
    So if the administration plan was to destroy that industry, 
it appears that you have succeeded.
    Ms. McCarthy. The only thing that I can tell you, sir, if 
you look back to the 1980s, you will see that there has been a 
consistent decline in that industry, and that is well before we 
had a climate plan.
    Mr. Calvert. Nothing like we have seen in the last number 
of years.
    Ms. McCarthy. Well, it is very challenging for particularly 
the coal from the Appalachia area to be competitive right now 
in the market.
    But EPA specifically tried to identify a way to deliver the 
Clean Power Plan in a way that would not interrupt the pattern 
of how the market works, but it does underpin it. But it does 
not change the direction in which we think the energy system is 
happening on its own, as a result of market forces.
    Mr. Calvert. I am going to change directions entirely and 
talk about pesticides.
    Ms. McCarthy. Yes.

                            CITRUS GREENING

    Mr. Calvert. This may be something that may be going to the 
top of your to-do list, because of the numbers of problems that 
are coming to the United States.
    I do not want to be an alarmist but obviously we know about 
the citrus industry in Florida and the psyllid issue. That is 
also moving across the country, including to my home State of 
California. We have already experienced the Pierce's disease, 
which has another insect, glassy-winged sharpshooter, which is 
the vector.
    EPA had granted waivers in order for us to fight that 
disease, or the grape industry would have been crushed in the 
wrong way. And we would have had a devastating effect on our 
wine industry, and we need wine right now as a country to get 
through from day to day. [Laughter.]

                               ZIKA VIRUS

    Mr. Calvert. Lastly, and more seriously, now the Zika 
virus. The chairman and I were just recently in South America. 
We visited laboratories that are working on trying to get ahead 
of this problem. I think the chairman would agree we were very 
concerned after the briefings we received that the spread of 
this mosquito across certainly right now in Puerto Rico and 
moving into Florida, that there may be a need for pesticides to 
be used.
    I know at some point you have to make decisions. You have 
to balance the health and welfare of the citizens versus maybe 
in some respects the environment, to fight this mosquito, which 
apparently is a very hard mosquito to kill.
    I am sure you probably have had briefings on this already, 
but maybe you can share with us what activities EPA is involved 
in, whether they need to grant waivers to fight this. It seems 
like we have to get on this immediately.
    Ms. McCarthy. Mr. Chairman, thank you for raising this 
issue, because it is something that the entire Federal family 
has been working together on.
    EPA's role really is reflective of how we mitigate the 
challenge, how can we mitigate an impact, the habitats that 
would be mosquito breeding and take care that issue. But we are 
also looking at what we need to do to make sure that we have 
pesticides approved that can attack this and how we do 
training. We are focusing that training.
    Thankfully, Florida is very strong in terms of their 
ability to be able to manage this issue and have certified 
applicators and a strong regulatory system. We are focusing a 
lot of attention on Puerto Rico as well as the Virgin Islands, 
where their sort of regulatory system is not quite as strong, 
and we want to make sure that when pesticides are used, they 
are applied carefully.
    There are a number of pesticides that are approved by EPA 
and effective, as well as they can be, both on outside 
spraying, as well as indoor use. We are continuing to work with 
NIH to see if there are others that we can bring into the 
system. As a Federal family, we are looking to make sure that 
those pesticides will work, are properly manufactured, and at 
levels that can be distributed, as this Zika virus is 
progressing.
    It is an enormous challenge to work on this, and it is one 
that I think the Federal Government is looking for appropriate 
support from this body, but also EPA is looking to make sure we 
do our work with NIH to get the products out in the market that 
we believe can be safely applied and can help in this effort.
    Mr. Calvert. I appreciate the answer.
    Next, Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman.

                            CWSRF REDUCTION

    Ms. McCollum mentioned the significant cut made to the and 
Clean Water State Revolving Fund. Given the significant 
infrastructure needs across the country, can you discuss how 
you anticipate this cut will impact State, local, and tribal 
governments that are working to invest in clean water 
infrastructure?
    Ms. McCarthy. It is definitely a shift in what we see, and 
it is based on the needs out there, long term. It is a shift a 
little bit more toward the drinking water side than it is the 
clean water side.
    Part of the challenge we have is to make sure that we 
certainly live within our budget, and we have done our best to 
reflect where we think the priorities need to be.
    But beyond that, we are trying to look at how in this 
fiscal year start supporting WIFIA, because that leverages or 
has an opportunity to leverage private sector dollars as well 
in a way that is a much larger leveraging opportunity than we 
have under the State Revolving Fund.
    So we are looking at a $20 million investment there. We are 
also looking at our Water Infrastructure and Resiliency Finance 
Center to continue to support that effort, because they are 
providing a lot of opportunity to work with rural communities 
and small systems to think more creatively about what 
opportunities are available.
    We are looking at continuing to look at the flexibilities 
that we have under the State drinking water fund.
    But I think, all in all, we are also looking at using I 
think some visibility and concern that have arisen as a result 
of Flint to sort of raise the flag, if you will, to say that 
all of these efforts are good, and we are directing more 
efforts to the Mexico-U.S. border and to Alaska, tribes, but we 
need to do more.
    We really need to step back and recognize that our water 
infrastructure is old and investments are not being made at a 
rate that would keep that to be the modern system that we once 
had. There are challenges both with legacy and emergent 
contaminants that really require us to think about new 
technologies, on how to drive those and invest in them.
    So there does need to be a larger discussion and 
opportunity to take a deep breath and see whether or not clean 
water remains a core need and value of this country, and 
whether or not we are providing the investments we need for 
that.
    Mr. Kilmer. Thank you.
    Thank you, Mr. Chairman.
    Mr. Calvert. Mr. Simpson.
    Mr. Simpson. Thank you.
    Following up on that answer, we had a hearing here 3 years 
ago--on alternative financing methods to address this backlog 
of unmet needs, because, quite frankly, the way we are going at 
it now, it is going to grow. We are never going to get to the 
end of this backlog of maintenance needs in water and sewer 
programs.
    So I think the industry and regulators and others need to 
get together with Congress and look at alternative methods of 
financing these.

                    REGION 10 EMPLOYEE APPRECIATION

    But I just want to agree with Mr. Kilmer that Dennis 
McLerran does a great job out in Region 10. We are having a 
little difference with Region 10 and the State on fish 
consumption. But we have differences, and we will hopefully 
work those out.
    But again, I will submit that for the record.
    But I just wanted to point out, as we are kind of getting 
ready to wrap things up here, I think the chairman said that 
nondefense discretionary spending under the budget deal is at 
$40 million. Is that right?
    Mr. Calvert. I think. Approximately.

                        FY 2017 BUDGET PROPOSAL

    Mr. Simpson. That is assuming we can accept a budget deal 
at some point in time and get a budget passed, under the best 
of all possible worlds, given the budget deal that was passed 
last year.
    So nondefense discretionary spending is about $40 million. 
You have asked for an increase of $127 million. There are 
gimmicks in it, as in the energy and water bill and other 
bills, shifting things into mandatory funding, things that we 
know are not going to happen, tax increases that we are pretty 
sure are not going to happen. I do not see putting on an oil 
barrel tax, or some of the other things that are used to pay 
for the budget request.
    So we have all of those conflicts, yet you sit here and you 
listen to all of us. We talked about the Long Island Sound 
needing more funding, the Puget Sound needing more funding, the 
Great Lakes initiative needing more funding, DERA needing more 
funding, rural water technical programs needing more funding, 
STAG grants needing more funding, and given the circumstances 
that we are probably going to have at least a flat and maybe 
even a reduced budget in certain appropriations bills this 
coming year.
    That is the challenge that we are going to face. We are 
going to have to balance those competing interests and try to 
put together a bill because it is not just the EPA and the 
programs within the EPA that we will have some differences on. 
It is all the myriad and different programs that are under 
Chairman Calvert's purview in that bill.
    It is going to be a tough one to write, a lot tougher than 
most people think. So I just wanted to bring that into reality 
here.
    Ms. McCarthy. None of us have an easy job with this. I 
really appreciate the subcommittee, and obviously the committee 
chair being here to try to identify a path forward. It is 
always a respectful and good conversation here, and I thank you 
for it.
    Mr. Simpson. Thank you.
    Mr. Calvert. Ms. Pingree.

                        POLLINATORS--PESTICIDES

    Ms. Pingree. I thank you, Mr. Chair.
    Both of my last two colleagues mentioned the clean water 
revolving fund. I just want to add that for many of the 
municipalities in our State, that is critically important. I 
think you know that.
    And I will just throw in brownfields, too, because that is 
another thing that has just been really beneficial to economic 
development.
    I do not have to tell you, but those are really critically 
important when it comes to funding. I will just bring up one 
last topic, and that is about bees and pollinators.
    I know that you take that very seriously. Mr. Calvert 
brought up one of the issues around pesticides and allowing new 
pesticides. All of us are very concerned about the Zika virus 
and many of these things and making sure that we really do have 
a way to control them. The reverse of that is the impact on 
pollinators.
    I know Mr. Simpson is deeply concerned about the Monarch 
butterfly. We have our own mini-caucus here that has never been 
formalized but is there.
    But I just want to bring up the fact that this recent GAO 
report criticized the EPA for ignoring the assessment of the 
impacts of multiple pesticides on bees. This is not an easy 
topic, but we know that neonicotinoids are one of the biggest 
issues. In some areas, they are banned, in other countries.
    It is critically important, given the fact that 80 percent 
of all flowering plants around the world need to be pollinated 
by bees. We have already had a few crises.
    We are very worried about the impact of glyphosate-
resistant weeds in our agricultural system. We have 70 million 
acres of the United States that are infested with them. We are 
worried about their impact on the Monarch butterfly through 
milkweed. I do not have to tell you all this.
    Ms. McCarthy. It makes me feel good that you share the 
pain.
    Ms. Pingree. I am sharing your pain.
    And the GAO just has a brand-new report out, saying USDA 
and EPA have to do more on this. You have to coordinate better.
    Frankly, this is very complex, particularly with the use of 
multiple chemicals in the same agricultural setting. So it is a 
tough balance, because we want to make sure we have those 
pesticides available when it comes to disease control and other 
things like this mosquito-borne virus. But on the other hand, 
we cannot afford to lose our pollinators.
    So how can you do a little more on this? How are you going 
to address the concerns the GAO just brought out?
    Ms. McCarthy. I think the GAO is always right in that we 
need to continue to collaborate. That is why the White House 
pulled together the National Pollinator Health Strategy that 
was announced back last year in May.
    I mean, it is extremely important for us to look at sending 
all the right signals to the industry itself, so that you have 
beekeepers and the agriculture community able to communicate 
with one another and develop a strategy that both protects the 
pollinators as well as allows us to utilize pesticides and 
other things that are vital to agriculture moving forward.
    These are not easy issues. One of the things we did, as I 
think you know, is we are really requiring registrants to look 
at conducting new bee safety studies as they are looking at new 
types of pesticides.
    We are doing the best we can to start building it into the 
system as a fundamental look, and we are looking to work more 
effectively with USDA, as well as the services, at the full 
range of impacts, not just health, but ecological impacts and 
impacts to the pollinators as well.
    So we are doing the best we can and we are getting more 
information. As the attention has gone up, the science is 
getting better. As the science gets better, we utilize it in 
our decisionmaking. We are looking forward to collaborating 
more effectively in the future with our Federal family.
    Ms. Pingree. Great.
    Thank you, Mr. Chair.

                        POLLINATORS--PESTICIDES

    Mr. Calvert. I do not disagree with Ms. Pingree. Obviously, 
if there are other alternatives to pesticides, I am all for it.
    As a matter fact, in my own area at the University of 
California, we have I think the largest laboratory in the 
United States on beneficial insects. We in California have used 
those over 100 years to combat various types of insects.
    But if there is a health emergency, we all here agree that 
we do not want that to happen, but sometimes decisions have to 
be made. I would hope that you plan for the worst-case 
scenarios as well as to be prepared if, in fact, we have to 
react quickly, because you may be in a situation here shortly 
where you have to. This may not be as bad a problem as we 
think, but it may be a lot worse than we think.
    Ms. McCarthy. I think we are doing a pretty good job, sir, 
when these emergencies arise at approving exemptions that are 
in the system. We did that with the State of Florida as they 
were approaching their next season when they had to look at how 
to apply pesticides in a way that would address citrus 
greening. So you are absolutely right.
    Fortunately, the law allows us to have that type of 
expedited review, and we do the best we can to make sure we do 
it in a timely manner.
    Mr. Calvert. Florida now, I think they have lost a third of 
their citrus throughout the State. The citrus industry believes 
they will be totally out of citrus business here, if this 
continues, in the next 5 years.
    We have psyllid in California, but we do not yet have the 
disease associated with it, except in a very defined area, 
which we are trying to control.
    So we are sometimes asking for those waivers to get in 
there and deal with this issue as rapidly as we can.
    Ms. McCarthy. We are really trying to respond to them, as 
is USDA in looking at how we do research to get a better 
solution on the table than these interim exemptions provide.
    Mr. Calvert. I think it was Albert Einstein who once said, 
if you want to destroy the human race, destroy the bee 
population of the world, and it will all be over.
    So I understand that we need to make sure that we do not do 
that.
    Any additional questions?

          DRINKING WATER AND WASTEWATER TREATMENT TECHNOLOGIES

    Ms. McCollum. Mr. Chairman, just if I could, this is going 
to be Administrator McCarthy's last time testifying before the 
committee. I think of what has happened in my lifetime on 
emerging issues: microbeads in personal care products, 
hormones, superbugs, antibiotics. These are all pollutants that 
have been added to our waterways.
    Mr. Simpson pointed out how tight the budget is around 
here, but as you look back on what you have worked on, and as 
you look forward to some of the challenges the next EPA 
administrator is going to have, are there areas where 
regulations have not caught up with what you are facing? What 
are some of the emerging issues you would say that we as a 
committee should be prepared to grapple with as we figure out 
how to improve our drinking water and our water treatment 
systems?
    Ms. McCarthy. Big question. I am not sure that I am going 
to be able to answer the question and give it the thought that 
it deserves.
    But I think what you mentioned in terms of the challenges 
for drinking water and wastewater treatment technologies are 
some that keep me up at night because I just think that we are 
seeing things and contaminants now where we are not properly 
protecting our source waters, where we have to look at our 
discharges into those waters carefully to understood what is in 
there, to look at what is getting into our wastewater treatment 
and what we are not prepared to treat, what those systems have 
not been designed to effectively get out before it then gets 
back into the source water and potentially into our drinking 
water source.
    So having that in mind as we are looking at not just 
upgrading but new technology solutions. We have to stop 
pretending that we can fix all those and start accommodating 
them through technology investments and getting those 
technologies into the market.
    I think that you all know that I have spent a great deal of 
my time on climate change. I would be I think not doing my duty 
if I did not continue to raise that. I think in the energy 
world, you see a lot of opportunity and transition already 
happening, but we need more solutions on the table, more 
investment, more understanding of how we take action on climate 
that is commensurate with the risk.
    Frankly, part of the challenge the EPA faces is you have 
given us a lot of opportunity to prevent problems before they 
arise, but we need more. You need investment, if you are going 
to stop from having to do these emergencies in Flint, the 
emergency in Toledo. Every time we do that, we spend more time 
on one incident than infrastructure investment would have been 
for three, four, five, six other facilities. Do you know what I 
mean? We have to stop thinking crisis by crisis and start 
looking more systemically at these issues.
    And EPA as well needs to do that, working hand in hand with 
Congress. I appreciate the opportunity to have been able to 
work with you for as long as I have. I think you have been a 
terrific sort of adviser to the work that we are doing. You 
remind us constantly of how important that work is. And I know 
you have a difficult job, and I appreciate it very much that 
you have given it such tremendous attention.
    Mr. Calvert. Thank you. We certainly appreciate your 
attendance here, and thank you for your service. We wish you 
well in the future. We are adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                         Wednesday, March 23, 2016.

            SMITHSONIAN INSTITUTION BUDGET OVERSIGHT HEARING

                                WITNESS

DR. DAVID SKORTON, SECRETARY, SMITHSONIAN INSTITUTION

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. The committee will come to order.
    Dr. Skorton, I would like to welcome you to today's 
hearing. We appreciate you joining us this morning to share 
your vision for the future of the Smithsonian and to discuss 
your budget priorities for fiscal year 2017.
    The members and staff are also grateful that you have 
brought some interesting historical items for show and tell. It 
is always one of the highlights of our hearing season. You 
clearly have one of the most interesting jobs in town. I think 
most of us around this table would love to trade places with 
you, but something tells me it wouldn't be in the best 
interests of the Smithsonian. So we will all keep our jobs.
    The Smithsonian's mission is to increase diffusion of 
knowledge. As the 13th Secretary of the Smithsonian, you are 
entrusted with the challenging responsibilities of operating 
and managing one of our country's most revered institutions. 
The Smithsonian is often referred to as America's attic, and no 
wonder. You are the steward of more than 138 million objects, 
and the national collection reflects America's artistic, 
cultural, and scientific heritage.
    The Smithsonian provides education and outreach programs in 
art, culture, history, and science for visitors and scholars 
alike. It is governed by a board of regents consisting of the 
Chief Justice of the Supreme Court, the Vice President, nine 
private citizens, and six Members of Congress, including our 
good friend Tom Cole, who serves on this subcommittee.
    Overall, the proposed funding level in the Smithsonian's 
fiscal year 2017 budget request is $922.2 million, which is $82 
million, or about 10 percent, above fiscal year 2016 enacted 
level. Compared with other major accounts under this 
subcommittee's jurisdiction, your request is one of the most 
ambitious as measured on a percentage basis.
    Like most big organizations, the Smithsonian faces some 
enormous challenges, which we will be discussing at some length 
today. The subcommittee recently learned of the need for 
enormously costly repairs to the National Air and Space Museum. 
If approved, this effort will place extraordinary burdens on 
the Smithsonian's annual budget for the foreseeable future.
    The subcommittee congratulates the Smithsonian on the news 
of the opening of the National Museum of African American 
History and Culture on September 24 this year. The committee 
has met its funding commitment, providing $270 million, or one-
half the total cost toward construction of the museum. We are 
pleased that this extraordinary public-private partnership, 
enabling the museum to be built, has proven successful and the 
construction is now nearly complete.
    The construction of the African American Museum and the 
proposed repairs of the National Air and Space Museum are 
illustrative of the very real challenges this subcommittee 
faces. There is both increasing demand for and shrinking supply 
of Federal dollars to address many legitimate priorities. For 
this reason, it is essential that the Smithsonian outline and 
clearly communicate its highest and greatest priorities.
    Every member of this subcommittee would like to support a 
10 percent increase for funding for the Smithsonian, but given 
the incredible demands across this bill, it is probably not 
realistic. Difficult funding decisions will have to be made. 
The subcommittee will do its very best to address the 
Smithsonian's most urgent priorities. I look forward to your 
testimony and continuing to work together.
    In closing, I want to commend you for the Smithsonian's 
efforts to improve the display and storage of your vast 
collections. Based on the input this committee receives from 
Members from both sides of the aisle, it is very clear that the 
preservation and the care of these priceless and irreplaceable 
collections remain a high priority of this committee and this 
Congress.
    I am now happy to yield to my good friend and the 
subcommittee's ranking member, Ms. McCollum, for any opening 
remarks she would like to make.

                    Opening Remarks of Ms. McCollum

    Ms. McCollum. Thank you.
    I would like to also join the Chairman in welcoming you 
here this morning, Doctor. This is going to be your first 
budget hearing before the Subcommittee. You were officially 
installed as Secretary of the Smithsonian this past October, 
and I am pleased to have an opportunity on the Subcommittee to 
learn more about your vision for the Institution and how you 
plan on working through some of the challenges the Chairman has 
pointed out.
    The Smithsonian was created for an increase in the 
diffusion of knowledge. It has the ability to capture the 
imagination and the curiosity of both children and adults. It 
has something for everyone. In particular, the unique 
ImagiNATIONS children's space at the National Museum of 
American Indians is truly a delight for families, with the 
interactive crafts, Native book stories, and the exploratory 
learning that is there. I have to tell you, it is a destination 
for some young children I know well whenever they go to the 
Nation's Mall.
    I also want to applaud you for the triumphant reopening of 
the Renwick, which is providing a true experience of wonder and 
joy for the record number of visitors, young people and adults 
alike. I got to be there for the opening exhibit. It was 
fabulous.
    The Smithsonian Institution's fiscal year 2017 budget 
request is $922 million. It is an increase of $82 million over 
the 2016 enacted level. These increases will help support the 
Smithsonian's robust research programs, strengthen its diverse 
collections, and make essential investments for both the 
facility and the workforce.
    In regards to your collection, I would note that the 
administration has not proposed funding for the Save America's 
Treasures program. That National Park Service program began in 
1999, and was instrumental in partnering with others to 
preserve national historic collections, some of which are 
housed in your museums at the Smithsonian. For example, the 
Star-Spangled Banner flag was a recipient of Save America's 
Treasures.
    I hope, if given an opportunity, the Smithsonian will 
support efforts to restore this important Park Service program, 
which has a direct connection to being able to preserve your 
collections.
    Like other agencies in this subcommittee's jurisdiction, 
the Smithsonian is facing challenges with its facility and 
maintenance backlog. Many of the museums are still operating 
under the original major buildings systems and equipment and 
some are more than 50 years old.
    Currently, the Smithsonian's overall facilities condition 
index rating from the National Research Council is considered 
poor. In order to achieve an acceptable facilities condition 
index score and ensure the health and safety for visitors, 
staff, and, yes, at the zoo, the animals in its care, the 
budget requests $163 million. This amount would continue major 
renovations and efforts at the National Zoo and other priority 
areas, including the National Museum of American History and 
the National Museum of Natural History.
    It also provides a $50 million increase for the National 
Air and Space Museum, beloved by millions and one of the most 
visited museums in the world. Unfortunately, the museum is 
facing significant challenges with a deteriorating facade, 
which allows moisture into the building, and I am sure we will 
hear more about that, Mr. Chairman.
    This funding is the first of several significant increases 
the Smithsonian will be requesting to address the issues at the 
Air and Space Museum. It will fund preconstruction activities 
at the museum and construction of offsite storage.
    Although these are large investments, they are in the long-
term interests of the Nation. It is also the Federal 
Government's responsibility to provide the necessary funding to 
ensure the 28 million annual visitors to the Smithsonian are 
welcomed each year and have a safe and enriching experience.
    I am pleased that the National Museum of African American 
History and Culture will be opening this fall. The museum will 
provide a place to learn about the rich history and cultural 
experience and achievements of Americans of African descent. It 
will also be the first digital museum on the National Mall. 
That means anyone can share the experience. When Lonnie Bunch, 
the Museum's Director, was out in Minnesota, we were talking 
about it. People in Minnesota are so excited that they are 
going to be able to be there as part of the opening.
    Virtual collections provide amazing educational 
opportunities for millions of children. You are bringing the 
museum right into classrooms, and I say that as a social 
studies teacher.
    So, Doctor, I appreciate the work that you and all of the 
employees at the Smithsonian do to enhance the civic, 
educational, scientific, and artistic life of this Nation and 
preserve it. So I look forward to your testimony.
    I yield back, Mr. Chairman, and thank you for the time.
    Mr. Calvert. Thank you.
    Dr. Skorton, I am happy to yield to you for your opening 
statement. You are recognized.

                     Opening Remarks of Dr. Skorton

    Dr. Skorton. Mr. Chairman, members of the subcommittee, 
thank you for this opportunity to testify. On behalf of the 
entire Smithsonian Institution, we appreciate the continuous 
generous support of Congress. This support makes our huge and 
varied collections of national treasures accessible to the 
American public.
    From care and display of the Star-Spangled Banner, to 
research on the evolution of T.rex, we take our obligation to 
the American people very seriously. We leverage the Federal 
dollars with private support to expand our reach and 
capabilities. This unique public-private partnership is working 
well.
    In July, I was privileged to begin my tenure as the 13th 
Secretary of the Smithsonian. I am most honored and humbled to 
be a part of this great institution.
    Today, I would like to share just a few of our recent 
achievements and then touch on the two major objectives, the 
two major categories of funding: strengthening our intellectual 
foundation and programs, and strengthening our physical 
infrastructure.
    Your support advances the civic, educational, scientific, 
and artistic life of our Nation. Just a few recent highlights.
    Our stunning new National Museum of African American 
History and Culture opens on the National Mall this September.
    Smithsonian scientists use our collections to provide 
important and very practical insights on a variety of topics. 
Consider the Zika virus. The Department of Defense is working 
with our National Museum of Natural History to study and map 
the Zika outbreak. The National Zoo is exploring how it might 
spread through nonhuman vectors. And the Smithsonian Tropical 
Research Institute in Panama is examining the Zika-carrying 
mosquito's genetic makeup.
    Always, but perhaps especially in an election year, the 
National Museum of American History and the National Portrait 
Gallery offer revealing insights into our Nation's leaders.
    Our diverse music-related collections would comprise the 
largest music museum in the world if they were all in one 
place, and now, in a sense, they are, at a new Web site called 
Smithsonian Music.
    The Smithsonian American Art Museum's Renwick Gallery 
reopened to the public in November following a 2-year 
renovation. Its debut exhibition, ``Wonder,'' has attracted 
more than 368,000 visitors in just the first 4 months.
    And, in 2015, we welcomed a new panda cub, Bei Bei, at the 
National Zoo. Beloved by the public, Bei Bei represents our 
extensive work in species biodiversity.
    In the addition to the nearly 30 million visits at our 
museums in Washington and New York City, we are extending 
access and education around the country. We now have 208 
affiliate museums in 46 States, Puerto Rico, and Panama, and 
the Smithsonian Traveling Exhibition Service reaches more than 
4.5 million people annually.
    We offer online educational materials in K through 12 to 
students at all ages and teachers with more than 2,000 learning 
resources available online and all of them for free. Our 
Science Education Center has been helping to transform formal 
science education on the K through 12 level for more than 30 
years, and this curriculum is used in every State in the 
country and in 25 other countries around the world.
    We have more than 138 million objects in our collections, 
and to expand access we have created millions of digital images 
and electronic records, and we have become leaders in the field 
of three-dimensional scanning.
    I was recently at the National Air and Space Museum as our 
experts carefully climbed into the Apollo 11 command module to 
create a three-dimensional scan of its interior, revealing for 
the first time notes and a calendar written inside by American 
astronauts. What a discovery. All of this information we will 
offer online this summer for everyone to explore for free.
    Such treasures explain why the Air and Space Museum is 
always among the top three most visited museums in the world, 
and we are gearing up to transform it so that it will be there 
for generations to come. And this is a perfect example of one 
of our major objectives, strengthening our physical 
infrastructure.
    Our request also includes funds for construction of the Air 
and Space Museum's collections module at the Udvar-Hazy Center 
in Virginia, funds for revitalization projects, and funds for 
planning and design of future projects. These funds will enable 
the institution to continue major revitalization work at the 
National Museum of Natural History, the National Zoo, and the 
National Museum of American History.
    And as mentioned, our other priority is strengthening our 
intellectual foundation and programs. Our ranks of curators 
throughout the institution have shrunk substantially, 
especially in some of our museums. We need to reverse this 
long-term trend in the loss of curatorial and research staff. 
We need new experts who can continue to acquire and exhibit our 
unique collections while also ensuring the availability of the 
collections for critical research.
    The Smithsonian does face a future that holds both exciting 
opportunities and imposing challenges, and working with the 
Congress and the administration, we will aggressively address 
these challenges and take full advantage of many new 
opportunities.
    Again, I thank you for the opportunity of testifying. Thank 
you, Mr. Chairman.
    [The statement of Dr. David Skorton follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
                NATIONAL AIR AND SPACE MUSEUM RENOVATION

    Mr. Calvert. Thank you, Doctor.
    As you mentioned in your opening statement, the National 
Air and Space Museum, which is the most visited museum in the 
United States and second most visited in the world behind only 
the Louvre in Paris, is in need of some major repair work. The 
projections I have seen project the total cost to be 
extraordinary, nearly $600 million. This amount exceeds the 
total cost of the new Museum of African American History and 
Culture.
    Can you explain in some detail the nature of the repairs 
needed and why the estimated cost to address them is so high?
    Dr. Skorton. Thank you, Mr. Chairman.
    The museum, as you know, is about 40 years old, and so we 
have projected for a long time the need to update mechanical 
systems in the building, and that accounts for something on the 
order of magnitude of $200 million of the projected cost.
    Much of the rest of the cost is due to an unanticipated 
problem that was found in the cladding, or exterior, of the 
building, which will require replacement by new cladding for 
the safety of the public going into the building and for the 
building's own integrity.
    It will also be necessary, from my perspective, to keep as 
much of the museum open during the revitalization as possible, 
given the enormous appetite that the American public has to 
visit the museum and to gain from its collections. So some of 
the funding will go for the necessity to move items to offsite 
storage while a particular part of the museum is being worked 
on, and then move it back at that right interval. And when you 
add all these things up, it does come out to an extraordinary 
number.
    Our plan is to continue planning for this project for 
approximately another year and then to actually do the 
construction over a 5-year period, from fiscal year 2018 
through fiscal year 2022.
    Mr. Calvert. I am going to ask this question, because if I 
don't, somebody's going to ask me, ``Why didn't you ask it? '' 
What would be the replacement cost to just tear the existing 
museum down and rebuild it?
    Dr. Skorton. Thank you, Mr. Chairman. This was the very 
first question I asked when I was brought onboard and they told 
me about the very challenging price tag on repairing this 
building. And although it is counterintuitive, although at 
first you would think it would be much more parsimonious to 
replace the building, it turns out to be much more expensive, 
on the order of magnitude of $2 billion. And please bear with 
me while I explain a bit about why that would be.
    We would have to have a place to move the entire 
collection. And since it is such an enormous building with such 
an enormous collection, all the objects that are in there, 
including some very large objects, we would have to rent or 
build a massive storage facility. We would have to shut the 
museum down for years. And in addition to the very generous 
steadfast support that Congress has given us across the whole 
Smithsonian, we also have been able to raise some considerable 
funds through retail operations--IMAX theater, the shops, and 
so on--and, of course, that would all be off, we would lose 
that revenue.
    And so when you add it all up, although, as I say, it is 
counterintuitive, it turns out that this, even though a very 
expensive project, to replace it while keeping, let's say, half 
of the museum open throughout the project is actually much less 
expensive than it would be to replace the entire building. But 
I thank you for the question.
    Mr. Calvert. Sure. And of the $600 million, how much do you 
anticipate would be funded through Federal appropriations and 
how much would be addressed through non-Federal funding 
sources?
    Dr. Skorton. In this particular case, I have to ask that 
the entire amount be funded through Federal means. And may I 
please expand on that, Mr. Chairman?
    I have had the great opportunity in my career to 
participate in fundraising of a variety of distinguished 
nonprofit institutions, and the Smithsonian also uses the 
leverage that you supply by such steadfast support to do 
philanthropic fundraising. In my experience, it is difficult to 
raise philanthropic funds for a repair or replacement type of 
procedure as opposed to something new.
    And I must hasten to add that in the planning for the 
future of the National Air and Space Museum, we have plans for 
approximately $250 million of changes to the way we show 
exhibits to the public, increased use of interactive and 
electronic technology, a whole different approach, and we 
intend to raise those funds, the additional $250 million, 
through philanthropy, and we are already on our way to do that.
    But the actual reconstruction of the building itself, I am 
asking be done completely through Federal funds.
    Mr. Calvert. Well, before I ask Ms. McCollum to take over 
and ask a few questions, why don't you explain some of the 
items that you brought here to show us and to show everyone.

                  EXAMPLES OF SMITHSONIAN COLLECTIONS

    Dr. Skorton. Thank you, Mr. Chairman. Although I gave you 
an amateur's run through it before, I would like to introduce 
some professionals who can give you more in-depth, although 
succinct, discussion. I am going to name them all, and then 
they will get up in the order in which I named them. And I want 
to thank you on all of our behalf for allowing us to share a 
bit of the collection with you today.
    Dr. Harry Rubenstein of the National Museum of American 
History has brought the inkwell used by President Abraham 
Lincoln to sign the Emancipation Proclamation. Ms. Ann Shumard 
of the National Portrait Gallery has the so-called cracked-
plate portrait of Abraham Lincoln taken by the President's 
favorite photographer. Dr. Kelly Korreck of the Smithsonian 
Astrophysical Observatory has brought a prototype of a 
protective heat shield, part of NASA's Solar Probe Plus 
spacecraft. And Dr. Eleanor Harvey of the Smithsonian American 
Art Museum has brought Thomas Moran's beautiful watercolor of 
the Excelsior Geyser at Yellowstone National Park.
    Mr. Simpson. America's first national park, right?
    Dr. Skorton. I have been warned to stay out of this 
argument. So it is above my pay grade.
    Harry.
    Mr. Israel. Thomas Moran was from Long Island.
    Dr. Skorton. Whatever you say, I agree with completely.
    Mr. Israel. Okay.
    Mr. Rubenstein. Hi. My name is Harry Rubenstein. I am the 
chair of the Division of Political History at the National 
Museum of American History. And this is an inkstand that sat on 
the desk of Thomas Eckert, Major Thomas Eckert, at the War 
Department's telegraph office. And as you know, Abraham Lincoln 
would go to the telegraph office once or twice a day to keep 
tabs on what was happening during the Civil War. And in the 
summer of 1862, rather than swapping stories and jokes with the 
telegraph operators, he sat quietly at Major Eckert's desk and 
began to work on what became the Emancipation Proclamation. And 
so Major Eckert kept this and eventually saved it and presented 
it to the government.
    The inkwell will be in the opening of the African American 
Museum and will then move back to American History for our 
exhibition on American democracy.
    Thank you.
    Ms. Pingree. Just quickly, are those little movable--
    Mr. Rubenstein. So what these are, so you can see that 
these are part of the stand, but these are little inkwells.
    Ms. Pingree. Okay.
    Mr. Rubenstein. And what is on top are little figures of 
griffins.
    Mr. Israel. Little figures of what, sir?
    Mr. Rubenstein. Griffins.
    Mr. Israel. Beautiful.
    Dr. Skorton. Thank you, Harry.
    Ms. Shumard. Hello. I am Ann Shumard and I am the senior 
curator of photographs at the National Portrait Gallery. And 
this is one of the Portrait Gallery's and one of the 
Smithsonian's genuine treasures. It is a portrait of Abraham 
Lincoln that was taken by Alexander Gardner at Gardner's studio 
here in Washington, D.C., which was located at the corner of 
7th and D Streets, Northwest.
    It was taken on February 5 of 1865, just a month before 
Lincoln's second inaugural. And at the time, of course, that 
the picture was taken, there was the expectation that there 
would be many opportunities to photograph the President during 
his upcoming second term.
    The large glass plate negative that was used to produce 
this print cracked probably when a varnish was applied to it 
after it was developed, and so just one print was made from 
this large glass negative before the negative was discarded. It 
was irreparably damaged.
    What, of course, makes this image so evocative, I think, 
today is the expression that we have on Lincoln's face. This is 
a man who has seen so much trial and tragedy, but there is that 
hope, I think, you almost see in that sort of faint smile that 
the war that has torn the Nation asunder is drawing to a close 
and there is hope for the future.
    The portrait came to the Portrait Gallery's collection in 
1981, and it is, as I say, one of the true treasures of our 
holdings.
    Dr. Skorton. Thank you so much.
    Mr. Calvert. Thank you.
    Ms. Korreck. Hi. I am Dr. Kelly Korreck, and I brought with 
me today a prototype of the Solar Probe Cup. This cup is going 
to fly in 2018 on NASA's Solar Probe mission. This is a mission 
to actually touch the sun. And here in the picture, you will 
see that the cup is actually sticking out there and is going to 
collect parts of the sun.
    And it is not just a scientific enterprise, but it is also 
somewhat practical. Understanding the sun and what it throws at 
us actually will help us understand space weather, which can 
help us save our national power grid, as well as communication 
satellites. And so this is a part of one of the four instrument 
suites; there are other instrument suites aboard here, and they 
are all going to fly in 2018.
    Dr. Skorton. Thank you so much.
    Ms. Harvey. Good morning. My name is Eleanor Harvey. I am 
the senior curator of 19th century art at the Smithsonian 
American Art Museum. And as a former geologist, as well as an 
art historian, I bring to you today Thomas Moran's watercolor 
of Excelsior Geyser in Yellowstone painted in 1873, the year 
after Congress in its wisdom set aside Yellowstone as America's 
first national park.
    The park behind you, Yosemite, was set aside by Abraham 
Lincoln as a protected preserve at the middle of the Civil War 
as a post-war sanctuary, recognizing the power of nature as 
something we hold dear as part of America's cultural 
infrastructure.
    This watercolor was reproduced, along with a suite of 
others, to help promote visitorship to Yellowstone. I also see 
the See America proposals from the WPA. They were based on a 
Northern Pacific Railroad campaign called See Europe, But See 
America First. In order to get people out to places like 
Yellowstone, they created both the railroads and the 
infrastructure so that you could go watch Old Faithful and 
Excelsior Geyser erupt in full display.
    So it was a patriotic moment in America when we recognized 
that we have such unique features in this country that actually 
instill a kind of civic pride and make people want to explore 
the vastness of the country that we have here.
    Dr. Skorton. Thank you.
    And I want to be quick to indicate that the comment on that 
park, the first one, was a historical, not a political comment.
    Mr. Calvert. Well, since we have the portrait of Abraham 
Lincoln here, who wisely designated Yosemite to be the first 
federally acquired eventual park, that was very wise of him.
    Mr. Simpson. Yes, it was.
    Dr. Skorton. As Secretary, Mr. Chairman, I must say that I 
and the entire Smithsonian family values every single aspect of 
the American park system and the Park Service itself, 
celebrating its 100th anniversary.
    Mr. Calvert. We have a private joke going.
    Ms. McCollum.

                           LONDON OPPORTUNITY

    Ms. McCollum. Thank you. I am sure Ms. Pingree is going to 
make a plug for her park, but we have some great ones in 
Minnesota, too.
    We met in my office, and since then I have been doing more 
and more homework. I want to better understand where you see 
the Institution going in the future, especially now that we 
have all these surprises, should I say, for the Air and Space 
Museum renovation.
    Last January, the Board of Regents gave the Smithsonian 
permission to explore creating an exhibit space in London. It 
is my understanding such a venture would be done completely 
using private funds, but you have been talking about leveraging 
a lot of private funds here today for current collections and 
current buildings.
    I am concerned that Congress has not been a full part of 
this discussion. I bring this up because, at a minimum, the 
Smithsonian is an establishment of the United States and its 
funds are held in the U.S. Treasury. In the event of a lawsuit, 
it is represented by the Department of Justice. So we are 
intertwined here.
    In 2006, the Smithsonian entered into a business venture 
with Showtime network that drew the ire of Congress because of 
a lack of consultation. Former Secretary Small later admitted 
that in hindsight, the Smithsonian should have consulted with 
the Congress. Can you tell us when we can expect to learn more 
about the Smithsonian's finance plan regarding London, if it is 
on hold, and how you plan on consulting with Congress?
    As you look around and are addressing the problems, as I 
said earlier, at your domestic facilities like the National 
Zoo, can you really rely on having enough private contributions 
from private foundations like the Friends of the National Zoo 
to assist you with the deferred maintenance operation? If not, 
we have to come back and ask the Federal Government to address 
some of these problems.
    Please give us an update of where you are on London and 
elsewhere. Then, if time permits, I have a question on the Arts 
and Industries Building as well.
    Thank you, Mr. Chair.
    Dr. Skorton. Thank you very much. I would like to try to 
answer what I heard were three questions.
    First of all, on the extremely important matter of 
consultation with Congress, not only do we get two-thirds of 
our funding because of your generosity and foresight, but we 
are an organization in the public trust. So I couldn't agree 
with you more. It is hard for me to look backwards on what 
might or might not have happened in earlier consultation, but I 
will pledge to you today and to the entire subcommittee that we 
will make consultation and transparency a hallmark of our 
administration. I think it is very, very important, for all the 
reasons that you stated, including but not limited to the 
issues that you brought up.
    Secondly, I heard you raise the very, very important issue 
of leveraging Federal funds in other ways. And I will be very 
quick about this, but we do that in two ways, in what I am 
going to call roughly business or retail operations, like the 
shops in the museums, the IMAX theaters, and the magazine, 
other things that you can purchase something or derive a 
benefit; and then secondly, philanthropy, outright gifts.
    And the Smithsonian has been very effective in both the 
retail and philanthropic side of the house, but as you 
mentioned and as the chairman mentioned, the needs are very 
challenging and it is going to take everything that we can do 
to keep faith with the very strong support that you have given 
us and keep faith with those who purchase things from us and 
those who give philanthropic donations.
    So I take that very seriously. And I believe, as a personal 
comment, a personal observation, still new at the Smithsonian 
and new in Washington, I believe part of the reason that my 
predecessors, especially Secretary Clough and Secretary 
Horvath, were so successful in raising philanthropic funds is 
because of the stalwart congressional support.
    And it has been my experience in other public institutions 
raising philanthropy that when there is solid public funding, 
other people will also join in. So I thank you very much for 
that, because you have made the philanthropy possible.
    But now, getting to the main focus of your question about 
London, it ties together a lot of these issues that you raised 
up. And I think the opportunity for the United States to tell 
its story overseas in a time of--obviously today is one of 
those terrible days where we are thinking so much about the 
international situation. I think being able to tell the story 
of America overseas would be a good thing for the Smithsonian 
and a good thing for the country.
    However, given the pressure on Federal funds that the 
chairman has indicated and the pressure on us that you, 
Congresswoman, have indicated, we have to make sure, and I have 
already pledged earlier and will pledge again today, that we 
will not use Federal funds from the United States for this 
project and we will not do the project unless the finances can 
stand completely on their own, including not interrupting other 
flows of funds that we have to do, and I believe that is what 
you are asking me.
    I can't tell you today whether the project will in fact 
come to fruition. I hope to be able to have an answer for you 
through our Board of Regents on the second week in April at our 
next full Board of Regents meeting. But I think it is an 
exciting prospect. We have to have it stand completely on its 
own bottom, and I am not there yet.

                      ARTS AND INDUSTRIES BUILDING

    Ms. McCollum. The Smithsonian Arts and Industries Building 
is an icon on the National Mall and is right next to the 
Castle. It is an important role, part of the history of the 
Smithsonian. At one time it was included by the National Trust 
for Historic Preservation as one of the most endangered 
historic sites in the United States. The building was closed in 
2004 for renovations. In fact, it was just last spring, almost 
10 years later, that the Smithsonian announced that it was 
opening the building for short-term exhibits.
    Could you please update the committee on how you see the 
Arts and Industries Building fitting into your south campus, 
and the current condition of the building? When will you 
finally be able to host events? Is the challenge still of 
adequate plumbing and HVAC systems there? Then I hope that you 
also talk to Congress about renovating the gardens there, right 
adjacent to the building, because we are already starting to 
hear about that.
    Dr. Skorton. Thank you very much. And let me talk 
specifically about the Arts and Industries Building, and then 
if you have more specific questions about the garden or the 
areas around, I am very glad to answer those as well.
    I have one of these dream jobs, and one of the parts of my 
dream jobs is I have a dream office that looks right at the 
Capitol. And in my line of sight to the Capitol is the Arts and 
Industries Building, and also the carousel, which I am watching 
a lot of young people enjoy.
    As I look at those three objects, I often focus on the Arts 
and Industries Building, and I asked myself the first time I 
came for interviews nearly 2 years ago: What are we going to do 
with this beautiful Victorian building, second oldest building 
in the Smithsonian universe?
    And as you said, only very recently has the building been 
reopened.
    [The information follows:]

    The systems that you mentioned--plubming and HVAC--have not 
yet been refurbished, though we have installed restrooms.

    I asked for my installation to be there. It was last 
October. Thank you for recognizing that. And it was a beautiful 
chance to use the building.
    And so it is ready for those occasional uses right now. We 
are opening it for those kinds of uses this year. We are 
beginning to plan, and are not at the point yet where I have 
something concrete and intelligent to share with you, about 
some more strategic uses of the building going forward. But it 
is another one of those areas, Congresswoman, where we need to 
stay in touch with this and the other subcommittees who oversee 
and appropriate funds for the Smithsonian.
    But this will be the year, this very calendar year that we 
are in, where you will begin to see more use made of that 
building.
    Ms. McCollum. Thank you, Mr. Chair.
    And I will follow up with your staff on the questions on 
the gardens. Thank you.
    Dr. Skorton. Thank you very much.
    Mr. Calvert. Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman. I have no questions at 
this time.
    Thank you for being here, to gather these wonderful 
exhibits for our observation.
    Dr. Skorton. Thank you for all that you do for us.
    Mr. Calvert. Ms. Pingree.

                      OCEAN RESEARCH AND OUTREACH

    Ms. Pingree. Thank you, Mr. Chair.
    Thank you very much for being here, Dr. Skorton, and thank 
you to everyone who brought such interesting exhibits for us to 
see. That was really a pleasure. We are very appreciative of 
the work that you do. And I echo all the things that my 
colleagues have said earlier.
    I just want to talk a little bit about some of the things 
that you do through the Smithsonian outside of D.C. I represent 
Maine, and we have been very fortunate to work with you on a 
variety of things.
    Recently the Portland Museum of Art had a major 
retrospective on Richard Estes' realism, which they were able 
to do with the cooperation of the Smithsonian. And that is 
really important for small States like ours that are lucky to 
access your resources.
    I want to talk a little bit about the MarineGEO program 
that is growing within the Smithsonian, and is a very important 
part of what you do in research. I have a lot of coastal 
communities, of course, that are interested in things like 
climate change. But we don't have a MarineGEO site in Maine, 
and I want to talk a little bit about some of the additional 
funds that are requested for MarineGEO staff.
    Will you be able to expand the number of partner sites? 
Have you thought about how you could work with small and more 
narrowly focused organizations that are interested in becoming 
research sites either by providing additional financial 
resources to help them expand their research or encouraging a 
consortium model, which would allow them to contribute?
    Dr. Skorton. Thank you very much. And I hear two important 
questions embedded in what you asked me. If I may take just a 
moment to talk about our activities outside of D.C.
    It is very, very important. It is really a lucky subset of 
the United States that can get to the Mall, and it is expensive 
to get here. One of the reasons that my predecessors began this 
very vigorous thrust on digitization is so that people anywhere 
who have access to the Internet, which is most, but not all, 
can have a chance to view major parts of the collection.
    And also being in the public sector for most of my career, 
I think for a federally funded institution where the taxpayers 
are paying for it in every corner of the country, it is 
exquisitely important that we are responsive to their appetite 
to taste the Smithsonian.
    Besides the 208 affiliate museums and the Traveling 
Exhibition Service, both of which were embedded in your comment 
about the Portland museum, we have other projects that through 
the research end of it touch the Nation and the world. And our 
mission, which was part of the letter that James Smithson wrote 
to establish the endowment 170 years ago, our mission is the 
increase and diffusion of knowledge.
    We talk a lot about the diffusion of knowledge, that is, 
the interface between the public and these unbelievable 
collections, but the increase part, the research part is 
unbelievably important, whether we are talking about Zika, 
climate change, you name it.
    And so the Forest and MarineGEO consortia, I am going to 
call them consortia, was set up to do just exactly what you 
said, that is, to have the benefit of the research thinking of 
the Smithsonian touching communities everywhere and to help 
gain knowledge that would raise all the ships.
    And so for those who are not familiar with it, the 
MarineGEO is a project that studies coastal waterways. And 
coastal waterways are very, very important because that is the 
area where there is a tremendous concentration of life forms, 
and in our country a tremendous concentration of population. 
And so the interaction between the human population and the 
wildlife that lives at the edge of the coastal areas is very 
important to study.
    We do not have enough funding so far to expand to the 
extent that I would like to expand. We do have a request as 
part of this budget request to continue staffing and planning 
for MarineGEO. MarineGEO was made possible actually through a 
combination of your support and a very generous contribution of 
an individual from our Smithsonian National Board.
    And so it is my hope to leverage, again, the funds that you 
give us through philanthropy so that we can begin to think more 
broadly about bringing more partners on. And so we have very 
good intentions in that regard. And I need to be cautious in 
what I promise, because we do need to raise more funds.
    But I think, having spent my whole career in science, that 
it is very important that that scientific research touches not 
only different parts of the country, but that scientists and 
people who want to participate be able to in areas far spread. 
So I am totally with you in intention, and will work to do my 
best to make that a reality.
    Thank you very much.
    Ms. Pingree. Great. We will look forward to staying in 
touch about that. Thank you very much.
    Dr. Skorton. Thank you.
    Ms. Pingree. Thank you very much, Mr. Chair.
    Mr. Calvert. Thank you very much.
    Mr. Simpson.

                NATIONAL AIR AND SPACE MUSEUM RENOVATOIN

    Mr. Simpson. Well, thank you, Mr. Chairman.
    And thank you for being here today. We have votes that have 
just started and are going on, so come by my office and talk to 
me. I would like to talk to you about some of the things. What 
is going on in Panama, and what the Smithsonian does there is 
obviously important. I want to talk to you about the cladding. 
Is this the same thing that happened with the National Art 
Gallery that needed to be replaced? The exterior of it?
    Dr. Skorton. Can I answer that piece of it?
    Mr. Simpson. Yeah.
    Dr. Skorton. In a sense yes, in a sense no. Isn't that a 
helpful answer?
    Mr. Simpson. Yeah. It is a political answer. I give that 
answer all the time.
    Dr. Skorton. I am going to stay away from the National Park 
on this one.
    But it turns out that the cladding when it was cut for the 
National Gallery of Art, of which I serve as a board member, 
was cut to a thickness about twice as thick as the thickness of 
the cladding on the National Air and Space Museum. Our thinner 
cladding was done, as I understand it, to save funds and speed 
along construction at a time when they were trying to get the 
building done for the Bicentennial.
    And so in the case of the National Gallery of Art, 
Congressman, it was possible to reuse that thicker cladding. It 
is not going to be possible to reuse this cladding. It will be 
discarded and we have got to start from scratch. And it is part 
of the reason, in my answer to the chairman's most important 
and reasonable question, why it is such an expensive project.
    Mr. Simpson. Is it the same issue relative to what caused 
the necessity for replacing it?
    Dr. Skorton. In part it is, yes.
    [The information follows:]

    The issue at the National Gallery was the fasteners that 
held the cladding to the building. The issue at the Air and 
Space Museum is the cladding itself, which is too thin and is 
warping and cupping.

                       LATINO PROGRAMS AND MUSEUM

    Mr. Simpson. Okay.
    And the other thing I would like to talk to you about at 
some point in time when we have some time is, are you getting 
pressure on the Arts and Industries Building to use it for the 
Hispanic museum? Or is that a question you don't want to 
answer?
    Dr. Skorton. No, no. I want to answer any question you 
have. I just want to give you the right answer.
    So, first of all, part of our charge, part of what you 
expect us to do is tell the story of America in all its 
completeness and beauty, and the story of the American Latino 
has to be a very important part of telling that story.
    So, as you know, in recent history a new museum for the 
Smithsonian is always established by an act of Congress. That 
act has not occurred. However, my predecessors have already 
begun some years ago to begin to gear up our efforts to tell 
the story of Latinos in America, again, through the two 
Secretaries who preceded me.
    We have a project that you have been very generous in 
funding for a Latino fund that allows us to fund some projects 
within the Smithsonian. That has been very, very effective. We 
also have been hiring, even though we don't have a specific 
museum, we have been hiring curators with expertise in telling 
the story of Latinos in America, and they are working in 
various places throughout the institution through the 
Smithsonian Latino Center. And we have multiple exhibits, 
something on the order of five or six in this last year, 
touching on some of those areas.
    So it will be in your hands to decide should we have a 
National Museum of the American Latino, but in the meantime, we 
are pushing ahead and I am pushing ahead to tell more 
completely the story of the American Latino.
    Mr. Simpson. Thank you. I appreciate that.
    And I have got to tell you, it is not fair that you get to 
bring in all this neat stuff and it distracts us that so that 
we don't even listen to your testimony or care about your 
budget. And, the EPA could bring in something with Quagga 
mussels all over it, but it is not very exciting. You have an 
advantage that others don't.
    Dr. Skorton. It is true. The world isn't fair, but I am so 
glad to be on my side of it.
    Mr. Simpson. Thank you.
    Dr. Skorton. Thank you. Thank you very much.
    Mr. Calvert. Thank you.
    Mr. Israel.

                OUTREACH, EDUCTION AND PUBLIC ENGAGEMENT

    Mr. Israel. Thank you, Mr. Chairman.
    Dr. Skorton, thank you for your work and for bringing these 
treasures.
    I want to follow up on Ms. Pingree's question and your 
comments on the value of outreach and education. I think that 
we are in an environment right now in this country where we are 
witnessing a historic breakdown in people's faith in all 
institutions across the board, the institution of government 
and institutions just across our social spectrum. And part of 
that, I believe, is because there is a lack of civic 
engagement. Part of that is because we just don't teach civics 
anymore in our classrooms and in our schools.
    There is this famous quiz that is circulating that when you 
ask a certain age cohort who won the Civil War, a majority will 
say the British. That is a function of just not having access 
to history and not having access to the traditional civics 
lessons that we all were taught when we were growing up.
    So I would like you to amplify your comments on the 
importance of education, not just in Washington, and whether 
the Smithsonian has a mission--or would consider having a 
mission--with respect to greater civic engagement and civic 
education across the country.
    Dr. Skorton. Thank you very much, Congressman.
    First of all, before, when I quoted the mission statement 
of the increase and diffusion of knowledge, I think it is 
unbelievably important that the diffusion of knowledge not just 
involve people crossing the thresholds of our beautiful museums 
here and in New York City and elsewhere. We have to go out and 
help people where they live.
    And as I mentioned just very briefly in my opening remarks, 
the education work of the Smithsonian, for example in STEM 
disciplines, and I am going to get back to the social sciences 
in a moment, is very, very well established throughout the 
country, as people wish to use it. As you know, our K through 
12 system is a local phenomenon largely and, therefore, varies 
a lot. But we are there for people who want to use it, and, in 
fact, that use occurs in every single State of the United 
States.
    However, I think we could be doing even more in terms of 
outreach, and I think that outreach could and should occur in 
two directions. It is one thing for us to go out and offer--all 
we can do is offer--educational services and arts and culture 
and history and science, for that matter, where it is a partner 
with people who want to do scientific research, as 
Congresswoman Pingree brought up. It is something else to get 
their input.
    And one of the hallmarks that I hope to bring to this 
Smithsonian, which has already been a part of it, but I hope to 
strengthen it, is to listen more to the public about what they 
want. And the first thing I am going to do, I am going to start 
small and close to home. I think we owe some focus on the city 
of Washington, since the city of Washington is where our home 
base is.
    So with the help of Mayor Bowser, I am establishing a Youth 
Advisory Council to meet from among high school students in 
Washington, D.C. I am hoping that those high school students 
will be able to tell me what they are interested in, what they 
believe they need, and I want to go directly to the place where 
we would like the education to occur. The first meeting of this 
group I hope is going to be this very next month, and I hope to 
ask them the very question that you are asking me indirectly, 
and that is, what do you think you need that we could do for 
you?
    In terms of a more direct answer to your question about the 
lack of focus on civics, as I am sure you know, because it is 
an area of interest of yours and everyone on the subcommittee, 
there is a lot of consternation about where American youth are 
in terms of their knowledge of American history and civics. 
There are other organizations, nonprofits, that have been 
brought up to actually deal specifically with the civics 
problem. And I think that what we can do is really three things 
at the Smithsonian.
    We can offer the exposure to the history of the United 
States and its culture through the collections themselves.
    Secondly, these museums already offer enormous numbers and 
very effective types of public programs, public outreach 
programs. Some of those are done through the Smithsonian 
Associates, some of them are done individually in different 
ways. And, again, all we can do is offer and hope that they 
will come.
    And then thirdly, I want to go out and find out what the 
public would like from us, and in asking those questions ask, 
what could we do to be helpful in broadening your perspectives.
    And just one quick end to this very long, windy answer. 
When I have a few minutes in my daily schedule, I like to walk 
away from my office and go to the museums and talk to the 
visitors, talk to the families and the tourists who come. And 
one of the things that they ask most consistently, it is not a 
scientific sample, but just in my 9 months of asking them, is 
that parents will ask, what can you do to help my kids 
understand a bewilderingly changing world? And if they don't 
specifically ask about civics, they do ask, what can you do to 
help us to bring our kids along? So I really appreciate the 
question and your thrust.
    Mr. Israel. Well, if you would find some time to visit with 
me in my office, I would love to follow up on this and 
specifically understand what kind of outreach you have to 
teachers and schools across America and how we could be 
helpful.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    And we would love to spend the day with you, Doctor, but, 
unfortunately, we have to go vote.
    Mr. Israel. Saved by the bell.
    Mr. Calvert. Saved by the bell.
    I would like to get into more depth, somewhere down the 
road I will visit the Air and Space Museum with you, because 
that is a huge number, as you know, and we need to find out how 
we are going to do this. I know it has to be done, it is your 
most visited museum and it is certainly a national treasure.
    With that, we are adjourned.
    Dr. Skorton. Thank you very much.
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               I N D E X

                              ----------                              

           U.S. Fish and Wildlife Service 2017 Budget Request
                     March 15, 2016, Rayburn B-308

                                                                   Page
Aquatic Animal Drug Approval Partnership.........................    22
Aquatic Species Conservation Delivery............................    91
Asian Carp 




Authority to Recover Damages.....................................    91
Bay Delta........................................................    49
Biography--Chris Nolin...........................................    14
Biography--Director Dan Ashe.....................................    12
Burmese Python...................................................    47
Comprehensive Conservation Plans.................................    65
D.C. Booth National Fish Hatchery and Archives...................    66
Deepwater Horizon Oil Spill Settlement: Gulf Coast Restoration 




Deferred Maintenance Backlog.....................................    60
Delta Smelt 





Duck Stamp 




Echinoderms......................................................    22
Endangered Species Act: Delisting and Downlisting Backlog........    56
Endangered Species Act: Listing..................................    56
Endangered Species Act: Reauthorization..........................    54
Endangered Species Act: State and Tribal Wildlife Grants.........    57
Endangered Species Act: Status Reviews...........................    55
Fish and Wildlife Foundation.....................................    38
Fish Passage 



Gray Wolves......................................................    25
IMARS............................................................    70
Malheur National Wildlife Refuge 




Mexican Wolf.....................................................    31
Minidoka Refuge Comprehensive Conservation Plan (CCP) 



Minnesota Moose Population.......................................    89
Mitigation Policy................................................    26
Monarch Butterflies..............................................    24
National Ocean Policy............................................    67
Opening Remarks of Chairman Calvert..............................     1
Opening Remarks of Director Ashe.................................     4
Opening Remarks of Ms. McCollum..................................     3
Pollinators......................................................    88
Questions for the Record from Chairman Calvert...................    49
Questions for the Record from Mr. Amodei.........................    77
Questions for the Record from Mr. Jenkins........................    80
Questions for the Record from Mr. Joyce..........................    74
Questions for the Record from Mr. Simpson........................    72
Questions for the Record from Mr. Stewart........................    75
Questions for the Record from Ms. McCollum.......................    82
Sage Grouse 






Statement of Director Ashe.......................................     7
Stillwater Refuge................................................    47
Stream Protection Rule 



Utah Prairie Dog.................................................    30
Virgin Spinedace.................................................    75
Washington State Hatchery Compliance.............................    27
White-Nose Syndrome..............................................    90
Wildlife Trafficking/International Affairs 




               National Park Service 2017 Budget Request
                     March 16, 2016, Rayburn B-308

Acadia National Park: Overcrowding 



Acquisitions and Reconnaissance Studies..........................   128
American Battlefield Protection Program (ABPP): Land Acquisition 
  Grant Program..................................................   160
Arches National Park: Congestion.................................   118
Biography--Director Jonathan B. Jarvis...........................   111
Biography--Lena McDowall.........................................   112
Biscayne National Park Marine Reserve Zone.......................   154
Bottled Water 




Boy Scout Jamboree...............................................   121
Centennial Challenge 



Centennial Funding 



Co-Marketing of National Parks...................................   122
Competitive Civil Rights Grants..................................   115
Deferred Maintenance Backlog 




Defining Asset Priority..........................................   126
Enhancing Visitor Services: Use of Technology 



Everglades Restoration/Tamiami Trail Bridging Project............   145
Grand Teton National Park: Land Acquisition Proposal 



Growth of the National Park System 



Historically Black Colleges and Universities 





Land and Water Conservation Fund (LWCF)..........................   150
Memorial Bridge Repairs..........................................   136
National Heritage Areas 



National Mall....................................................   147
National Mall: Public-private Partnerships.......................   157
National Park Service Endowment..................................   140
National Park Service Operations: Staff Levels...................   166
National Park Service: Financial Health..........................   159
Office of Inspector General (OIG) Report.........................   141
Olympic Hot Springs Road.........................................   127
Opening Remarks of Chairman Calvert..............................    95
Opening Remarks of Director Jarvis...............................    97
Opening Remarks of Ms. McCollum..................................    96
Promoting Park Service within Gateway Communities................   143
Quagga and Zebra Mussels 



Questions for the Record from Chairman Calvert...................   134
Questions for the Record from Mr. Kilmer.........................   171
Questions for the Record from Mr. Simpson........................   163
Questions for the Record from Ms. McCollum.......................   166
Recreation Fee Authority 



Reimbursing States 



Roosevelt Island.................................................   123
Save America's Treasures 



Statement of Director Jarvis.....................................   100
Sustainable Funding..............................................   123
Tick-borne Illnesses 



Transportation Funding 



Trash in National Parks..........................................   114
Utah Parks: Bus and Parking Issues 



White House Fence 



Yosemite National Park: Intellectual Property/Naming Rights 



Zion National Park: Tour of Utah 




Bureau of Indian Affairs/Bureau of Indian Education 2017 Budget Request
                     March 16, 2016, Rayburn B-308

Biography--Lawrence ``Larry'' Roberts............................   185
Biography--Charles ``Monty'' Roessel.............................   187
Biography--Melissa Emrey-Arras...................................   216
Biography--Michael S. Black......................................   186
Climate Resilience...............................................   191
Detention and Corrections Facilities 



GAO Recommendations..............................................   220
GAO Report on School Safety......................................   234
Grade Expansion..................................................   233
Graduation Rates.................................................   193
Housing Needs for Employees......................................   196
Indian Education Foundation......................................   231
Law Enforcement..................................................   192
Mental Health....................................................   241
Natural Resources................................................   244
New Tribal Recognition Policy....................................   236
OIG Report on Detention Centers..................................   228
Opening Remarks of Acting Assistant Secretary Roberts............   175
Opening Remarks of Chairman Calvert 



Opening Remarks of Ms. Emrey-Arras...............................   202
Opening Remarks of Ms. McCollum 



Performance Evaluations..........................................   217
Public Safety and Justice 



Questions for the Record for DOI from Chairman Calvert...........   222
Questions for the Record for DOI from Mr. Amodei.................   236
Questions for the Record for DOI from Mr. Kilmer.................   245
Questions for the Record for DOI from Mr. Simpson................   233
Questions for the Record for DOI from Ms. McCollum...............   240
Questions for the Record for DOI from Ms. Pingree................   244
Real Estate Services.............................................   190
Realty: Title Conveyances........................................   237
Road Maintenance.................................................   199
School Construction 






School Construction: Alternative Funding Sources.................   196
School Facilities Inspections 




School Fire Inspections..........................................   218
Statement of Acting Assistant Secretary Roberts..................   177
Statement of Ms. Emrey-Arras.....................................   204
Tiwahe Initiative................................................   240
Tribal Broadband Access 



Tribal Transportation Program....................................   196
Violence Against Women Act.......................................   224

          Environmental Protection Agency 2017 Budget Request
                     March 22, 2016, Rayburn B-308

Algal Blooms.....................................................   293
Arsenic in Drinking Water........................................   317
Biography--Administrator Gina McCarthy...........................   262
Biography--David Bloom...........................................   263
Bluon--SNAP Program Approval.....................................   314
Buy America 



Citrus Greening..................................................   302
Clean Power Plan 





Clean Power Plan: Kentucky Coal Mines............................   296
Clean Power Plan: West Virginia Coal Mines.......................   289
Clean Water State Revolving Fund (CWSRF) Reduction...............   303
Comprehensive Environmental Response, Compensation, and Liability 
  Act (CERCLA)...................................................   322
Decentralized Wastewater Treatment Systems.......................   335
Diesel Emissions Reductions (DERA) Grants........................   264
Drinking Water and Wastewater Treatment Technologies.............   307
Ecolabels........................................................   321
E-Manifest and Cybersecurity.....................................   334
EPA Budget and Personnel.........................................   309
EPA Lobbying.....................................................   297
EPA Procurement Policies.........................................   337
Epidemiology Studies.............................................   323
Fish Consumption Rate and Water Quality Standards................   317
Flint, MI 





Food Recovery Act................................................   294
FY 2017 Budget Proposal..........................................   304
Gold King Mine Spill.............................................   274
Gold King Mine Spill: Animas River...............................   275
Gold King Mine Spill: Reimbursement of Tribes....................   314
Great Lakes Restoration Initiative (GRLI): Tribal Grants.........   299
Hardrock Mining Financial Assurance..............................   326
Household Action Level for Lead..................................   339
Lead Paint Rule..................................................   266
Long Island Sound................................................   290
Opening Remarks of Administrator McCarthy........................   254
Opening Remarks of Chairman Calvert..............................   247
Opening Remarks of Ms. McCollum..................................   249
Opening Remarks of Ranking Member Lowey..........................   253
Ozone............................................................   329
Perchlorate......................................................   326
Pesticide Product Label Registration.............................   325
Pollinators--Pesticides 



Puget Sound......................................................   277
Questions for the Record from Chairman Calvert...................   309
Questions for the Record from Mr. Amodei.........................   326
Questions for the Record from Mr. Israel.........................   339
Questions for the Record from Mr. Jenkins........................   328
Questions for the Record from Mr. Kilmer.........................   337
Questions for the Record from Mr. Simpson........................   317
Questions for the Record from Ms. McCollum.......................   333
Radon............................................................   310
Region 10 Employee Appreciation..................................   304
Rural Water Technical Assistance.................................   272
State Oversight..................................................   334
Statement of Administrator Gina McCarthy.........................   256
Statement of Chairman Rogers.....................................   251
Superfund: Needs.................................................   312
Superfund: Special Accounts......................................   313
Targeted Airshed Grants..........................................   264
Treatment of Veterans--Training for Management...................   315
Water Infrastructure Financing (WIFIA)...........................   333
Waters of the United States/Navigable Waters 



Zika Virus.......................................................   302

              Smithsonian Institution 2017 Budget Request
                     March 23, 2016, Rayburn B-308

Arts and Industries Building 



Biography--Dr. David J. Skorton..................................   357
Digitization of the National Collections.........................   376
Examples of Smithsonian Collections..............................   360
Latino Programs and Museum.......................................   368
London Opportunity...............................................   362
Museum of African American History and Culture...................   372
National Air and Space Museum Renovation 



Ocean Research and Outreach......................................   365
Opening Remarks of Chairman Calvert..............................   341
Opening Remarks of Ms. McCollum..................................   342
Opening Remarks of Secretary Skorton.............................   344
Outreach, Education, and Public Engagement.......................   369
Preservation of Collections......................................   373
Preservation of Cultural Heritage 



Questions for the Record from Chairman Calvert...................   371
Questions for the Record from Ms. McCollum.......................   383
Research.........................................................   383
Smithsonian Capital Campaign.....................................   373
Smithsonian Facilities Capital Priorities........................   371
South Mall Campus Development....................................   393
Statement of Dr. David J. Skorton................................   346
Strengthening Collections........................................   391

                                  <all>
</pre></body></html>
